<html>
<title> - IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION</title>
<body><pre>[Senate Hearing 108-219]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-219
 
        IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION--NEXT STEPS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 23, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                      U.S. GOVERNMENT PRINTING OFFICE

90-883                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

American Association of Engineering Societies, Paul J. Kostek, 
  chairman, statement submitted for the record...................    67
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    22
    Letter from Anthony Borden with additional responses on Iraq 
      Media and Information Strategies...........................    60
Borden, Anthony, executive director, Institute for War & Peace 
  Reporting, London, United Kingdom..............................    26
    Prepared statement...........................................    29
    ``A New Voice in the Middle East: A Provisional Needs 
      Assessment for the Iraq Media''............................    29
Hamre, Dr. John, president and CEO, Center for Strategic and 
  International Studies, Washington, DC; accompanied by: 
  Frederick Barton, co-director, Post-Conflict Reconstruction 
  Project, CSIS; Bathsheba Crocker, Council on Foreign Relations 
  Fellow at CSIS; Dr. Johanna Mendelson-Forman, senior program 
  officer, United Nations Foundation; Dr. Robert Orr, vice 
  president and director of the Washington Program, Council on 
  Foreign Relations..............................................     6
    Prepared joint statement.....................................     8
    ``Iraq Reconstruction Assessment Mission--June 27-July 7, 
      2003''.....................................................    10
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
    ``How Peace in Iraq Became so Continued--Violence and Chaos 
      not Only Jeopardize Troops but Also the Future of U.S. 
      Foreign Policy in the Middle East,'' article from USA 
      TODAY, July 22, 2003, submitted for the record.............    64

                                 (iii)

  


       IRAQ: STATUS AND PROSPECTS FOR RECONSTRUCTION--NEXT STEPS

                              ----------                              


                        WEDNESDAY, JULY 23, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 3:53 p.m., in room SH-216, Hart Senate 
Office Building, Hon. Richard G. Lugar (chairman of the 
committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Alexander, Coleman, Sununu, Biden, Sarbanes, Feingold, Boxer, 
Bill Nelson, and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    We thank the witnesses for their promptness, and we regret 
that Senators were called to the floor for a rollcall vote that 
is still in progress, but we will be joined by our colleagues 
as they complete their duties and come to the hearing.
    Let me just say at the outset that we may at some point, 
providence willing, have a quorum of the committee present, and 
I want to seize that opportunity when it comes to ratify five 
treaties, advance the Foreign Service list, and other purposes, 
which should be unanimously received.
    Let me simply say the Committee on Foreign Relations 
welcomes Dr. John Hamre, former Deputy Secretary of Defense and 
currently the president of the Center for Strategic and 
International Studies. Accompanying Dr. Hamre is his team from 
the Commission on Post-Conflict Reconstruction: Dr. Robert Orr, 
Mr. Frederick Barton, Dr. Johanna Mendelson-Forman, and Ms. 
Bathsheba Crocker. Also with us today is Anthony Borden, 
executive director of the Institute for War and Peace 
Reporting, and we welcome Mr. Borden's insights on the media 
situation in Iraq.
    Dr. Hamre, we are pleased especially to have you to be able 
to discuss with you the excellent report you and your 
colleagues have prepared on Iraq reconstruction.\1\ I commend 
Secretary Rumsfeld and Ambassador Bremer for commissioning your 
mission to Iraq. The resulting report, entitled ``Field Review 
and Recommendations on Iraq's Post Conflict Reconstruction,'' 
was published last week by the Center for Strategic and 
International Studies. It carefully outlines the difficult 
challenges our country faces in Iraq and makes 32 urgent 
recommendations for improving conditions in that country.
---------------------------------------------------------------------------
    \1\ The report referred to is included with Dr. Hamre's submitted 
statement and can be found on page 10.
---------------------------------------------------------------------------
    For the Senate Foreign Relations Committee, this hearing 
provides a marker with which to measure both our hopefulness 
and our frustration. We are hopeful because the recommendations 
of your report are being taken very seriously. Since the report 
was released last week, Defense Department officials have 
praised its conclusions and emphasized the work that is already 
underway to implement many of them. It is frustrating, however, 
because many of the issues you raise, particularly those 
concerning the need for improved application of resources, for 
better planning, for broader international involvement, are the 
same issues we have been raising here in the committee for 
months.
    I would like to read two paragraphs of a letter that 
Senator Biden and I wrote to President Bush before the war in 
Iraq, and I quote from our letter. ``The United States should 
pursue a policy in Iraq that has broad international support. 
Such support is desirable for both substantive and political 
reasons. Our allies around the world and our friends in the 
region have important, and possibly even necessary 
contributions to make to the effort to disarm Iraq. We may need 
their support for any initiatives we take at the United 
Nations. Should we pursue military action, we will want them 
with us and, at a minimum, require basing and over-flight 
rights from several countries. If, in the course of disarming 
Iraq, we end Saddam Hussein's regime, a massive rebuilding 
effort will be required that the United States will not want to 
shoulder alone. We also depend on the active and continued 
cooperation of many allies in the unfinished war against 
terrorism. In short, building international support for our 
Iraq policy must be a priority.''
    End of quote from that portion of the letter, but we 
continue. ``We must be candid with the American people that 
Iraq represents a long-term commitment by the United States. We 
urge you to formulate and express a vision for a democratic, 
unified, post-Saddam Iraq, living in peace with its neighbors. 
The American people must know the military, financial and human 
capital the United States would be prepared to commit to help 
realize that vision. The Iraqi people and their neighbors must 
be confident that chaos will not follow Saddam Hussein. 
Moreover, you would help assuage international concerns that 
the current unsettled situation in Afghanistan may be 
replicated in Iraq, and if so with far greater strategic 
consequences.''
    Now, that is the end of the passage from our letter.
    Senator Biden and I sent that letter to President Bush more 
than 10 months ago on September 10, 2002. I share this historic 
footnote not to prove the prescience of the committee, but 
rather to underscore that the basic questions and problems 
surrounding post-war Iraq have been known and were discussed 
mercifully by many expert witnesses before this committee in 
many hearings for a long time. We must answer those questions 
and implement solutions to the problems now. The report before 
us is a very good place to begin a review of what will be 
necessary to achieve our objectives.
    We know that the planning for post-war Iraq was inadequate. 
But we must move beyond simply second-guessing the 
administration. None of us should pretend that a few 
adjustments to our reconstruction strategy or an extra month of 
planning could have prevented all the challenges we now face. 
Even in the best circumstances, reconstructing an unpredictable 
country after the overthrow of an entrenched and brutal regime 
is going to stretch our capabilities, resources, and patience 
to the limit. Moreover, Congress as an institution has not 
fully lived up to its own responsibilities in foreign affairs. 
We lament that nation-building in Iraq has not progressed as 
quickly as hoped, but many Members of Congress considered that 
term ``nation-building'' to be pejorative just a few months 
ago. We worry about the urgency of administration initiatives 
in Iraq while we allow unrelated domestic obstacles to delay 
even the Senate passage of our foreign relations authorization 
bill.
    The findings of Dr. Hamre's group confirm that we must act 
with both urgency and patience in Iraq. America must take 
critical steps now to give nation-building a chance to succeed. 
We must be prepared to stay the course in Iraq for years. The 
report states, ``The potential for chaos is becoming more real 
every day,'' and the Coalition Provisional Authority ``lacks 
the personnel, money and flexibility needed to be fully 
effective.'' The report describes the resistance in Iraq as 
``well-trained, well-financed, and well-organized irregular 
forces throughout the country.''
    We need to ensure that there are adequate resources and the 
right type of resources to respond to the attacks that are 
occurring. There must be enough military forces, police, and 
civilian personnel, and we must not marginalize non-military 
agencies with expertise in post-conflict reconstruction.
    I am particularly interested in the recommendation that we 
mobilize a ``new reconstruction coalition.'' The broader 
international community remains the one untapped resource for 
the potential for completely changing the dynamics on the 
ground in Iraq. The coalition that won the war is not the same 
one that can win the peace, and the United States needs to 
involve the international community in Iraq to reassure the 
Iraqi people that the results of our nation-building efforts 
are legitimate and accepted by the international community. 
Building an effective coalition that reduces U.S. burdens and 
expands the legitimacy of our efforts must be the top priority 
of American diplomacy with respect to Iraq.
    I look forward to your suggestions on how the United States 
can internationalize the effort. We need to overcome our 
disagreements with allies over pre-war strategy and move 
forward on the common objective of ensuring that Iraq emerges 
as a peaceful and stable nation. The pledging conference in 
October is an opportunity for all nations to exhibit leadership 
and engage in stabilizing and rebuilding the country.
    Having recently visited Iraq with my colleague, Senator 
Hagel, and the ranking member, Senator Biden, who will join us 
in due course, I am confident that officials and troops in Iraq 
understand what is at stake and the urgency of their task. They 
know that United States national security depends on what they 
do in the coming months. We cannot afford to let Iraq become a 
failed state that could be an incubator of terrorism and anti-
Americanism throughout the Muslim world. Today, the Foreign 
Relations Committee should focus on how we can help the 
administration and our troops and officials in the field to 
succeed. How can our committee and this Congress expand the 
tools available to the Coalition Provisional Authority? How can 
we support efforts to broaden the international coalition 
engaged in Iraq? How can we strengthen the resolve and 
understanding of the American people with regard to the 
realities of this mission?
    The situation in Iraq is changing quickly. The next few 
months may well determine, as you pointed out, the type of 
nation that emerges. With this in mind, we are very thankful 
for the work that our witnesses have done today, namely 
yourselves, and we look forward to your testimony.
    When Senator Biden arrives, of course, he will have an 
opportunity to offer an opening statement and will be 
recognized.
    For the moment, I want to recognize Dr. Hamre for his 
opening statement and we will then give the other four members 
of the commission, beginning on the left with Ms. Crocker, an 
opportunity to add any personal observations that they may 
have. Finally, we will recognize Mr. Borden for his statement 
concerning the media situation in Iraq.
    Let me say at the outset that your full statements will be 
made a part of the record, so you need not ask for permission 
to have them included. They will be a part of the record, and 
you may proceed as you wish with as full a discussion as you 
choose. This is an important hearing. You have done important 
work and we really want to hear from all of you. Dr. Hamre.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    The Committee on Foreign Relations welcomes today Dr. John Hamre, 
former Deputy Secretary of Defense and currently the president of the 
Center for Strategic and International Studies. Accompanying Dr. Hamre 
is his team from the Commission on Post-Conflict Reconstruction, Dr. 
Robert Orr, Mr. Frederick D. Barton, Dr. Johanna Mendelson-Forman, and 
Ms. Bathsheba Crocker. Also with us today is Anthony Borden, executive 
director of the Institute for War and Peace Reporting. We welcome Mr. 
Borden's insights on the media situation in Iraq.
    Dr. Hamre, we are pleased to have the opportunity to discuss with 
you the excellent report that you have prepared on Iraqi 
reconstruction. I commend Secretary Rumsfeld and Ambassador Bremer for 
commissioning your mission to Iraq. The resulting report entitled, 
``Field Review and Recommendations on Iraq's Post Conflict 
Reconstruction,'' was published last week by the Center for Strategic 
and International Studies. It carefully outlines the difficult 
challenges our country faces in Iraq and makes 32 urgent 
recommendations for improving conditions in that country.
    For the Senate Foreign Relations Committee, this hearing provides a 
marker with which to measure both our hopefulness and our frustration. 
We are hopeful because the recommendations of your report are being 
taken seriously. Since the report was released last week, Defense 
Department officials have praised its conclusions and emphasized that 
work is already underway to implement many of them. It is a frustrating 
occasion, however, because many of the issues you raise--particularly 
those concerning the need for improved application of resources, for 
better planning, and for broader international involvement--are the 
same issues that we have been raising for months.
    I would like to read two paragraphs of a letter that Senator Biden 
and I wrote to President Bush before the war in Iraq:

          The United States should pursue a policy [in Iraq] that has 
        broad international support. Such support is desirable for both 
        substantive and political reasons. Our allies around the world 
        and our friends in the region have important, and possibly even 
        necessary contributions to make to the effort to disarm Iraq. 
        We may need their support for any initiatives we take at the 
        United Nations. Should we pursue military action, we will want 
        them with us and, at a minimum, require basing and over-flight 
        rights from several countries. If, in the course of disarming 
        Iraq, we end Saddam Hussein's regime, a massive rebuilding 
        effort will be required that the United States will not want to 
        shoulder alone. We also depend on the active and continued 
        cooperation of many allies in the unfinished war against 
        terrorism. In short, building international support for our 
        Iraq policy must be a priority.

    Later in the letter, we continue:

          We must be candid with the American people that Iraq 
        represents a long-term commitment by the United States. We urge 
        you to formulate and express a vision for a democratic, 
        unified, post-Saddam Iraq, living in peace with its neighbors. 
        The American people must know the military, financial and human 
        capital the United States would be prepared to commit to help 
        realize that vision. The Iraqi people and their neighbors must 
        be confident that chaos will not follow Saddam Hussein. 
        Moreover, you would help assuage international concerns that 
        the current unsettled situation in Afghanistan may be 
        replicated in Iraq, with far greater strategic consequences.

    Senator Biden and I sent that letter to the President more than 10 
months ago on September 10, 2002. I share this historic footnote, not 
to prove the prescience of this committee, but rather to underscore 
that the basic questions and problems surrounding postwar Iraq have 
been known and discussed for a long time. We must answer those 
questions and implement solutions to those problems now. The report 
before us is a good place to begin a review of what will be necessary 
to achieve our objectives.
    We know that the planning for postwar Iraq was inadequate. But we 
must move beyond simply second-guessing the administration. None of us 
should pretend that a few adjustments to our reconstruction strategy or 
an extra month of planning could have prevented all the challenges we 
now face in Iraq. Even in the best circumstances, reconstructing an 
unpredictable country after the overthrow of an entrenched and brutal 
regime was going to stretch our capabilities, resources, and patience 
to the limit. Moreover, Congress, as an institution, has not fully 
lived up to its own responsibilities in foreign affairs. We lament that 
nation-building in Iraq has not progressed as quickly as hoped, but 
many members of Congress considered that term to be pejorative just a 
few months ago. We worry about the urgency of administration 
initiatives in Iraq, while we allow unrelated domestic obstacles to 
delay Senate passage of the Foreign Relations Authorization bill.
    The findings of Dr. Hamre's group confirm that we must act with 
both urgency and patience in Iraq. America must take critical steps now 
to give nation-building a chance to succeed, and we must be prepared to 
stay the course in Iraq for years. The report states that ``The 
potential for chaos is becoming more real every day,'' and the 
Coalition Provisional Authority ``lacks the personnel, money and 
flexibility needed to be fully effective.'' The report describes the 
resistance in Iraq as ``well-trained, well-financed, and well-organized 
irregular forces throughout the country.''
    We need to ensure that there are adequate resources and the right 
type of resources to respond to the attacks that are occurring. There 
must be enough military forces, police, and civilian personnel, and we 
must not marginalize non-military agencies with expertise in post 
conflict reconstruction.
    I am particularly interested in the recommendation that we mobilize 
a ``new reconstruction coalition.'' The broader international community 
remains the one untapped resource with the potential for completely 
changing the dynamics on the ground in Iraq. The coalition that won the 
war is not the same one that can win the peace. The U.S. needs to 
involve the international community in Iraq to reassure the Iraqi 
people that the results of our nation-building efforts are legitimate 
and accepted by the international community. Building an effective 
coalition that reduces U.S. burdens and expands the legitimacy of our 
efforts must by the top priority of American diplomacy with respect to 
Iraq.
    I look forward to your suggestions on how the United States can 
internationalize this effort. We need to overcome our disagreements 
with allies over pre-war strategy and move forward on the common 
objective of ensuring that Iraq emerges as a peaceful and stable 
nation. The pledging conference in October is an opportunity for all 
nations to exhibit leadership and engage in stabilizing and rebuilding 
Iraq.
    Having recently visited Iraq with Senator Biden and Senator Hagel, 
I am confident that the officials and the troops in Iraq understand 
what is at stake and the urgency of their task. They know that U.S. 
national security depends on what they do in the coming months. We 
cannot afford to let Iraq become a failed state that could be an 
incubator of terrorism and anti-Americanism throughout the Muslim 
world. Today, the Foreign Relations Committee should focus on how we 
can help this administration and our troops and officials in the field 
succeed. How can our committee and this Congress expand the tools 
available to the Coalition Provisional Authority? How can we support 
efforts to broaden the international coalition engaged in Iraq? How can 
we strengthen the resolve and understanding of the American people with 
regard to the realities of this mission?
    The situation in Iraq is changing quickly, and the next few months 
may well determine what type of nation emerges in Iraq. With this in 
mind, we are thankful for the work that our witnesses have done, and we 
look forward to their testimony.
    After Senator Biden has delivered his opening remarks, we will 
recognize Dr. Hamre for his opening statement. We will then give the 
other four members of the Commission, beginning on the committee's left 
with Ms. Crocker, an opportunity to add any personal observations they 
may have. Finally, we will recognize Mr. Borden for his statement 
concerning the media situation in Iraq.

  STATEMENTS OF DR. JOHN HAMRE, PRESIDENT AND CEO, CENTER FOR 
     STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC; 
 ACCOMPANIED BY: FREDERICK BARTON, CO-DIRECTOR, POST-CONFLICT 
                      RECONSTRUCTION PRO-
  JECT, CSIS; BATHSHEBA CROCKER, COUNCIL ON FOREIGN RELATIONS 
 FELLOW AT CSIS; DR. JOHANNA MENDELSON-FORMAN, SENIOR PROGRAM 
 OFFICER, UNITED NATIONS FOUNDATION; DR. ROBERT ORR, DIRECTOR, 
        WASHINGTON OFFICE, COUNCIL ON FOREIGN RELATIONS

    Dr. Hamre. Chairman Lugar, to you and your colleagues, it 
is a real privilege to come here. These are enormously 
important issues. I was very careful to take notes. Your 
statement has laid out I think a very challenging agenda for 
the Senate to take on this shared task of making sure we are 
successful in Iraq. We have to be successful in Iraq and I 
think it means listening carefully and wisely to the issues you 
put out in front us, and we will try to be responsive and 
helpful to you today. Thank you for this privilege.
    I was the weakest member of the team on this delegation, so 
they are going to let me go first with the clear instructions 
that I quickly get out of the way. And I will do that.
    First, let me just say we were invited by Secretary 
Rumsfeld and Ambassador Bremer to go. They initiated it with us 
and we said we will if we can be helpful. And I must say they 
were completely open. The very morning that we arrived--we 
arrived in the evening. In the next morning, when we arrived, 
Ambassador Bremer invited me into his staff meeting and he went 
around the room. He listened to everybody with their normal 
report, and then he said, by the way, that is Hamre. He has 
been sent over here by Secretary Rumsfeld. Anything he needs, 
make sure you give it to him because he is here to help us. It 
is that kind of approach. Very open. I think my colleagues 
would agree. Nothing was kept from us, and there was a 
tremendous sense of openness and willingness to hear both our 
experiences and our reaction to their ideas.
    Second, when we returned, we have experienced nothing but 
complete openness to our ideas. We have met extensively with 
members of the administration. That does not say that they 
agree with everything we have recommended. They do not, but 
they have been completely open and interactive with us. Well, 
why do you think that? What led you to that conclusion? Who did 
you talk to? How solid is that judgment in your view? That has 
been the total tenor of the conversations we have had with 
them, and it has been very good, very constructive.
    Third, I would say I think they have already tried to 
implement things that we brought back. As I said, they have 
been extremely open to working on the problems, those that we 
identified, frankly ideas that they had of their own that 
preceded our return. So it has been a very constructive 
perspective.
    I would like to speak about two issues and then I would 
like to turn to my colleagues.
    First, the issue of security. Iraq is currently insecure 
and we have a complex problem that goes beyond the Saddam 
loyalists that we see in the paper. There are a good number of 
just flat-out criminals. Remember, Saddam opened all the 
prisons right before the war. He let out 100,000 criminals, 
people that are living among Iraqis today creating great 
personal threat and violence in the society. So that is a 
problem.
    There are, of course, the Saddam loyalists that are out 
trying to rekindle an affection with the past with these 
mindless acts against our own troops.
    And then there are large, organized mafia-style, black 
market gangs, gangs that were created during the years of 
sanctions, the years of oil for peace. Those gangs are 
plundering the countryside, and that is a very big problem, in 
some sense a bigger, longer-term problem to deal with. That is 
all part of the security picture.
    It is bigger than just saying we need more American 
soldiers on the ground. That is a judgment that the military 
has to render. I am worried about our troops. I think they are 
pretty tired, but the security picture is bigger than just 
that. And we have to do, as the Secretary has recently done, 
bring more Iraqis to the business of defending their own 
country, and he has made some very important, constructive 
steps and developments in the last couple of weeks. And I think 
we really need to support him with that and take other steps to 
make it possible.
    Second, let me just say a word about finances. I was 
surprised. You know I used to be the Comptroller at the Defense 
Department, so I know how budgets are put together. I sat down 
and spent probably a half a day with the budgeting people over 
there, and I was surprised to find a fairly good, relatively 
simple, right now, but relatively good, budget process for 
building the next budget for the next 18 months in Iraq.
    Ambassador Bremer has $5.9 billion right now he can count 
on to work with. Remember, this is an economy that was before 
the war probably a $25 billion to $30 billion gross domestic 
product, and he has got about $6 billion to last for 18 months. 
That is not going to be enough.
    Now, obviously, we are hoping that we can get oil moving 
quickly. Frankly, I think they have conservative assumptions 
for oil, but they need to be. I think it is very hard to get 
the oil moving in Iraq. And they are only counting on a fairly 
modest amount of revenue coming from oil over the next, say, 9 
months, and then the following 9 months, it is still pretty 
conservative, which I think it ought to be. It is not nearly 
enough. It is probably only 40 percent of what the gross 
domestic product would require.
    Obviously, we are hoping for a good donors' conference. 
There are a lot of questions about the donors' conference. The 
donors themselves are going to be skeptical until we resolve 
the issue of prior debt. That is a big issue. The other big 
issue for the donors' conference is, is there a legitimate 
government that we can make an agreement with? Right now they 
do not feel they want to make a deal with the Coalition 
Provisional Authority. They want to have an Iraqi Government 
and the question that you should be asking is: will the 
governing council that Ambassador Bremer has created be strong 
enough to become the basis for donor countries to make 
contributions to in the October timeframe? A very important 
issue.
    But I also just have to say you really need to start 
thinking we are probably going to require another supplemental. 
I leave it to the administration to decide what that is going 
to have to be and when it is going to be, but there is not 
going to be enough money in my personal view to carry us 
through the next 18 months until you get significant oil 
revenues. And that should just be on the table in your thinking 
right now.
    One last statement, 30 seconds. Ambassador Bremer needs to 
have more flexibility on how he spends his money and how he 
makes contract actions than he has. I am afraid we are doing 
too much business as usual for him. He needs to be given much 
more authority to be able to do his job in theater, and I would 
ask you and your very capable staff to look into that issue as 
well.
    Let me now turn to my colleagues, and I think, Sheba, you 
were going to be the next person.
    [The prepared joint statement of Dr. Hamre, Mr. Barton, Ms. 
Crocker, Dr. Mendelson-Forman, and Dr. Orr follows:]

Joint Statement by John Hamre, Frederick Barton, and Bathsheba Crocker, 
 CSIS; Johanna Mendelson-Forman, United Nations Foundation and Robert 
                   Orr, Council on Foreign Relations

    Chairman Lugar, Senator Biden, distinguished members of the 
Committee on Foreign Relations, it is an honor to testify before you 
today on the subject of Iraq's post-conflict reconstruction. Together 
we recently visited Iraq and spent nearly two weeks in comprehensive 
interviews on the progress in post-conflict reconstruction. We went to 
Iraq at the invitation of the Secretary of Defense and the 
Administrator of the Coalition Provisional Authority, Ambassador 
Bremer.
    We were invited to undertake this trip because of the extensive 
research we have completed over the past two years on the post-conflict 
reconstruction challenges that the world has faced during the past 
fifty years, and how the lessons from that analysis might be applied to 
the situation in Iraq. This work was undertaken by the Center for 
Strategic and International Studies and the Association of the United 
States Army, with support provided by the United Nations Foundation, 
and the William and Flora Hewlett Foundation.
    Let me state that we were given complete cooperation and support by 
Administrator Bremer and his team in Baghdad. We have shared our 
findings with Administrator Bremer and with Secretary Rumsfeld. We have 
provided to the Committee a copy of our report and would ask that it be 
included in the formal record of these proceedings.
    Mr. Chairman, we know that you, your colleagues, and staff have 
recently visited Iraq, and we know that our trip report has been 
reviewed. Therefore, permit me to summarize briefly a few key points so 
that we might quickly turn to your questions.
    Despite the difficulties that we confront in Iraq at this time, we 
cannot fail in our mission to create a new government in Iraq, a 
government that represents the people of Iraq, embraces a constructive 
agenda of economic and social development and establishes a set of 
positive security policies and programs in the region. While we cannot 
fail in this task, success is far from certain. Indeed, the next 3-6 
months are crucial.
    There are seven points we would like to reinforce.
    First, the security environment today is impeding all other aspects 
of the reconstruction of Iraq. There are insufficient security forces 
in Iraq. That does not necessarily mean that we need more troops in 
Iraq. It does mean, however, that we need to dramatically expand the 
role of indigenous Iraqi security forces and tailor U.S. and allied 
contributions to most effectively meet the composite security needs of 
the country.
    Second, Iraqis need to take control of the future of their country. 
Administrator Bremer took the crucial first step by establishing the 
Iraqi Governing Council and local and provincial political councils 
throughout the country. It is essential that these councils succeed. We 
believe this requires a careful balance of mentoring and challenging 
the Governing Council to address increasingly complex issues, but at a 
pace where it can succeed.
    Equally important, we need to start knitting together the growing 
governance institutions at the national, provincial, and local levels. 
Our military forces and Coalition Provisional Authority (CPA) officials 
have done an excellent job of creating the local political councils. It 
is now critical to link these councils to the Iraqi Governing Council, 
and to give the local and provincial councils the resources to meet 
needs that have been identified through local priority-setting 
processes.
    Third, we must grow the economy. The crucial first step is to 
secure the countryside so that reliable electricity can be delivered to 
the cities and to the oil fields and refineries. Iraq has been blessed 
with excellent natural resources. We cannot ensure that those resources 
are fully applied to Iraq's reconstruction until we make it safe and 
are able to deliver reliable power.
    This is not by itself enough, however. Under Saddam Hussein, Iraq 
developed a deeply flawed, corruption-ridden economy that needs 
complete reform. This task cannot be met overnight. Indeed, we must 
proceed with structural reform carefully, since there is already 
excessive unemployment.
    Fourth, the Coalition Provisional Authority needs to extend its 
representation into the country. Specifically, the CPA needs to 
establish offices in Iraq's 18 provinces, and to provide these 
provincial officers with adequate staffing and resources. Currently the 
CPA depends on military commanders in the field to undertake civil 
reconstruction efforts. These military commanders have done an 
excellent job, but they are at the edge of what they are trained to do 
as we start the most complex governance, economic, and social tasks.
    Field CPA offices will serve to help link the local provincial 
governing structures with the Iraq Governing Council, provide a much 
better ongoing assessment of conditions in the country, enhance 
operational speed and effectiveness, and allow maximum empowerment of 
Iraqis.
    We also believe that these field offices represent an opportunity 
to broaden international participation in the civil reconstruction 
effort. These provincial CPA offices do not have to be--indeed should 
not be--exclusively staffed by American and British officials. This is 
an opportunity to widen the basis of international cooperation in the 
rebuilding of Iraq.
    Fifth, our information campaign must be more aggressive. We have 
failed to communicate our vision for a new Iraq to the Iraqi people. We 
need an enhanced public outreach program, complete with radio, 
television, and print media, and Iraqi word of mouth. We should also 
explore unconventional communication channels such as the Internet and 
school programs. This cannot be overstated. In a society where rumors 
dominate and trust has not existed, two-way communications need to be 
dynamic and ever-present.
    Sixth, we have an international coalition that is helping us build 
a new Iraq, but we need to broaden that coalition even further. We need 
to find ways to invite other countries in to help with the rebuilding. 
The creation of the Iraqi Governing Council represents an important 
opening in that regard.
    Finally, Administrator Bremer and his team need greater flexibility 
and funding to deal with the daunting challenges they face. The CPA 
needs more money. There are several ways to fix this problem. We need 
to harvest what resources we can from the old ``oil for food'' program. 
We need to hold a successful donors conference in October. And--
although this is not a popular thing to say in the face of record 
deficits--we are likely to need additional supplemental appropriations 
this fall or winter. Finally, we need to ensure that all potential 
revenue for the reconstruction is unencumbered, which will require 
addressing the question of Iraq's outstanding debt and reparations, 
relieving funding from internal U.S. government constraints, and 
avoiding encumbering future oil revenues to generate immediate income.
    The more we cheat the present, the longer the reconstruction 
stretches into the future. Saving now is a false economy.
    There are many individuals who question whether or not we should 
have undertaken the war against Iraq. This is a perfectly legitimate 
line of inquiry, but it is not the situation we face. We did defeat an 
evil regime. We do have a responsibility to rebuild Iraq. We cannot 
fail in this task.
    Mr. Chairman, distinguished committee members, we can go into each 
of these areas in extensive detail. We are pleased to answer your 
questions and to help the committee in any way as you participate in 
this national responsibility. Let me again state that for this mission, 
we cannot fail.

                   Iraq's Post-Conflict Construction

           a field review and recommendations--july 17, 2003
Foreword
    At the request of Secretary of Defense Donald Rumsfeld and 
Ambassador L. Paul Bremer, I led a team of experts in the field of 
post-conflict reconstruction to Iraq from June 26 to July 7, 2003 to 
assess the reconstruction efforts there. The other members of my team 
were Frederick D. Barton, Co-Director of the Post-Conflict 
Reconstruction Project at CSIS; Dr. Robert C. Orr, the Director of the 
Washington Office of the Council on Foreign Relations; Dr. Johanna 
Mendelson-Forman, a Senior Program Officer at the United Nations 
Foundation; and Bathsheba N. Crocker, a Council on Foreign Relations 
Fellow at CSIS. The attached report synthesizes the issues we focused 
on during our 11 days in Iraq.
    The team traveled throughout the country, visiting 11 major cities 
and two ports, including nine of Iraq's 18 governorates (provinces). We 
met with over 250 people, including Coalition Provisional Authority 
(CPA) officials and staff, coalition military officers, international 
organization representatives, non-governmental organization (NGO) 
staff, bilateral donor representatives, and Iraqis from all walks of 
life (including Iraqi political leaders, ministry and local government 
officials, police officers, professionals, NGO representatives, and 
ordinary citizens). We saw significant progress everywhere we went, but 
the enormity of this undertaking cannot be overstated; there are huge 
challenges ahead. We hope the recommendations in the attached report 
will assist in shaping a successful reconstruction in Iraq. We are 
deeply committed to that success.
    We owe everyone involved our deepest thanks. Without the strong 
support of the Department of Defense, this trip would not have been 
possible. Ambassador Bremer and the entire CPA team gave us incredible 
access and support in Baghdad and throughout Iraq. We thank Justin 
Lemmon, Matthew Fuller, Dennis Sabal, Paul Hughes, Bill Krause, and 
Ambassador Hume Horan in particular. We extend special thanks to Daniel 
Werbel-Sanborn, Milan Vaishnav, Caroline Maloney, Lena Hagelstein, and 
Vinca LaFleur for their invaluable assistance and support.

                               John Hamre, President, CSIS.

                           Executive Summary

    Rebuilding Iraq is an enormous task. Iraq is a large country with 
historic divisions, exacerbated by a brutal and corrupt regime. The 
country's 24 million people and its infrastructure and service delivery 
mechanisms have suffered decades of severe degradation and under-
investment. Elements of the old regime engage in a campaign of sabotage 
and ongoing resistance, greatly magnifying the ``natural'' challenges 
of rebuilding Iraq. Given the daunting array of needs and challenges, 
and the national security imperative for the United States to succeed 
in this endeavor, the United States needs to be prepared to stay the 
course in Iraq for several years.
    The next 12 months will be decisive; the next three months are 
crucial to turning around the security situation, which is volatile in 
key parts of the country. All players are watching closely to see how 
resolutely the coalition will handle this challenge. The Iraqi 
population has exceedingly high expectations, and the window for 
cooperation may close rapidly if they do not see progress on delivering 
security, basic services, opportunities for broad political 
involvement, and economic opportunity. The ``hearts and minds'' of key 
segments of the Sunni and Shi'a communities are in play and can be won, 
but only if the Coalition Provisional Authority (CPA) and new Iraqi 
authorities deliver in tort order. To do so, the CPA will have to 
dramatically and expeditiously augment its operational capacity 
throughout the country, so that civilian-led rebuilding can proceed 
while there are still significant numbers of coalition forces in Iraq 
to provide maximum leverage over those who seek to thwart the process.
    To succeed, the United States and its allies will need to pursue a 
strategy over the next twelve months that: recognizes the unique 
challenges in different parts of the country; consolidates gains in 
those areas where things are going well; and wins hearts and minds even 
as it decisively confronts spoilers.
    Seven major areas need immediate attention.

          1. The coalition must establish public safety in all parts of 
        the country. In addition to ongoing efforts, this will involve: 
        reviewing force composition and structure, as well as composite 
        force levels (U.S., coalition, and Iraqi) so as to be able to 
        address the need for increased street-level presence in key 
        conflictive areas; quickly hiring private security to help 
        stand up and supervise a rapid expansion of the Iraqi Facility 
        Protection Service, thereby freeing thousands of U.S. troops 
        from this duty; ratcheting up efforts to recruit sufficient 
        levels of international civilian police through all available 
        channels; and, launching a major initiative to reintegrate 
        ``self-demobilized'' Iraqi soldiers and local militias.

          2. Iraqi ownership of the rebuilding process must be expanded 
        at national, provincial, and local levels. At the national 
        level ensuring success of the newly formed Iraqi Governing 
        Council is crucial. This will require avoiding overloading it 
        with too many controversial issues too soon. The natural desire 
        to draw anger away from the coalition by putting an Iraqi face 
        on the most difficult decisions must be balanced with a 
        realistic assessment of what the council can successfully 
        manage. At the provincial and local levels, coalition forces 
        and the CPA have made great progress in establishing political 
        councils throughout the country, but they need direction and 
        the ability to respond to local needs and demands. To achieve 
        this, local and provincial political councils need to have 
        access to resources and be linked to the national Iraqi 
        Governing Council and the constitutional process.

          3. Idle hands must be put to work and basic economic and 
        social services provided immediately to avoid exacerbating 
        political and security problems. A model economy will not be 
        created overnight out of Iraq's failed statist economic 
        structures. Short-term public works projects are needed on a 
        large scale to soak up sizable amounts of the available labor 
        pool. Simultaneously, the CPA must get a large number of 
        formerly state-owned enterprises up and running. Even if many 
        of them are not competitive and may need to be privatized and 
        downsized eventually, now is the time to get as many people 
        back to work as possible. A massive micro-credit program in all 
        provinces would help to spur wide-ranging economic activity, 
        and help to empower key agents of change such as women. The CPA 
        must also do whatever is necessary to immediately refurbish 
        basic services, especially electricity, water, and sanitation.

          4. Decentralization is essential. The job facing occupation 
        and Iraqi authorities is too big to be handled exclusively by 
        the central occupying authority and national Iraqi Governing 
        Council. Implementation is lagging far behind needs and 
        expectations in key areas, at least to some extent because of 
        severely constrained CPA human resources at the provincial and 
        local levels. This situation must be addressed immediately by 
        decentralizing key functions of the CPA to the provincial 
        level, thereby enhancing operational speed and effectiveness 
        and allowing maximum empowerment of Iraqis. The CPA must 
        rapidly recruit and field a much greater number of civilian 
        experts to guide key governance, economic, social, justice, and 
        also some security components of the occupation.

          5. The coalition must facilitate a profound change in the 
        Iraqi national frame of mind--from centralized authority to 
        significant freedoms, from suspicion to trust, from skepticism 
        to hope. This will require an intense and effective 
        communications and marketing campaign, not the status quo. The 
        CPA needs to win the confidence and support of the Iraqi 
        people. Communication--between the CPA and the Iraqi people, 
        and within the CPA itself--is insufficient so far. Drastic 
        changes must be made to immediately improve the daily flow of 
        practical information to the Iraqi people, principally through 
        enhanced radio and TV programming. Iraqis need to hear about 
        difficulties and successes from authoritative sources. 
        Secondly, the CPA needs to gather information from Iraqis much 
        more effectively--through a more robust civilian ground 
        presence, ``walk-in'' centers for Iraqis staffed by Iraqis, and 
        hiring a large number of Iraqi ``animators'' to carry and 
        receive messages. Thirdly, information flow must be improved 
        within the CPA itself through an integrated operations center 
        that would extend across both the civilian and military sides 
        of the CPA, and by enhancing cell-phone coverage and a system-
        wide email system that could ease the timely dissemination of 
        information to all CPA personnel.

          6. The United States needs to quickly mobilize a new 
        reconstruction coalition that is significantly broader than the 
        coalition that successfully waged the war. The scope of the 
        challenges, the financial requirements, and rising anti-
        Americanism in parts of the country make necessary a new 
        coalition that involves various international actors (including 
        from countries and organizations that took no part in the 
        original war coalition). The Council for International 
        Cooperation at the CPA is a welcome innovation, but it must be 
        dramatically expanded and supercharged if a new and inclusive 
        coalition is to be built.

          7. Money must be significantly more forthcoming and more 
        flexible. Iraq will require significant outside support over 
        the short to medium term. In addition to broadening the 
        financial coalition to include a wider range of international 
        actors, this means the President and Congress will need to 
        budget and fully fund reconstruction costs through 2004. The 
        CPA must be given rapid and flexible funding. ``Business as 
        usual'' is not an option for operations in Iraq, nor can it be 
        for their funding.

    The enormity of the task ahead must not be underestimated. It 
requires that the entire effort be immediately turbo-charged--by making 
it more agile and flexible, and providing it with greater funding and 
personnel.

      Iraq Reconstruction Assessment Mission--June 27-July 7, 2003

                              introduction
    The next 12 months will be critical to the success or failure of 
the Iraq reconstruction effort. The potential for chaos is becoming 
more real every day, given the unclear status of the old guard--former 
Republican Guard members and Ba'ath party loyalists; the small 
irregular militias throughout Iraq that could wreak havoc in the 
absence of a strong coalition military presence; the beginnings of 
attacks on Iraqis labeled as ``collaborators'' with the United States; 
and continuing attacks on U.S. military forces and soft targets--such 
as power plants and civilians (including NGO workers)--that are 
undermining the CPA's ability to provide basic service and 
reverberating into decreased popular support for the mission in the 
United States and the United Kingdom.
    There are real threats to the CPA's efforts:

  <bullet> the potential use of force (or at least intimidation) by 
        multiple internal and external players;

  <bullet> serious security breaches that could challenge U.S. 
        confidence and undermine U.S. credibility;

  <bullet> rising economic insecurity, combined with the entrenchment 
        of pre- existing black-market economic networks;

  <bullet> a lessening of support for the occupying authority within 
        Iraq;

  <bullet> suspicions about U.S. intentions with respect to oil 
        production and use of Iraq's oil revenue, and the hand-off of 
        the UN oil-for-food program, which has fed large parts of the 
        Iraqi population for years;

  <bullet> the prospect of internal fighting between factions;

  <bullet> the expansion of guerrilla-like warfare.

    In our travels throughout the country, Iraqis uniformly expressed 
the view that the window of opportunity for the CPA to turn things 
around in Iraq is closing rapidly. The following factors coalesce to 
make the next few months particularly crucial.

  <bullet> The coalition has not addressed the heightened sense of 
        expectation among the Iraqis as to how quickly the coalition 
        can produce results, and frustration levels are growing.

  <bullet> There is a general sense of steady deterioration in the 
        security situation, in Baghdad, Mosul, and elsewhere.

  <bullet> There are several key impending changes of the guard--new 
        coalition military forces are rotating in; the overall lead is 
        shifting from military to civilian; and Iraqis are assuming 
        greater responsibility for key security and governance tasks.

  <bullet> The national Iraqi Governing Council came together in mid-
        July. Thousands of Iraqis are now engaged in local political 
        councils, but their function needs better definition in order 
        to link them with the national political scene and take full 
        advantage of theft current level of energy and expectation.

  <bullet> The coalition forces and the CPA have set up a skeleton 
        infrastructure under extremely difficult circumstances. The CPA 
        must now become increasingly operational, but it lacks the 
        resources, personnel, and flexibility to move into the next 
        stage of the mission.

  <bullet> The coalition currently has two critical pieces of leverage 
        that must be taken advantage of: significant military forces 
        are still in theater, capable of carrying out priority tasks 
        and handling spoilers and the CPA and the military have some 
        liquidity (due largely to seized assets of the former regime).

  <bullet> A series of upcoming external deadlines will drive policy 
        decisions with respect to Iraq: (I) the U.S. budget process in 
        September; (2) the October/November donors' conference; and (3) 
        the oil-for-food transition in November.

    The coalition has made significant progress in just sixty days.\1\ 
This is due in large part to the exceptional work of the coalition 
military forces in carrying out tasks far removed from their combat 
duties. Civil affairs contingents have been key to their efforts, 
although much more civil affairs capacity was needed in the early 
stages of the reconstruction. The energy and enthusiasm of the CPA 
staff is remarkable, as is their sense of mission and dedication.
---------------------------------------------------------------------------
    \1\ For example, in the area of security, the CPA reports that 
35,000 Iraqi police officers are back out on the streets, conducting 
sensitive raids and arrests; a facilities protection service is being 
trained to guard static sites, with some promise in the south with the 
Basra River Service. In the area of governance, the CPA reports that 85 
percent of Iraq's towns have town councils up and running. The new Iraq 
Governing Council was established on July 13, 2003 and includes 
representatives of all of Iraq's major political parties, religions, 
and ethnicities, as well as three women. In the justice realm, de-
Ba'athification of Iraq's judges is proceeding; courts are being 
reestablished and have started to hear cases; and Iraq's laws have been 
stripped of Saddam-era decrees. On the economic front, quick impact 
projects have begun repairing schools and government buildings 
throughout the country; civil servant and army salaries are being paid; 
low level economic activity (street markets) is burgeoning.
---------------------------------------------------------------------------
    But the enormity of this undertaking cannot be overstated; there 
are huge challenges ahead. Iraq is a large country with historic 
divisions, exacerbated by a brutal and corrupt regime. The country's 24 
million people, and its infrastructure and service delivery mechanisms 
have suffered decades of severe degradation and under-investment. The 
CPA lacks the personnel, money, and flexibility needed to be fully 
effective. Military officers and civilians are carrying out post-
conflict reconstruction efforts in a war zone. Every small step of 
progress is counterbalanced by fundamental problems that must be 
addressed before the CPA can capitalize on the advances seen in 
particular towns or provinces throughout Iraq.
    In order to succeed, the United States and a broadened 
international coalition will need to pursue a strategy over the next 12 
months that: recognizes the unique challenges in different parts of the 
country; consolidates gains in those areas where things are going well; 
and advances the national mindset of the Iraqi people while decisively 
confronting spoilers. To put Iraq on a successful path over the next 
year, seven major areas need immediate attention.

                          Seven Priority Areas

                     1. establishing public safety
    Virtually every Iraqi and most CPA and coalition military officials 
as well as most contractors we spoke to cited the lack of public safety 
as their number one concern. The war continues, but it has entered a 
new phase of active resistance to the coalition's efforts, involving 
attacks on U.S. troops and Iraqi ``collaborators'' as well as sabotage 
of vital infrastructure. Even outside the ``Sunni triangle'' (the area 
from Ramadi in the west, north to Tikrit, and east to Baghdad), there 
have been attacks on civilians, including NGO workers: their vehicles 
have been shot at in Mosul, and aid workers in Basra have had stones 
thrown at them at reconstruction sites. Iraqis (particularly in 
Baghdad) remain afraid to be out on the streets after dark, and Iraqi 
women do not attend school or run basic errands without escorts.
    Although the coalition military presence is large, it is not 
visible enough at the street level--particularly in Baghdad--nor is it 
sufficiently agile,\2\ implying the need to reassess the force 
composition, size, and structure. The current configuration of 
composite security forces (U.S., coalition, and Iraqi) does not 
adequately support the reconstruction mission; and attacks on coalition 
forces and civilians and the sabotage and plundering of infrastructure 
continue.
---------------------------------------------------------------------------
    \2\ A significant number of U.S. troops are engaged in static 
support rather than patrolling and policing. 5,000 troops are being 
used to guard static sites in Baghdad alone, and two and a half 
battalions are being used to guard the CPA headquarters in Baghdad.
---------------------------------------------------------------------------
    Ultimately, Iraqis will have to take responsibility for addressing 
these types of problems, but it is unrealistic to expect them to have 
the competence to do so in the near term. The new Iraqi security forces 
will face well-trained, well-financed, and well-organized irregular 
forces throughout the country, in addition to the Republican Guard 
forces that may be awaiting a return. The new Iraqi security forces 
(whether paramilitary, the new Iraqi army, the Facility Protection 
Service, or the Iraqi police) will not be capable of handling security 
matters without significant international oversight and rapid response 
capacity for at least two to five years. Joint patrols with coalition 
forces and Iraqis should be initiated immediately. International police 
trainers and monitors are also needed during this time to conduct joint 
patrols with Iraqis, and train, oversee, and monitor the Iraqi police 
force.
    Finally, battalion commanders and Iraqis throughout the country 
were uniform in their assessment that without an overwhelming presence 
of coalition forces or international police, potential spoilers will 
move in, whether in the form of ``self-demobilized'' soldiers or local 
militia members (e.g., the Iranian-backed Bad'r Corps, the Kurdish 
Peshmerga, and smaller regional militias such as that operating in the 
Maysan province). The CPA has not adequately addressed the need for 
demobilization, disarmament, and reintegration (DDR) of Iraq's armed 
forces, in part because of an assumption that the ``self-
demobilization'' of the Iraqi army during and after the conflict means 
that they are fully demobilized in actual fact. The CPA must launch a 
major initiative to reintegrate these soldiers and militia members, in 
order to minimize the opportunity for them to pose security threats in 
the future.
Recommendations
  <bullet> The coalition should reassess force composition and 
        structure and troop levels, commensurate with immediate needs, 
        including that of improving street-level visibility of 
        coalition troops, particularly in Baghdad.

  <bullet> The United States could use contract private security forces 
        to help rapidly expand security at low-risk installations, 
        freeing up some coalition troops for other security tasks. A 
        standardized policy on uniforms and identification could help 
        alleviate concerns about the proliferation of private militias 
        throughout Iraq.

  <bullet> The United States must recalibrate its expectations of how 
        quickly Iraqis can be expected to address the serious and 
        growing security problems and must plan for U.S. and UK forces 
        to be available in a rapid response capacity wherever Iraqi 
        forces are being asked to take over security tasks. The CPA 
        must also raise and rationalize the salary structure of the 
        Iraqi forces.\3\
---------------------------------------------------------------------------
    \3\ For example, most CPA and coalition military officials we spoke 
to in the field thought that the current police salary of $60/month was 
far too low to ensure a professional, corruption-free police force.

  <bullet> The CPA should decentralize the process of training and 
        equipping the Iraqi police force and Facilities Protection 
        Service to allow for faster and more enduring progress than the 
---------------------------------------------------------------------------
        centralized training of thousands of police officers.

  <bullet> The CPA must begin serious efforts to recruit international 
        civilian police (CIVPOL) and should open all possible spigots 
        for such recruitment, including the United Nations, the OSCE, 
        and any potential bilateral contributors.\4\
---------------------------------------------------------------------------
    \4\ The United Nations has considerable experience in fielding 
CIVPOL forces. The Organization for Security and Cooperation in Europe 
(OSCE) alone does not have the experience or recruiting capability to 
manage a CIVPOL effort along the order envisioned for Iraq.

  <bullet> The CPA must develop and implement a reintegration program 
        that provides opportunities for demobilized soldiers to gain 
        counseling and placement, either in the new Iraqi security 
        forces or major public works projects or other jobs. 
        Reintegration programs must include all the different militias 
        throughout the country in order to protect against future 
        problems these well-organized forces could pose.
                           2. iraqi ownership
    Iraqi responsibility for their own future must be firmly 
established at the national, provincial, and local levels. At the 
national level, ensuring the success of the newly formed Iraqi 
Governing Council is crucial. The CPA runs the risk of overloading the 
new council by pushing too many controversial issues to it, which would 
undermine this otherwise positive development.\5\ The natural desire to 
draw anger away from the coalition by putting an Iraqi face on the most 
difficult decisions must be balanced by a realistic assessment of what 
the council can successfully manage.
---------------------------------------------------------------------------
    \5\ These issues include: appointing a new cabinet; approving the 
national budget; initial preparations and plans for a national 
constitutional process; food subsidies after the oil-for-food program 
phases out in November 2003; salary levels; agricultural price 
supports; the size of the new Iraqi army; de-Ba'athification follow-
through; and currency problems.
---------------------------------------------------------------------------
    The CPA has made great progress in establishing municipal and 
provincial political councils throughout the country, but those 
councils need direction as to their purpose and the ability to respond 
to local needs and demands. If not properly resourced and hooked into 
the national governing council and constitutional process, these 
councils could result in heightened expectations and dangerous levels 
of frustration, rather than positively harnessing demands for change.
Recommendations
  <bullet> The CPA must give the Iraqi Governing Council time to build 
        on a series of initial successes. The CPA itself should make 
        more progress on some of the immediate, sensitive issues--such 
        as the handling of the remaining escrowed oil-for-food money 
        that supported myriad development projects in the north, 
        retraining and stipends for former soldiers and militia 
        members, and food and agricultural subsidies--before handing 
        them over to a fragile new governing structure.

  <bullet> The CPA should provide local and provincial councils with 
        funds to address priority local infrastructure needs. Local CPA 
        overseers could sign-off on use of funds.

  <bullet> The CPA should formulate plans to link the local and 
        provincial councils to the central political and constitutional 
        processes. The CPA should convene a national conference of town 
        and provincial councils from all over Iraq to launch a process 
        of defining their relationship to the national government and 
        creating fresh channels of cooperation.
         3. putting people to work and providing basic services
    Rebuilding a functioning Iraqi economy out of failed statist 
economic structures is a daunting task. A host of thorny challenges 
persist: difficulty in restarting vital public services, particularly 
power and water; out-of-work civil servants and former soldiers; Iraq's 
crushing international debt burden; a plethora of state-owned 
industries that are not market competitive; a literacy rate that has 
been falling for decades; infrastructure in need of serious investment; 
shortages of gas (for cars and cooking) and other key supplies; and a 
population that is predominantly young.
    The immediate needs will be providing short-term employment 
opportunities to keep people off the streets and refurbishing basic 
services such as electricity, water, and sanitation, to avoid 
exacerbating political and security problems. Low level economic 
activity is returning to normal, and markets are filling up. But there 
are long lines of Iraqis waiting for work wherever it is announced. 
Many old state-owned enterprises are not competitive, but they are a 
major source of employment and should not be closed during this most 
unstable time. Moreover, a new civil and commercial code will be needed 
to attract regional and international investment in Iraq's industries.
Recommendations
  <bullet> Develop a series of work initiatives to keep Iraqis from 
        being idle, with a particular emphasis on young, urban 
        populations.

  <bullet> Get and keep state-owned enterprises up and running in the 
        short-term to provide employment, while developing a clear 
        medium and long-term plan for privatizing those enterprises.

  <bullet> Start micro-credit programs in all provinces immediately, 
        placing a special emphasis on lending to women.

  <bullet> The CPA should do whatever is necessary to improve provision 
        of basic services, such as electricity, water, and sanitation.

  <bullet> Begin developing follow-on for the oil-for-food program, as 
        a food shortage caused by any disruption will cause a national 
        protest. This must include the transparent handling of 
        obligated resources under the program.

  <bullet> The CPA should involve Iraqis personally in the success of 
        Iraq's oil industry. Personal bank accounts or trust funds 
        funded by oil revenues should be developed, to catalyze the 
        banking system and get cash to the public.
                          4. decentralization
    The job facing occupation and Iraqi authorities is too big to be 
handled by the center. Implementation is lagging far behind needs and 
expectations in key areas, at least to some extent because of severely 
constrained CPA human resources at the provincial and local levels. 
There is a disconnect between on-the-ground realities and policy 
formulation at CPA headquarters. Decentralization of key CPA functions 
will enhance operational speed and effectiveness and allow maximum 
empowerment of Iraqis. Placing significantly more CPA civilians in the 
field would help deliver more of what is needed on the ground and 
improve the general understanding of the reconstruction.
Recommendations
  <bullet> The CPA must be given adequate resources and personnel to 
        immediately establish 18 provincial CPA offices, including 18 
        provincial civil administrators with clear authorities and 
        appropriately staffed offices of 20-30 people.\6\ Attaching one 
        political adviser to each battalion command will not be 
        sufficient. Each CPA provincial office will need funds for 
        operational support and flexible funding and authority for 
        quick impact projects.
---------------------------------------------------------------------------
    \6\ Based on our informal survey of governorates we visited, there 
is general consensus that each provincial CPA office will need between 
20-30 people in order to ensure an effective hand-off from military to 
civilian lead and give the CPA the operational capacity it needs to 
address priorities.

  <bullet> The Department of Defense should establish a headhunting 
        capacity in the United States to help identify, recruit, and 
        retain a steady pool of civilian talent to fill the CPA's 
        needs. Given the broad nature of the tasks, this office should 
        have strong interagency support, from State, USAID, Treasury, 
        Justice, Agriculture, and other relevant departments. At the 
        same time, the United States must internationalize the 
        recruiting effort for CPA civilians. Potential talent within 
        other foreign governments and international organization 
        officials with experience in Iraq and the region should be 
        identified. This effort must break through the lingering pre-
        war differences with logical partners on the civilian front.
                 5. changing the iraqi national mindset
    The CPA must facilitate a profound change in the Iraqi national 
frame of mind--from centralized authority to significant freedoms, from 
suspicion to trust, from skepticism to hope. The CPA needs to 
effectively communicate its strategy and vision--what will success look 
like, what does the United States intend to provide, and how long will 
it stay. This will require an intense and effective communications and 
marketing campaign, not the status quo. Communication--between the CPA 
and the Iraqi people and within the CPA itself--is insufficient so far. 
The CPA message is not getting out, either to the Iraqi people or 
within the CPA. All potential constituencies are not being adequately 
exploited; every CPA interaction with Iraqis should be considered a 
communications opportunity. Radio and television programming are the 
most critical means to getting the message out.\7\ Without seeing or 
hearing Bremer and others, disinformation will continue to prevail over 
truth on key policy issues, such as U.S. intentions about Iraq's oil 
money.
---------------------------------------------------------------------------
    \7\ Based on our interviews, Iraqis are dismissive of the Iraqi 
Media Network--the CPA-funded indigenous media outlet--noting that it 
does not have good programming and is only on the air during certain 
limited times of the day.
---------------------------------------------------------------------------
    Under the current set-up, the CPA is isolated and cut off from 
Iraqis. Most CPA officials we interviewed confirmed that the CPA does 
not know even close to what it needs to know about the Iraqi people. 
(This problem is worst in Baghdad; in other areas, CPA and military 
officers are in more regular contact with Iraqis.) The CPA does receive 
information from Iraqis at the local, regional, and national levels, 
but it does not have the organizational tools to assess that 
information adequately.
    Finally, there is a need for enhanced communications flow within 
the CPA structure--both to provide updated, real information to CPA 
staff about Iraq news and to enhance communication on policy matters 
between the CPA front office and the rest of the organization, 
especially the regional and provincial offices. Serious time is also 
being lost because of the absence of reliable telephone communications 
nationwide, which inhibits the transmission of timely information.
Recommendations
  <bullet> The CPA should engage in blanket marketing in every venue it 
        can access, including using advertising on every channel that 
        feeds into Iraq and public service messages. Every interaction 
        with Iraqis should be seen as a message dissemination 
        opportunity, including salary distribution centers, oil-for-
        food distributions, and town meetings.

  <bullet> All day programming is needed on a revamped and upgraded 
        Iraqi Media Network, with a focus on television programming. 
        The CPA also should encourage the establishment of more local 
        TV stations, which have proved more successful in getting out 
        CPA's messages in areas such as Karbala and the north. Creating 
        a ``headline news'' type of program would address Iraqis' 
        desire to hear both the CPA global messages and very practical 
        information about such pressing issues as power outages, 
        sensitive arrests, sabotaged infrastructure, and dismissals of 
        former Ba'ath party officials.

  <bullet> The CPA should establish walk-in centers staffed by Iraqis 
        and use Iraqi ``animators'' to give average Iraqis ways to make 
        their views known to coalition authorities. The CPA should 
        utilize international players--particularly the UN specialized 
        agencies--that have been on the ground in Iraq for years to 
        boost its capacity to collect information and views from 
        Iraqis.

  <bullet> The CPA must create an effective fusion mechanism into which 
        all information collected at headquarters and in the field can 
        be fed, to ensure it is being used to the fullest extent.

  <bullet> The CPA headquarters should focus on engaging and building a 
        community among all CPA employees. Regular town meetings 
        featuring Ambassador Bremer and other senior officials would 
        help. Daily email briefs containing real, hard information--
        including information on the latest attacks and about basic 
        services--should be provided to all CPA employees.

  <bullet> The CPA should convene regular interactive meetings with its 
        regional and provincial offices, whether in person or by video 
        conference.

  <bullet> The CPA should expand current contractor capacity to 
        encourage the provision of regular nationwide telephone service 
        immediately.
              6. mobilizing a new reconstruction coalition
    Relying on the war coalition will not produce sufficient resources 
or capacity. The scope of the challenges, the financial requirements, 
and rising anti-Americanism in parts of Iraq argue for a new coalition 
that includes countries and organizations beyond the original war 
fighting coalition. The recent donor discussions at the United States 
in late June reflected low projections for donor financial support, 
further highlighting this need. The Council for International 
Cooperation (CIC) at the CPA is a welcome innovation, but it must be 
dramatically expanded and supercharged if a new and inclusive coalition 
is to be built.
Recommendations
  <bullet> The United States, working with the G7 and the World Bank, 
        should oversee the donor coordination process, including by 
        keeping a central databank of resource needs and donor 
        fulfillment of those needs. Donor coordination efforts should 
        be broadened beyond the 15 states that are currently members of 
        the CIC, and those efforts should be bolstered by providing the 
        CIC support staff in Europe and the United States.

  <bullet> The CPA should reach out broadly to other countries in its 
        efforts to recruit civilians to fill its staffing needs, as the 
        U.S. government will not be able to fill those needs on its 
        own.

  <bullet> The CPA should take advantage of the UN's unique capacities 
        in support for constitution drafting, access to regional and 
        Iraqi legal expertise, and gender and education issues. The CPA 
        should utilize the UN's systems, including the oil-for-food 
        network, as a valuable means of connecting with Iraqis.

  <bullet> The CPA should draw on valuable international expertise to 
        assist the Iraqis in dealing with war crimes and the legacy of 
        Saddam Hussein.
                        7. money and flexibility
    The CPA currently has four sources of revenue: appropriated funds, 
oil revenue, vested assets in the United States, and assets that have 
been seized in Iraq. Of these, seized regime assets are the most 
flexible and readily available, but these are finite--and in any case, 
the overall resources available are inadequate to the challenges at 
hand. It is highly likely that the CPA will need supplemental 
appropriations to get through fiscal year 2004. Oil revenue projections 
for the next few years are low--the CPA expects production to reach 1.5 
million barrels per day (bpd) by the end of 2003 and 2.5 million bpd by 
the end of 2004. It is currently at around 600,000 bpd. The CPA expects 
to earn $5 billion in oil revenue by the end of 2003, but this 
projection may decrease if security problems persist and oil 
infrastructure continues to be targeted. Power shortages are also 
hampering efforts to restart oil production.
    The CPA is badly handicapped by a ``business as usual'' approach to 
the mechanics of government, such as getting permission to spend money 
or enter into contracts. This approach is not reasonable given the 
urgency of the situation in Iraq. There also appear to be unnecessary 
limitations in the area of contracts.
Recommendations
  <bullet> The CPA should be given complete flexibility to spend 
        money--even appropriated funds and vested assets--as it views 
        necessary without project-by-project oversight by Washington. A 
        process should be established to ensure appropriate 
        accountability for all spending, through regular reports from 
        the CPA back to Washington. Any funds appropriated in the 
        future for Iraq reconstruction needs should not require prior 
        notification of Congress. Congress could request quarterly 
        reports detailing how appropriated funds have been spent on 
        reconstruction activities in Iraq.

  <bullet> The United States needs to ensure that Iraq's revenues are 
        not encumbered by past or future obligations. This will require 
        resolving the debt issue within the U.S. government, and 
        pushing Iraq's creditors to forgive or significantly reduce 
        Iraq's outstanding debt burden. The United States should also 
        avoid encumbering future oil revenues to generate immediate 
        income.\8\

  <bullet> The relevant United States government agencies should deploy 
        military and civilian contracting officers to the theater to 
        streamline the contracting processes.

  <bullet> The Department of Defense should create a strong office in 
        Washington to support the CPA's needs, including recruiting of 
        appropriate civilian personnel.
                               conclusion
    Eleven days in Iraq left indelible images in our minds. Fathers 
escorting young girls to school; young men waiting in long lines 
everywhere jobs are announced; young kids flashing the thumbs-up sign 
(and swarming around us asking for money); a rebuilt prison with a 
newly installed manager; retrained Iraqi police officers directing 
traffic; snaking lines of cars at gas stations; a festive 4th of July 
party thrown by the Kurds in the north (and celebrating 4th of July at 
Saddam's palace in Baghdad); racing through small towns in heavily 
armed convoys; 19-year old American soldiers standing out in 120 degree 
heat to guard Iraqi sites, and chatting on street corners with Iraqi 
children; the blackness and heat of the night with power shortages; the 
pleasure of a shower after days without running water; the energy, 
commitment, and intensity of Iraqis as they discussed their country's 
future; the natural beauty of the mountains in the north and Iraq's 
fertile crescent; the pride and professionalism of Iraqi members of 
newly established town councils; the palpable fear of Iraqis out in the 
street after the sun wes down, and the security bubble U.S. officials 
work in; the high expectations of Iraqis as to what the United States 
can provide, and their frustration and anger over intermittent 
electricity and water service; the resourcefulness of U.S. and British 
troops as they restart civil society; the sincere efforts of civilians 
to forge ahead despite the looming insecurity; devastated university 
buildings in Basra, completely ravaged by looters; the opulence of 
Saddam's palaces; and Iraq's ancient history and cultural richness.
    As we traveled throughout the country, it was impossible not to be 
impressed by the character and drive of the coalition forces, the 
dedication and enthusiasm of the CPA, the wearied endurance of the 
Iraqi people, and the enormity of the opportunities, challenges, and 
risks before them all.
    The U.S. government has chosen to use a different model for post-
conflict reconstruction in Iraq. Not only is it being led by the United 
States, but it is being led by an institution--the Department of 
Defense--with relatively untested capacities. There has been progress 
to date, but using a new model heightens the challenges and requires a 
new definition of relations and responsibilities.
    The United States will need significant international assistance--
from the United Nations, other international organizations, and 
bilateral donors. Security forces, CIVPOL, information flows, and 
ensuring a ready supply of CPA personnel with relevant capabilities are 
just four such areas.
    The U.S. government--both the executive branch and the Congress--
must change certain business as usual practices in order to maximize 
the CPA's opportunities to be successful. The CPA needs more resources, 
personnel, and flexibility. We owe it to our people in the field, and 
to Iraqis, to provide everything necessary to get this right. U.S. 
credibility and national interest depend upon it.

------------
    \8\ It will be critical that the CPA handle oil revenues as 
transparently as possible. Iraqis we met with spoke of continuing 
suspicions about U.S. intentions with respect to their oil industry.

    The Chairman. If I may interrupt now for just a moment. We 
are going to have our magic moment of business, with consent of 
the group. If members will bear with us for just a second, we 
will be able to ratify five treaties, a Foreign Service officer 
list, and other important issues.
    [Whereupon, at 3:12 p.m., the committee proceeded to a 
business meeting, and resumed the hearing at 3:15 p.m., this 
same day.]
    The Chairman. I thank the witnesses for their patience for 
this intervention.
    I will call now upon the distinguished ranking member for 
his opening statement and then we will proceed to Ms. Crocker 
for her comments. Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman. I 
apologize to the witnesses for being a few minutes late.
    I am going to begin by saying, Mr. Hamre, I think your 
report and that of your colleagues is first-rate, absolutely 
first-rate. And I compliment the Secretary on asking you to 
undertake this. Coincidentally, the three of us in the middle 
here were on the ground almost in the same timeframe that you 
were, and it will not surprise you, speaking for myself, but I 
think for my colleagues as well, that the conclusions we 
reached were very similar to the ones that you have reached. 
The committee report \2\ is forthcoming. I think you will find 
it mirrors your report.
---------------------------------------------------------------------------
    \2\ The Committee Print report referred to is entitled ``Iraq: 
Meeting the Challenge, Sharing the Burden, Staying the Course,'' July 
2003, S. Prt. 108-31. It is available from the Senate Foreign Relations 
Committee or can be accessed on the Government Printing Office Web site 
at www.gpo.gov
---------------------------------------------------------------------------
    I would also like to note that, with the chairman's 
permission, we ``left behind'' for 8 days two senior staff 
members, the senior Republican staff member handling this area, 
as well as the senior Democratic staff member. Again, after 8 
days on the ground and extensive interviews--and they went back 
on their own back into the country and had wide-ranging freedom 
to move about, although they were in peril like all of you were 
and everyone is who wanders around that country right now, 
particularly Baghdad--they reached the same conclusions 
basically.
    We have, in my view, a very first-rate team in Iraq. People 
like Ambassador Crocker, who I think is one of the finest 
people we have in our Foreign Service; Walt Slocombe, a serious 
player from the Defense Department; and a truly professional 
team working with them, including a former police commissioner 
from New York City and a number of people who I have dealt with 
at length in my dozen visits, literally, into Bosnia and Kosovo 
over the previous 6 or 8 years. We have a considerable learning 
curve that we have already turned on in terms of police forces. 
So we have some very, very serious people there.
    Unfortunately, it seems to me it is painfully obvious that 
their job is made all that much harder by the fact that the 
planning for the aftermath of the war started much too late and 
was based on some deeply flawed assumptions. I think unless we 
examine some of the assumptions that the rebuilding of Iraq was 
based upon that we now know were inaccurate, it is going to be 
kind of hard to figure out exactly what we should be doing.
    We were told that Iraq would inherit a fully functioning 
government, that the ministries would be fully operational in a 
short time after they had been decapitated of Ba'ath 
leadership, that the military would be basically intact after 
being decapitated at the general level of Ba'athist Party 
members, and that the police forces remain on the job. Well, in 
fact, none of that occurred for whatever reasons. None of that 
is in place. We were also told that we would have a quick ramp-
up of oil production, and then the impression was we could pack 
up and go home because all this would be up and running.
    Now, a number of people, led by the chairman of the 
committee and by very different folks from uniformed military, 
General Shinseki to a whole range of other people, thought--and 
this committee held extensive hearings--it would be a lot more 
difficult and that many of those assumptions were not based 
upon what a lot of the experts we were talking to were telling 
us on both sides of the aisle. There was a pretty consistent 
message we kept getting in this committee that things would be 
different.
    And there are some things none of us anticipated in my 
view. At least I did not. I did not anticipate just how badly 
broken the Iraqi infrastructure was. I did not realize how 
badly treated and/or maintained the oil fields were, separate 
and apart from the fact that we miraculously worked our 
military so that they were not destroyed. They were already in 
many ways destroyed in ways that we did not anticipate.
    My purpose today is not to dwell on the past, but focus our 
attention on the realities which I think is what your report 
did. Law and order, especially in Baghdad, has collapsed. 
Electricity, water, fuel supplies remain unreliable in 
temperatures as high as 120 degrees. It is not like having the 
same thing happen occur in an area where the mean temperature 
is 80 degrees.
    And on top of it all, we lack in my view a public 
information strategy to communicate with the Iraqis. I would 
note, Mr. Chairman, I found it fascinating today and tried to 
call the Secretary that we were in demand on the part of the 
Iraqi people to be shown that Saddam's sons were killed and 
were talking about disseminating photographs. Why in Lord's 
name would we not let Al Jazeera television or anybody come in 
and look at this? I do not know whether people over there do 
not seem to understand. We are not believed. We are not 
believed when we lay out these things in our own terms. So 
there is an awful lot to do in stabilization of that country in 
order to be able to begin to do what every American wants to do 
which is share the costs and bring our troops home, bring them 
home more rapidly than we otherwise would have to.
    Two, which I predict will happen if we do not start to get 
things in order pretty quickly, decide that we are going to put 
an Iraqi provisional government in power. We are going to 
basically try to turn it over to the U.N. We are going to try 
to bring folks home and get out of there and leave, which I 
think would be a prescription for absolute, total chaos.
    We have, it seems to me, three choices. One, we continue to 
bear the burden ourselves, deploy additional forces that are 
needed, spend the tens of billions of dollars for 
reconstruction out of our own treasury, and maintain again the 
carrying of 90-plus percent of the cost. We can do that.
    We have a third option. We can figure out a way to 
internationalize this to get other people to take on part of 
the burden, take on part of the cost. I remind everyone what 
this committee reminded everyone for the last year and more, 
that for the first gulf war, we only paid about 20 percent of 
the total cost of that war. We only paid about 20 percent. 
Everyone from the Japanese to the EU to the Arab states came in 
and picked up the bill. We are paying it all now virtually. And 
there seems to be a lack of a game plan or a will to figure out 
how to internationalize this and get everybody in on the deal.
    As you point out, folks are going to want to know, Mr. 
Hamre, what this provisional government is going to look like. 
How legitimate is it before they decide at this donors' 
conference they are prepared to jump in? Well, part of that is 
I have never found people being very receptive to being able to 
pick up the check without having to at least have some say in 
what is on the menu and having some say about what is going on 
in the country. I think we are kidding ourselves if we think 
that that is going to happen.
    So the thing that I most welcome about your report is the 
stark assertion--and I am paraphrasing--that we have a 
relatively narrow window. I want to make sure that I 
characterize it correctly from reading your report. The narrow 
window is not whether we can get anything done. The narrow 
window is the period of time in which to convince the Iraqi 
people that we, in fact, are part of their salvation and not 
their problem. In my view if 60 to 90 days from now conditions 
have not markedly changed on the ground, as it relates to 
security, as it relates to basic services, particularly 
electricity, as it relates to police forces on the ground, then 
I think we are going to find ourselves in a tough spot.
    Serious polling has been done showing that the Iraqi people 
are prepared to give us--the vast majority--between 6 months 
and 2 years to begin to get this right. They want us to stay. 
They want us to stay. And some good things are happening. Some 
good things are happening on the ground over there. But I think 
we have a fairly narrow window.
    The last point I want to make is this, and I am going to 
want to talk to you about this. You mentioned oil. One thing 
the chairman spoke about last July, August, September, October, 
November in his straightforward traditional, conservative, 
insightful way was how are we going to set up an economy. 
Remember you kept saying that? What is going to be the economy? 
As my grandfather would say, what horse is going to carry the 
sleigh? What is the horse that is going to carry the sleigh? 
And we keep being told--or implied--not to worry. Iraq has the 
second-largest oil reserves in the world. That can do the job.
    I want to make it clear to everybody what we were told in 
Baghdad by our persons on the ground--and I cannot remember the 
man's name.
    Senator Hagel. Phil Carroll.
    Senator Biden. Phil Carroll is a serious oil man, appointed 
to get that oil industry up and running. My recollection is 
that he said if everything goes as planned without any serious 
interruption of oil flow through sabotage and investments in 
the fields continue, then over the next 18 months we may 
generate up to $16 billion to $18 billion in revenues.
    Now, one little thing. Our folks over there who are going 
to train an Iraqi police force are telling us that they need 
now a minimum of 5,000 trained police officers from Europe or 
other parts of the world on the ground now to allow them to 
maintain order and train. A 1-year budget for that operation is 
$725,023,000. So almost three-quarters of a billion dollars 
just for 1 year to maintain a total of roughly 6,000 trainers 
and police officers on the ground. And we are paying $4 billion 
a month just to maintain U.S. forces on the ground. That is 
just to get some sense of proportion.
    So if anybody thinks that we are going to be able to 
rebuild Iraq, not pay for any of our stuff, rebuild Iraq with 
Iraqi resources over the next 18 months, they are kidding 
themselves because you laid out we have got $6 billion that is 
on hand now. We are going to have max $14 billion to $16 
billion the next 18 months in oil based on everything we have 
been told and we are hoping for the donors' conference. That 
requires us to focus on the thing the chairman talked about 
last October and that is what to do about Iraqi debt.
    So the point I want to make is that I hope we start to get 
rational and reasonable about how urgent this is, how badly we 
need others in on the deal to help carry a lot of this burden, 
and how much that requires us to have a patina of legitimacy 
that I think can only come through the United Nations, NATO, 
the EU and the Arab nations as to the government that we are 
helping put in place, to be chosen by the Iraqi people 
ultimately.
    I think your report is a first-rate contribution to 
alerting us to, A, we are going to need more money; B, the 
window is pretty narrow; C, it is going to take a long time; 
and D, we better get underway. So I have specific questions 
when we get to that, but again, I want to compliment you. I 
think it is a first-rate report and it is one heck of a 
starting point. I heard you say, as I came in, your statement 
that you are being listened to, and I hope that in your 
weighing in, you will help settle the ongoing debate within 
this administration about which way to go in terms of what we 
do from this point on. Again, I thank you.
    I thank you for the time, Mr. Chairman, and I will wait 
till we get to questions to pursue some of the things I would 
like to talk about.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    I welcome our witnesses who have recently spent time in Iraq and 
produced first-rate assessments of conditions there.
    I commend you for doing a fine job in your reports. Your 
conclusions track with what the chairman, Senator Hagel, and I found in 
Baghdad and what my staff and Senator Hagel's staff have reported based 
on an additional eight days on the ground.
    We have a first-rate team in the Coalition Provisional Authority. 
They're doing their level best under the most difficult circumstances 
to bring a semblance of stability to Iraq. We met with several of them 
during our visit--Ambassador Bremer, Ambassador Crocker, Walt Slocombe, 
and a truly professional team working on police training. And of course 
we spent time with our men and women in uniform who are bearing the 
brunt of the heavy lifting in Iraq.
    Unfortunately, it is painfully obvious that their job has been made 
all that much harder by the fact that planning for the aftermath of the 
war started too late and was based upon deeply flawed assumptions.
    We were told that the Iraq we would inherit would have a fully-
functioning government. That the ministries would be fully operational, 
the military would remain intact, and police forces would remain on the 
job. We could come in, remove the top few layers of Ba'athists in each 
of these organizations, put our favorite exiles in power, quickly ramp-
up oil production, then pack up and go home.
    The reality is starkly different. Iraq is a broken country. It has 
been devastated by 35 years of mismanagement and misrule, over 12 years 
of sanctions, and extensive looting after the most recent conflict.
    My purpose today is not to dwell on the past. Instead, I want to 
focus our attention on the realities of a dangerous situation on the 
ground that we have to fix.
    Law and order, especially in Baghdad, has collapsed. Electricity, 
water, and fuel supplies remain unreliable as temperatures approach 120 
degrees. Unemployment is estimated at over 60%. And on top of it all, 
we lack an effective public information strategy to communicate with 
Iraqis.
    The longer this situation persists the more frustration will grow 
and the more difficult it will be to achieve our two objectives in 
Iraq: first, to stabilize the country, and second to bring our troops 
home.
    We have three options before us.
    One is to continue to bear the burden ourselves, deploy the 
additional forces that are needed, and spend the tens of billions of 
dollars for reconstruction out of our own treasury. Well, it's beyond 
me why we would continue to treat Iraq as if it is some sort of prize. 
It is not. It is an enormous burden that we need not and should not 
bear alone.
    The second option is to cut and run. Capture or kill Saddam, turn 
things over to an Iraqi political body, and get our forces out. This, 
in my judgment, would be a disaster. It would leave Iraq in chaos, 
invite neighbors such as Iran to intervene, and damage our credibility 
badly.
    The final option is to bring in our friends and allies. To ask NATO 
to take command and send roughly 25,000 troops to Iraq. To ask the 
European Union and others to contribute 5,500 police forces and the 
tens of billions of dollars that will be needed for reconstruction. And 
to seek a United Nations resolution giving the world body a greater 
role if that will give other countries the political cover to provide 
troops and dollars.
    In my judgment, the third option is the only option. It is one we 
could have achieved before we went to war, one we should have pursued 
immediately after the war in the flush of success, and one we must set 
our sights on now.
    Again, I welcome our witnesses. I would urge you to focus your 
remarks not only on what went wrong, but on how, specifically, we can 
get things right.
    We want to hear any concrete recommendations you have for restoring 
security, reviving the economy, putting Iraqis to work, empowering them 
politically, communicating more effectively and getting more help from 
our friends and allies. I look forward to your testimony.

    The Chairman. Thank you very much, Senator Biden.
    Ms. Crocker, would you proceed with your testimony?
    Ms. Crocker. Well, thank you, Mr. Chairman. I think I will 
pick up on one of Senator Biden's important points about how we 
need to remember that there are some good things happening on 
the ground here.
    One of the areas where we saw that was the area of the 
setting up of local and provincial political councils and the 
recent establishment of the Iraqi Governing Council, all of 
which are very important steps going forward.
    What we were concerned about and have highlighted in our 
report is the need to make sure that we give these councils all 
of the tools they need to succeed so that we can sort of 
maximize what we have started in the way of progress in this 
area.
    In thinking about the local councils, what we noticed when 
we went out in the field was that there is a bit of a 
disconnect still between what is happening out in the field, 
very excellent work being done by our military commanders and 
the civilians in the field to set up local councils and 
provincial level councils. But they are not, as of yet, really 
connected in any way to what is going on in the national 
political front, and we will need to make sure that we find a 
way to make that link.
    One piece of that may also be making sure that we engage in 
some revenue sharing so that we get some resources out to the 
localities, that we decentralize this effort a little bit so 
they can start responding to the local needs in their 
communities.
    Just a second point on the Iraqi Governing Council itself. 
One thing that also concerned us was that the Coalition 
Provisional Authority, of course, has a natural and 
understandable inclination to want to put an Iraqi face on some 
of the very difficult issues that they are facing. Although I 
think we all agree that that is the right direction to be going 
in, we will also have to be careful to make sure that we do not 
overload that council too early by sort of dumping off all of 
the very controversial issues that will be coming up.
    The Chairman. Thank you very much.
    Mr. Orr.
    Dr. Orr. Thank you, Mr. Chairman.
    In your initial remarks, you said that you would be looking 
for tools that you might use to move this process forward. I 
would like to call your attention to one very powerful tool 
that we heard calls for from different parts of the country and 
that is decentralization. Iraq is a huge country, as all of you 
who have visited it know. It is a very diverse country. If you 
go north, go south, go to south central, Baghdad, it looks very 
different. The problems look very different, and I would argue 
the solutions look very different or need to look very 
different.
    We need to pursue a strategy where we consolidate gains in 
those places where things are going well, even as we naturally 
are going to focus on the places where there are problems. To 
do that, we need to get authority and resources out to our own 
people in the field at the provincial level. There are 18 
provinces in Iraq. I think on paper we do have at least one 
person in every one of those provinces, but we cannot kid 
ourselves here. We are not up to the task out in the field. 
Most of our resources, human and otherwise, are concentrated in 
Baghdad and the area around Baghdad.
    I think what is interesting about this is the model we have 
been thus far through the military is a decentralized model. It 
is these amazing majors and captains that are standing up town 
councils, that are getting economies going, that are starting 
quick impact projects. But by their own accounts out in the 
field, they said in numerous conversations in all parts of the 
country, we have done what we can, but sir, I just do not know 
what to do with this town council now. Can you please get some 
civilian out here who has served on a city council or has at 
least seen one before? I think our military has done an amazing 
job. What we need to do now is get the civilians into the field 
to follow through on their good startup work.
    In order to do that, we have to get mechanisms in place to 
recruit civilians aggressively and get them out to the field. I 
think there is a recognition that some of the bureaucratic 
problems here in Washington have held up a lot of these 
civilians that we need to get into the field. It is time to get 
past our bureaucratic problems in Washington.
    Under Secretary Feith the other day at the Pentagon noted 
that he was planning to take one of the recommendations and, in 
fact, had started to set up a backstopping office for 
Ambassador Bremer here in Washington. One of the key functions 
of that office would be to collect an interagency group of 
people--he said someone from all of the agencies that are on 
the ground in Iraq--and to use that office for one very 
important purpose, among others, and that is to recruit the 
right civilians. Get the Agriculture Department employee who 
knows all the right people in this area to identify the five 
agricultural engineers that we have to get to specific 
provinces. Have the Justice Department play their role, the 
State Department play theirs. Only by having that office up and 
running are we going to see the right people getting out into 
the field.
    As you and Senator Biden noted, this window is closing. I 
think the key here is to go from the talking about the 
decentralization stage to the implementation stage immediately.
    Thank you.
    The Chairman. Thank you very much, Mr. Orr.
    Dr. Mendelson-Forman.
    Dr. Mendelson-Forman. Thank you, Mr. Chairman. Thank you.
    I wanted to talk about what I think is probably something 
that both of you have referenced in your statements, and that 
is, in order to restore the economy, we need to get the power 
running, the oil pumping, and the water flowing. But we also 
need the Iraqi people employed back again in the jobs that they 
once held. Even if, in the short term, that is not the key to 
privatization, they need to be off the streets with a 
meaningful existence and some money in their pockets so they 
can buy the food that they need, and the way to survive in this 
critical window is to make them feel they are part of this 
operation.
    My colleagues like to talk about an iron triangle of water, 
oil, and power. I think it is clear that we all know that we 
were uninformed about the gravity of the power situation, but 
we now know what to do to solve it. I think the faster we get 
every generator available and every kind of technical capacity 
available into the field, the sooner Iraqis will feel a greater 
sense of progress because they will feel the air conditioning, 
they will feel the power on more than 2 hours a day. I spoke to 
women whose children had to study by lantern light in Baghdad 
because there was no power and there was a continuing blackout. 
So these are emergencies.
    On the jobs' end, many people in industries have to be 
reemployed in the status industries right now. It is a 
recurring cost. It is going to add to the budget that Mr. Biden 
made reference to, but in the long run, this will provide the 
stability and the security that we need.
    And finally, I think we are moving ahead on some of the 
credit areas, but the provisional council, while it is not the 
actual government, has to provide some kind of a legal 
framework so that investors and people who want to start 
business in Iraq can move forward and understand that there is 
going to be reliability of the economic system. We were at a 
meeting yesterday. Nobody wants to invest when there is no 
regular regard for a contract. But if these three areas are 
taken care of in the short run--and I think they can be--we 
certainly could move forward.
    The Chairman. Thank you very much, Dr. Mendelson-Forman.
    Mr. Barton.
    Mr. Barton. Well, thank you very much. It is a pleasure to 
be here. My father was a member of the staff 30 years ago and 
had the chance to work with you. For those staff members who 
wonder what might be happening to them, may your children grow 
up to testify before this committee. It is a pleasure to be 
here.
    In the midst of enormous challenges that we are looking at 
here in Iraq, perhaps one of the greatest is moving the Iraqi 
mind set. In a society that is dominated by rumor-mongering and 
a complete lack of trust, the availability of constantly 
reliable information and of constant communication is 
absolutely essential. We believe that this is an area that 
still needs a tremendous amount of attention. Other than the 
$25 million reward for bringing in Saddam Hussein, in our 
travels we found very little understanding of what was going on 
in their country, where it might be heading, and what their 
individual roles might be.
    So what we have suggested is that what is clearly needed 
here is a national marketing campaign in the best sense. We 
felt that there are really three large voids. We do not know 
what the Iraqis are thinking still. Despite our presence in the 
community, we are living in something of a bubble.
    Second, we are quite clear that the Iraqis do not know what 
we are thinking.
    And then the third area is we are not sure that we know 
what we are communicating among ourselves.
    So the national marketing campaign obviously needs to be, 
first and foremost, built on a fully informed sense of what the 
Iraqi public is thinking and what it wants. And this will not 
be able to be done in sort of the traditional ways. We are 
going to have to get way beyond our occasional polling or some 
of the other methods that we have seen here.
    The second part of that is that we have to get the full 
contact with the people of Iraq. And we have a lot of 
opportunities that we think are being missed. We are paying 
salaries to tens of thousands of Iraqis and we are not using 
those opportunities. We have some TV programming that we put 
into place, but again it is nowhere near the 24/7 appetite that 
we saw there on the ground. We have the oil-for-food program, 
which essentially still is reaching the vast majority of the 
people of the country. These are channels that can be used and 
they need to be used if we are going to really get the kind of 
well-informed participation from the Iraqi public that we think 
is necessary.
    So this is something that is not typically within the 
working strengths of our government. We have joked among 
ourselves. We have said there is probably only one person in 
the U.S. Government who really is prepared to run this kind of 
an effort, and it may well be Karl Rove. But that is the sort 
of focus and attention and seriousness of effort that we 
believe is absolutely necessary.
    The Chairman. Thank you very much, Mr. Barton.
    Let me now call upon Mr. Anthony Borden who is executive 
director of the Institute for War and Peace Reporting in 
London, United Kingdom, for his comments. Mr. Borden.

STATEMENT OF ANTHONY BORDEN, EXECUTIVE DIRECTOR, INSTITUTE FOR 
        WAR AND PEACE REPORTING, LONDON, UNITED KINGDOM

    Mr. Borden. Thank you, Mr. Chairman, Senators, ladies and 
gentlemen, and my esteemed colleagues on the panel. It is a 
particular pleasure for me to be here, especially coat-tailing 
on their excellent report. As the executive director of the 
Institute for War and Peace Reporting, I have been working in 
post-conflict and conflict areas seeking to strengthen local 
journalism for more than 12 years. This is in many cases 
working in training, reporting, research programs, and local 
capacity-building. Our organization works in the Balkans, the 
Caucasus, Central Asia, Afghanistan, and now Iraq, and we have 
a long-term program supporting information flow from the War 
Crimes Tribunal in the Hague on the former Yugoslavia.
    Personally I traveled to Iraq just before the war to get 
some sense of what one could of the regime and also the 
information system there, and with a number of other 
organizations, I traveled to Baghdad and throughout the country 
in the preceding month. My remarks now are based on an 
assessment report \3\ which we produced and which has been 
disseminated but slightly updated since that report was 
finished.
---------------------------------------------------------------------------
    \3\ The assessment report referred to serves as Mr. Borden's 
prepared statement and can be found on page 29.
---------------------------------------------------------------------------
    Mr. Chairman, efforts by the U.S.-led authority in Iraq to 
establish responsible media are in crisis. Poor planning and 
implementation are undermining efforts to inform the Iraqi 
population and to lay out a framework for media development.
    The stakes are very high. A prerequisite for any kind of 
emerging democracy is a trusted and professional media to 
convey facts, support responsible debate, and represent the 
diversity of communities and views within the country. But the 
absence of reliable Iraqi media exacerbates the frustration and 
growing anger felt because of the absence of Iraqi governance 
and the continuing lack of basic security and services. 
Powerless and uncertain, Iraqis need a voice.
    There has been a dramatic post-war boom in local media, 
with the launch of up to 150 newspapers and many radio 
stations. Indeed, there is a bewildering, even exciting, 
diversity of new media for a changed Iraq emerging from decades 
of dictatorship.
    But the majority of these media are highly partisan 
operations established by rival political interests jockeying 
for position and could be destabilizing in a fragile post-
conflict environment. Many are directly produced by political 
parties or by former senior Ba'athists or other figures with a 
political, rather than a journalistic, orientation. Media 
beamed in from other countries in the region with very 
different agendas have far outpaced any U.S.-launched 
initiatives. Informed media with balanced reporting is largely 
absent.
    Most disappointing, the United States, through the 
Coalition Provisional Authority, has failed in the core task of 
communicating with the Iraqi people. With a weak and poorly 
executed information and media strategy, the U.S. has spent 
around $20 million, yet failed either to provide basic 
information about its actions and intentions or to lay a 
meaningful groundwork for a future responsible Iraqi media.
    The central problem is a conceptual one: the U.S. 
administration has not firmly separated its policies for media 
from its agenda for public diplomacy. Both are very important 
objectives. The occupying authority has a responsibility to 
communicate with the population to allay fears, provide basic 
information, and explain the purpose and potential of its 
intervention. But independent and reliable reporting is 
entirely different and must be structurally separate.
    In particular, the Iraqi Media Network, which is the 
authority media team, has been tasked both with broadcasting 
and with regulatory authority, with producing media and with 
providing information for the CPA. Overall, IMN has simply not 
demonstrated the vision and professional capacity to meet the 
major challenge it faces.
    Compounding the problem, interagency rivalry has 
contributed to an absence of strategy, bad hiring and 
purchasing practices, and debilitating internal dispute. TV 
programming, as my colleagues mentioned, has in particular been 
poor. As a result the IMN television news neither provides 
credible information to the population nor serves as the 
flagship fresh face of a new and democratic Iraq.
    An urgent step change is required in the structure and 
ambition of U.S. media and information strategy, focusing on 
three main points.
    One, the CPA must create a professional and substantial 
information operation to communicate basic facts to the 
population. Treat Iraqi people with respect by speaking to them 
honestly, regularly, and in their own languages about the 
challenges and prospects for their country, and they will give 
their support. Keep them in the dark or communicate through 
spin and half-truths, and frustration and anger will grow.
    Two, establish an independent Iraqi media commission to 
create the legal framework and regulatory and other 
institutions necessary for a free media environment. 
Superseding the existing Iraqi Media Network, the new 
commission must include incubating an Iraqi public broadcaster 
which itself would gain early independence.
    Through an initiative of USAID and the U.S. organization 
Internews, a framework for just such an approach has been 
drafted and consensus at a senior level appears to be emerging. 
Yet, it is important to emphasize that, as with IMN, the effort 
will falter if right from the start it is not granted full 
independence from direct CPA control or if ambitious multi-year 
resources are not reliably pledged. The challenge of winning 
buy-in from Iraqis also remains.
    Third and finally, empower Iraqi democrats. Draw on 
existing professional talent, urgently launch training to 
develop new capacity, and provide meaningful positions of 
responsibility for Iraqis in all new institutions. It is their 
country and the only effective approach will be one that makes 
them direct stakeholders.
    This should include a new Iraqi media institute as a 
coordinating body for training and media development and for 
strengthening the ties between emerging independent media and 
the broader Iraqi civil society which must sustain and be 
sustained by it. This is the area of focus of my organization, 
the Institute for War and Peace Reporting, which with British 
support will be launching a significant journalist training and 
humanitarian reporting project in the coming weeks.
    No one should under-estimate the extreme difficulties 
facing Iraq, a civil society destroyed, an economy in ruins, 
communications nonexistent, continuing uncertainty and 
violence. It will not be easy to overcome years of censorship 
and brutal repression of dissent.
    Yet, Iraqis are confronting this huge challenge with 
considerable energy and initiative. A proud people, they are 
highly educated and have shown enduring desire, even through 
the stultifying decades of Ba'athist rule, to be informed. The 
possibility for a responsible press and a sophisticated 
audience is evident, a potential revolution in open media for 
the whole region.
    This would only make the loss of such an opportunity all 
the more disappointing. The information chaos in Iraq 
undermines both Iraq's interests and America's, and urgent 
steps to chart a fresh course for a clear new democratic media 
voice in the region must not be missed.
    Thank you.
    [The following media assessment report was submitted by Mr. 
Borden:]

                    A New Voice in the Middle East:

           A Provisional Needs Assessment for the Iraqi Media

                          1. executive summary
    Stabilisation and development in post-war Iraq depend on the 
creation of new forms of representative government in a country that 
has suffered decades of war and brutal dictatorship. A prerequisite for 
success is the emergence of a professional and independent media, to 
convey reliable facts, support responsible debate and represent the 
diversity of communities and views within Iraq.
    Iraqis are confronting this huge challenge with considerable 
energy, but face serious obstacles. In the weeks since the end of 
hostilities, dozens of new newspapers and magazines have been launched 
in the capital, Baghdad, while the busy media culture in Iraqi 
Kurdistan--established during the decade of self-rule--has continued. 
Much of this output is due to the entrepreneurial and professional 
skill of Iraqis from within the country, and returning exiles bringing 
technical ability and mobilising financial and other outside resources. 
Meantime, the United States, through the Coalition Provisional 
Authority (CPA, formerly ORHA) has launched radio and television 
programming and two newspapers.
    Yet the difficulties are extreme. Iraqi civil society has been 
destroyed, the economy is in ruins and security is poor. Rival 
political interests jockeying for position are establishing highly 
partisan media which could be destabilising in a fragile post-conflict 
environment. Infrastructure for effective production, distribution and 
broadcast are inadequate and in many cases destroyed through bombing 
and looting. Reliable communications systems--essential for effective 
media--are non-existent.
    The majority of media professionals have politicised backgrounds, 
either with the opposition or government media, or the Ba'ath Party 
itself: there are few experienced journalists, editors and managers to 
operate truly independent media. The absence of the rule of law, and of 
a broader democratic culture, impede the free flow of information and 
debate essential to open media. Poor planning and bureaucratic in-
fighting within the international authority responsible for 
reconstruction have inhibited efficient and effective media 
development. Practical local reporting on humanitarian issues is 
absent. The lack of an Iraqi authority, the lack of basic security and 
services, and the absence of a reliable Iraqi voice are all 
contributing to a sense of powerlessness and, among some, anger.
    The key is a coordinated and strategic approach that will encourage 
media diversity while seeking to ensure a balancing core of independent 
reporting and responsible debate. This cannot be delivered by any 
single body, but will require transparency and consultation, and a 
willingness by coalition authorities to engage Iraqi media 
organisations and media professionals, and draw on the expertise of 
multilateral bodies and international media development organisations 
and associations.
    This independent snapshot of the media environment in post-war Iraq 
reviews existing and known new media in planning, and suggests areas 
for further monitoring and research.
    Meantime the report identifies priorities for the emergence of a 
truly independent media culture. The prerequisite is for the US to 
clarify and firmly separate its public diplomacy agenda from any media 
development strategies. Confusion on this fundamental issue has 
contributed to the failure of both. More broadly, competent Iraqis must 
be given greater control over media projects for Iraq. In specific:

  <bullet> Transparent and Inclusive Media Policy: The CPA should 
        publish a consultative paper on media policy and law and engage 
        in open debate with Iraqi and international media experts 
        through meetings, public discussion and a major conference in 
        Iraq. It should draw on extensive NGO contributions to draft 
        policy and regulatory frameworks.

  <bullet> Rule of law: The occupying powers, and emerging Iraqi 
        authorities, should expedite the promulgation of regulatory 
        frameworks for broadcast frequencies, and laws guaranteeing the 
        legal rights and responsibilities of Iraqi media. This must 
        include a substantial consultative process within Iraq, 
        involving coalition authorities, international organisations, 
        Iraqi independent institutions and political parties, and Iraqi 
        media professionals.

  <bullet> Independence for Iraqi Media Authorities: Regulatory 
        responsibility for frequency licensing should be removed from 
        the CPA and be given to an independent body, which should also 
        be separated from any public broadcasting agency. An 
        independent professional body should be established for 
        monitoring broadcast and print output.

  <bullet> Independence for the Iraqi Media Network: The CPA's Iraqi 
        Media Network should be dismantled and the constituent parts 
        all located within independent institutions. A clear policy for 
        handing over its TV and radio to an independent broadcaster, 
        outside direct control of any new ministry, should be 
        confirmed. Newspapers should be given formal independence and 
        senior staff removed from the payroll of government 
        contractors.

  <bullet> Media Professionalisation: Steps to professionalise the 
        output and clarify a strategy for the public broadcaster should 
        be implemented immediately. This should including reviewing all 
        consultants and staff and establishing appropriate management, 
        editorial production and staff training.

  <bullet> Iraqi Professional Bodies: Early support should be provided 
        to assist in the formation of new independent Iraqi journalist 
        associations, to strengthen Iraqi voices in the policy debate 
        and provide a base for Iraqi efforts to defend freedom of 
        expression and security for journalists.

  <bullet> Official information: The CPA should urgently improve 
        communications and the dissemination of official information, 
        especially to the Iraqi press. This should include 
        communicating in Arabic and Kurdish and establishing accessible 
        contact points outside militarily protected compounds and 
        former regime presidential palaces so local journalists can 
        readily contact officials.

  <bullet> Training: Training programmes for journalists, editors and 
        media managers should be initiated as a priority, ideally 
        through a coordinated strategy in partnership with local 
        institutions to improve professional levels and build long-term 
        training capacity.

  <bullet> Regional Media: International donors should reserve 
        development funds for incubating regional media, especially in 
        southern Iraq, and national media which can improve the flow of 
        reliable information from and to regions outside the capital.

  <bullet> De-Ba'athification: International policy on removing ex-
        members of the former ruling party should be clarified, and 
        vetting procedures agreed for media projects operated or funded 
        internationally, to clarify current staffing and remove 
        uncertainty for those who remain.

    In addition, the importance of broader issues outside the remit of 
this report should be recognized for the critical impact they have on 
the media and any civil society efforts. Lack of security remains a 
serious concern for all civilians, inhibiting movement by anyone, 
including journalists, especially after dusk. The lack of 
telecommunications systems seriously impedes all communications--a 
particular obstacle for working journalists.
                         2. mission background
    This independent report has been undertaken as a joint mission by 
the Baltic Media Center (BMC), Index on Censorship and the Institute 
for War & Peace Reporting (IWPR). Financial assistance and project 
conceptualisation has been provided by International Media Support, 
Denmark, with additional support from the UK Foreign and Commonwealth 
Office via Index on Censorship, and the Dutch government and the Open 
Society Institute via IWPR, which provided overall project 
coordination.
    The mission was undertaken May 15 to June 15 by Antti Kuusi (BMC), 
Rohan Jayasekera (Index) and Anthony Borden, Julie Flint and Duncan 
Furey (IWPR). Research support was provided by Jaafar El-Ahmar. Mission 
members visited Baghdad, Basra, Erbil, Karbala, Najaf and Suleimaniya. 
Meetings were held with Iraqi editors, publishers, producers and 
journalists, CPA representatives, advisors and other contractors with 
the US Department of Defense, donor representatives, as well as Iraqi, 
US and British political officials. The mission was developed at a 
coordinating meeting of international media development organisations 
held in London April 24. The mission benefited from several media and 
NGO reports on the media sector, including a recent report by the BBC 
World Service Trust.
    The views expressed in this report reflect those of the mission 
members alone. It is a provisional snapshot at an early stage of a 
dynamic situation. As such it is presented as a discussion document, to 
be supplemented by further research and assessment.
                           3. ba'athist media
    Media under the dictatorship of Saddam Hussein were under total 
government control, fully instrumentalised for the purposes of 
supporting the regime and glorifying the president. As a primary tool 
of official power, the media were under the authority of Saddam's 
widely feared son Uday, and thoroughly infiltrated by the security 
services.
    Journalism at most levels was the domain of trusted party 
loyalists. Dissent was out of question--even in private circles, where 
individuals could be reported on for making critical remarks and suffer 
physical punishment, prison terms or both. In effect, the entire 
country was turned into a population of potential reporters--filing 
secret reports on each other in service of the regime. Satellite dishes 
were banned. The Ministry of Information controlled all media and 
served as official censor, requiring prior approval of all copy and 
programming. A student in the journalism faculty claimed he had been 
jailed for three years for an article published in the student 
newspaper. Mission members heard another story of a graphic designer 
being severely beaten for publishing a line drawing which entirely 
unintentionally contained an image which could be taken to resemble 
Israel's Star of David.
    As in other dictatorships, the media served to promote the image of 
the president. Especially in periods of conflict with the United 
States--as observed by mission members who visited the country before 
the war--state television presented a noxious mix of Arab 
victimisation, glorious Iraqi struggle and anti-western propaganda. 
Shortly before the onset of fighting, the foreign editor of the Iraqi 
News Agency boasted that his agency had never experienced conflict with 
the government over any of its reporting in his several decades as a 
journalist. The primary state newspapers, representing the party and 
the army, competed to reproduce the largest front-page photograph of 
the president (often therefore looking nearly identical). In the run-up 
to war they took painstaking effort to present every western voice 
against the looming US-led attack as a declaration of support for 
Saddam Hussein.
    Uday Hussein was proprietor of the main ``non-state'' newspaper, 
Babel, the country's most widely read publication. Boasting high 
production values, including full colour photographs and a sharper 
writing style, it was spared the requirement to lead with every day's 
new image of the leader. It also contained selected (and largely 
incoherent) foreign news and advertisements for unachievable modern 
goods such as computers and the latest audio equipment. Entirely 
unreported in the media was any real information about life within 
Iraq, particularly the rule of fear which dominated the country for 
more than three decades.
    Up to 4 million Iraqis, out of a total population of 24 million, 
went into exile. Among these, a number continued or entered journalism, 
taking up senior positions in leading Arab media, such as the London-
based newspaper al-Hayat. One Iraqi journalist boasted that there are 
more Iraqi editors and reporters working for Middle Eastern media than 
from any other Arab nation.
    Many Iraqis engaged in ill-starred exile productions: many of these 
were highly propagandistic anti-Saddam vehicles promoting various 
opposition factions, and controlled by Egyptian, Saudi Arabian or other 
local intelligence agencies. The most ambitious enterprise was a TV and 
newspaper operation run by the Iraqi National Congress from London, 
supported by the US State Department until political differences and 
alleged misappropriation of money (never proven) led to the revocation 
of funding and the closure of the operation.
    Following the first Gulf war of 1991, and the establishment of 
self-rule in Iraqi Kurdistan under US and UK protection, Kurdish media 
flourished. Countless television channels, radio stations, newspapers 
and magazines emerged throughout the territory, joined later by dynamic 
Web sites featuring reporting from the ground and analysis and comment 
from Kurdish, Arabic and international experts around the world. 
Nevertheless, Kurdish media was riven by the deep political divide 
between the two main parties, and in a close-knit traditional society 
unaccustomed to internal criticism (much less leadership change), 
meaningful independent journalism failed to emerge.
    While media in government-controlled Iraq languished, many within a 
highly motivated and educated population followed reliable ex-
territorial broadcasting services such as the BBC World Service, and 
the US-funded Radio Sawa and Radio Free Iraq. Iraqi journalists like to 
boast of the country's history of innovation in Arab media, especially 
the supposed golden years before the 1950s. Iraqis have shown an 
enduring desire, even through the stultifying decades of Ba'athist 
rule, to be informed. Despite the problems, the potential for a 
responsible media, and sophisticated audience, is evident.
                         4. us media operations
    Planning for media policy and media development has been poor. As 
part of its constitution-drafting effort, the US State Department's 
Future of Iraq project sketched basic concepts of independent media, 
but did note elaborate detailed policy. The Iraqi Media Network (IMN) 
was established in January 2003, led by Bob Reilly, a former director 
of the Voice of America, and Mike Furlong, a long-time Defense 
Department contractor who had worked on broadcasting issues in post-war 
Kosovo. A budget of $15 million was confirmed in February, a month 
before fighting began.
    The US assembled a diverse team of exile Iraqi consultants, to 
serve as an editorial group to establish a TV station, a radio station 
and a newspaper, and to act as a policy unit, to advise on media 
strategy. Several westerners were employed, to provide journalism, 
technical and logistical support. Consultants were hired through 
Science Applications International Corporation (SAIC), an employee-
owned services company with a long record as a Defense Department 
subcontractor. By mid-April, the overall media team comprised more than 
two dozen people, largely based in Kuwait. Contracts were set to 
expire, and the entire operation due for review by the coalition 
authority, on June 10.
    During the war the US adopted a ``psyops'' strategy, broadcasting 
Towards Freedom, predominantly military information, from a converted 
cargo plane overflying the country. Leaflets instructing Iraqis to 
remain at home were dropped on the territory. An anti-regime station 
Radio Tikrit, named after Saddam's home town, was initiated.
    The IMN team began radio broadcasts from Um Qasr on mid-March 
(later moved moved to Basra to improve country-wide coverage). With the 
collapse of the regime, IMN's TV output was launched on May 13, from 
Baghdad. Al-Sabah, a CPA sponsored newspaper produced in Baghdad by a 
SAIC employed Iraqi exile, was launched May 15. On May 28, the first 
issue of a second CPA sponsored newspaper, Sumer, produced in Kuwait, 
was distributed in Baghdad.
    In late May, IMN was considering options for the dispensation of a 
regulatory authority, the licensing of newspapers and the establishment 
of the IMN as a public service broadcaster. Plans were discussed for 
closing all non-US authorised broadcasters (excluding Iraqi Kurdistan) 
and holding a frequency competition, with proposals due in June and 
decisions for 90-day allocations to be taken in July. The Iraqi 
Ministry of Information was abolished on late May, sacking its nearly 
7,000 staff and handing its assets over to IMN.
    The Authority's ruling giving the IMN responsibility for both 
overseeing regulation and operations is problematic. It creates an 
unavoidable conflict of interest that could spark considerable 
controversy. Recognising that ultimate decisions such as the status and 
funding of the state broadcaster will be taken by a future Iraqi 
government, debate within IMN focused on whether to transfer 
responsibility for broadcasting to an independent board outside of 
ministerial control, as with the BBC, or to fold broadcasting within 
one of the emerging ministries, such as a ministry for communications. 
Meantime, the confusion over its role as media and as a tool of public 
diplomacy are enshrined in apparently contradictory requirements to 
``promote . . . excellence'' in journalism and to ``provide an 
information service to the CPA''.
    From the start, the media project was beset by problems. Bitter 
disputes erupted between senior US representatives on the IMN, leading 
to chaotic and at times directly competitive decision-making. Hiring 
was ad-hoc, and although consultant salaries were high, posts and 
experience levels were often not well matched. Equipment purchases were 
poorly planned, Internet access was not established. Fierce internal 
rivalries emerged between projects with the network itself. Budgets 
were undefined and not devolved, restricting the ability of staff to 
get on with the job. No serious professional training was offered, and 
programme planning was non-existent. Hiring of local staff in Baghdad 
was not systematic, with very little pre-vetting for political links or 
professional capacity. Of the approximately 130 staff, of which around 
25 are journalists, IMN officials estimated that more than 90 per cent 
were former employees of the Ministry of Information.
    The plan for TV was for two hours of output, from 18:00 to 20:00, 
and then repeated, comprising 30 minutes of news and 90 minutes of 
children's programming, old documentaries and files. Controversy arose 
immediately over supposed ``censorship'': the IMN broadcast team 
refused demands to prescreen the output, and Iraqi staff insisted on 
starting the day's broadcasting with a standard reading from the Koran, 
against objections.
    Yet the real issue was quality, particularly TV. With a skeleton 
staff of around a dozen, the Voice of New Iraq, broadcasting via AM 
from the south and not properly audible in Baghdad, still achieved a 
basic quality news service, mixed with extended interviews, talk shows 
and music over a six hour output. But the TV news was very weak. In the 
period under assessment, information during the 30-minute news 
programme was primarily conveyed via public service announcements, with 
occasional news shorts. The presentation was confusing and often just 
dull. There was no coverage of the core political issues facing the 
country and no systematic reporting on the humanitarian effort.
    The dramatic absence of any quality programming was highlighted by 
the delight of IMN staff in locating 300 old VCR tapes from one of Uday 
Hussein's palaces, a typical scattering of Hollywood capers, romance 
and comedy--with, intriguingly, a copy of a book by one of Uday's body 
doubles in the pile. But still, tapes without legal rights negotiated 
to broadcast could only remain on the basement floor, unused.
    As a result, the authorities lost a critical opportunity to present 
a fresh and dynamic face for a new Iraq, and failed in its duty to 
provide basic information to a frightened and traumatised population. 
Experienced professionals have no doubt that a well-prepared team could 
have been parachuted in to launch reasonable broadcasting quickly. 
Alternatively, it would have been more effective to present simple 
informational announcements until an effective media operation could 
have been put in place. Many Iraqis complained about the coalition's 
fundamental lack of communication, and expressed bewilderment that an 
occupying army would not exploit the airwaves for this obvious purpose.
    As this report was being completed, at least one senior US member 
of the IMN team had been transferred from his position and one 
experienced exile media professional resigned citing ``nepotism and 
incompetence''. Reilly, the head of IMN, opted to discontinue with the 
project, and at least one other senior Iraqi team member declined to 
renew his contract. But plans to approve a further $34 million on the 
project appeared on course. In a continuing sign of the Defense-State 
Department rivalry, the contract for SAIC with the Defense Department 
to employ the IMN staff was renewed, but only for one month. Further 
turmoil seems likely.
                           5. media explosion
    Outside the confines of the presidential palaces from which the 
international authority operates, Iraq is experiencing a media boom. In 
the weeks since the end of fighting, up to 150 new publications have 
been launched in central and southern Iraq. Radio stations have also 
begun to proliferate. Each morning, newspaper sellers on the commercial 
Al-Saadoon Street and outside major hotels mark out broad swathes of 
sidewalk on which to lay out the latest titles on offer.
    For those who can afford it, satellite dishes offering access to 
international TV stations are on sale for around $200, well more than 
an average annual salary. The BBC has established FM re-broadcasting, 
while the Iranian TV station Al-Alam broadcasts slick 24-hour 
programming from across the border, 150 kilometres from Baghdad.
    Yet amid this media chaos, and evident explosion of open speech, 
the provision of balanced reporting, especially about local issues and 
humanitarian concerns, remains scant.
Baghdad Media
    In Baghdad, the content of most of the newspapers is essentially 
the same: politics and current affairs, domestic issues, features, 
entertainment and sports. A few publications address culture or non-
political topics. With Internet only beginning to appear, and no 
telephones, there is a distinct lack of international news, 
dispassionate analysis of the Iraqi situation or detailed local 
reporting. The first issues of most newspapers appeared rushed out, 
with poor design and editing, but for those that continued beyond that 
first step, the appearance improved.
    Yet in the absence of a functioning economy and trained reporters, 
truly independent and reliable journalism is almost impossible. Outside 
business and political interests are all seeking a foothold in the 
country via the media. The publications can roughly be divided into 
party organs run by various religious, ethnic or political factions; 
relatively professional appearing titles mostly produced by veterans of 
the Ba'athists press, many of whom were senior figures in the party; 
and likely fly-bynight productions by local printers, even a sweet-
seller--apparently anyone with a bit of funds wanting to put their name 
out into the fray.
    Among the first new papers to start publishing in Baghdad was 
Azzaman (``Time''), owned by Sa'ad al-Bazzaz, former editor-in-chief of 
the state-owned Al-Jumhuriya who defected in the mid-1990s. It is run 
as a slip edition, with the bulk of the pages produced in London, and 
locally produced front and inside pages inserted in Baghdad before 
printing. Its production values are high, and it is widely seen as the 
most popular newspaper. Yet the proprietor has made no secret of his 
own political ambitions. ``To spend all this money, to make all this 
investment, to take all this risk, it is because I am a politician,'' 
Bazzaz told The New York Times in May. ``And to be a politician, you 
have to use the media as a channel.'' The articles often bear an anti-
Shia tone.
    Al-Saah (``The Hour'') is published by Sheik Ahmed al-Kubeisy, a 
Sunni Muslim cleric who voluntarily left Iraq a few years ago to work 
as an advisor for a senior sheikh from the United Arab Emirates. He had 
a weekly religious program on Abu Dhabi TV. Al-Saah is regarded as a 
platform for an Iraqi Sunni agenda. The paper's editor-in-chief is 
Adeeb Shaaban, a former special secretary to Uday Hussein who fell foul 
of his boss a few months before the last Gulf war. His appointment has 
angered some Iraqis and his name has been removed from its masthead, 
though he continues in his post.
    Fajr Baghdad (``Baghdad Dawn'') bills itself as ``Iraq's first 
democratic and independent newspaper.'' Its front-page generally 
focuses on daily worries such as the lack of gasoline and electricity, 
and the looting and lawlessness that have swept the nation since 
Saddam's ouster.
    The most influential Islamist papers are likely to be Al-Da'wa, the 
organ of the Al-Da'wa party that was the first to fight against the 
Ba'ath; Sadr, the organ of radical Shias who seek an Islamic Republic 
of Iraq; and Al-Adallah, the organ of the Supreme Council of the 
Islamic Republic in Iraq of Ayatollah Hakim. For the moment, neither 
Al-Da'wa nor Al-Adallah criticise either other parties or the 
occupation forces. An anti-occupation agenda is apparent in Sadr. 
Kurdish parties have established several newspapers, as well as radio 
stations.
    Al-Sabah, one of two US-sponsored newspapers, is an unremarkable 
news review, providing extensive space to official statements and 
steering shy of critical analysis of the CPA and the US. Sumer, the 
second US-sponsored newspaper, could present greater competition for 
Azzaman. It is edited by Hassan Allawi, a former spokesman for Saddam 
Hussein in the 1970s who has been in exile for many years and edited 
the Iraqi opposition newspaper Al-Mutamar. Sumer has attracted leading 
Iraqi and Arab writers with wide-ranging debate and analysis. But 
produced in Kuwait, early issues were short on news and information 
from Iraq. As this report was completed, discussions within IMN arose, 
subject to the usual rivalries, about merging the two US-funded titles, 
and the future was unclear.
The Shia South
    Outside of the Baghdad newspaper hot-house, there is still 
considerable activity. Media in the Shia south of Iraq will play a 
critical role in the coming years. The Shia, Iraq's most oppressed and 
neglected community, form a majority of the Iraqi population and will 
be a key to stability in post-war Iraq. In the absence of any post-war 
government, sections of the Shia community who have not been permitted 
a voice for 35 years are already emerging as a radical, destabilising 
force, backed by a flood of new publications in Baghdad and the south.
    There is also a wealth of initiative and raw talent outside the 
capital--a result, one teacher-turned-journalist said, of intellectuals 
fleeing the centre in the days of the Ba'ath hoping to escape the worst 
excesses of the regime.
    Like Baghdad, the south has seen a flood of indigenous publications 
since the disappearance of the Ba'ath. Almost all are in the hands of 
religious groups or small collectives of intellectuals--or even single 
individuals--keen to capitalise on the new freedom of expression. The 
assessment team visited four cities--Basra, Amara, Najaf and Hilla. It 
found two local television stations and several dozen publications, the 
vast majority of them in the holy city of Najaf. long a centre of 
learning and a meeting point for Shias from many countries and 
cultures.
    Few of those working in the new media have had any experience of 
journalism. Most publications observe an Islamic tone, and highlight 
the speeches and declarations of various senior clerics, with large 
photographs of the religious leaders dotting the front and inside 
pages. News--especially balanced reporting from throughout the 
country--was essentially absent. Indeed, most proprietors or 
journalists seemed to be publishing/broadcasting simply because they 
could at last have a voice. Profit was not the main motive. Everyone 
was losing money and did not appear overly concerned. Those who lacked 
the resources to sustain these losses were walled out, notably in 
Basra, where efforts to open local newspapers have been stymied by the 
number of Baghdad and Kuwait produced papers given away free in the 
city, including Bazzaz's Azza man. A rainbow-coloured tabloid sports 
paper was launched in the city at the end of May.
    Basra boasts the main radio station which was operating in the 
South at the time of the assessment mission besides the IMN operation 
in Um Qasr. The 24-hour Radio Nahreen (``Two Rivers Radio'') appeared 
to have gained a considerable audience, and affection, for its lively 
mix of Arab and European music, military messages and public service 
announcements, and twice hourly news gleaned from the web and news 
wires. Produced by a British Army Psychological Operations unit and run 
by reserve Col. Colin Mason, a former BBC broadcaster now working in 
commercial radio, it launched on the eve of the war, broadcasting 
towards the Fao peninsula from the Iraqi desert, and moved steadily 
north until it arrived in Basra at the end of March. It broadcasts 24 
hours a day--live only in daylight hours--with news gleaned from the 
web and wires on the hour and local news gathered largely from the 
military, ``because most of the initiatives in Basra are military'', on 
the half-hour.
    A dozen local restaurants and businesses get free advertising in 
return for advertising the radio on their premises. The hope is that 
advertising revenue will make the radio self-sustaining when it is 
eventually handed over to Iraqis. Its five energetic young Iraqi 
broadcasters each received three days' training, having been selected 
for their youth and lack of baggage--i.e., without experience of the 
Ba'athist media. On May 27, Radio Nahreen began to be re-broadcast by 
the CPA radio that had moved a few days earlier into Basra from Um 
Qasr. It was expected that the station will be handed over to the CPA 
as the British wind down their military presence in Basra.
    Directed by Ali Qashif el-Ghita, son of a prominent clerical 
family, the heavily-Islamist Najaf Television broadcasts from a relay 
station appropriated from the former regime. It can only be received in 
Najaf and environs and pumps out a combination of religious material, 
children's cartoons and pirated news programmes from Al-Jazeera and 
Manar, the television station of Lebanon's Hezbollah party, for 
approximately 10 hours a day.
    On May 19, the US-backed civil administration in Najaf ordered 
Najaf Television to put itself under US control. El-Ghita refused, even 
though it would have meant salaries for his staff. He declines to 
broadcast tapes given him by the administration. However the station is 
not popular in Najaf, where most people dislike its heavy diet of 
Islamic lectures, many by Iranian-based clerics. El-Ghita says he has 
no financial backers, but many in Najaf question this. The general view 
in Najaf is that a takeover of Najaf Television by the occupation 
forces will be regretted only by the religious hard core, but only if 
the station retains a minimum of religious content. If religious 
content is scrapped altogether, the occupation forces' claim to be 
creating an independent media network will be discredited and the move 
will be seen as anti-Shia.
    The station's main competition presently comes from the city of 
Hillah. Hillah Television uses a relay transmitter seized locally from 
the Ba'ath and can be received in Najaf, where it is more popular than 
Najaf Television. Manager Sabah el-Taee owned a video shop under the 
Ba'ath and says his aim is ``to change the old philosophy: from 
concentrating on one person, to cover all people and all problems''. 
The station broadcasts for 6-7 hours each day, from early evening until 
midnight, with two local news bulletins each day and pirated national 
and international news. There is very little religion. ``People want 
entertainment, not just religion,'' el-Taee says.
    Among the many publications that have sprung up since the war 
ended, the range extended from newspapers and tabloid-sized colour 
magazines that purport/attempt to be independent to religious pamphlets 
masquerading as newspapers. Those behind the secular publications in 
Najaf and Amarah tend to be intellectual opponents of the Ba'ath--
translators/poets/novelists. The technical quality of their papers is 
poor, but the content is often informative and non-partisan. Only one 
newspaper was identified in Hillah--El-Fahya, financed by a local 
businessman, which gives prominence to local politics and the US 
occupation forces.
Iraqi Kurdistan
    Long-established during the past decade of autonomy from Baghdad, 
Kurdish media is sharply divided between pro-Kurdistan Democratic Party 
(KDP) operations centred around Erbil, and pro-Patriotic Union of 
Kurdistan (PUK) efforts, in Suleimaniya. The media environment is 
extremely active, but also bound by the lack of training and resources, 
uncertain legislation and heavy party political and other traditional 
influence.
    According to the best estimates available during the assessment 
mission, there are 344 media outlets registered in Iraqi Kurdistan. 
These are split between 132 print media and 24 TV and radio stations in 
Erbil, and 110 print and 78 TV and radio station in Suleimaniya.
    The vast majority are supported by political parties or specialist 
organisations contained within or directly associated to these parties. 
(In Suleimaniya, a Council of Independent Media has been established to 
support independent media efforts, though its council is strongly PUK-
led.) There is little advertising. All political parties have at least 
one print publication, often more. The faces of Massoud Barzani and 
Jalal Talabani, the KDP and PUK leaders, respectively, dominate the 
front pages of the publications in their respective power-base cities.
    In recent years a small number of less partisan print publications 
have begun to appear, while the broadcast scene, both radio and TV, 
remains entirely politically dominated. In addition to financial 
support, sometimes the political connections are more direct: the wife 
of Jalal Talabani plays a senior managerial role in the satellite 
channel KurdSat, the ``private'' terrestrial TV station Khak TV, and 
Media House, with three print publications.
    Much of the publications are made up of political comment, social 
issues and sports as well as a high percentage of letters from readers. 
Few have any international news and few have correspondents outside 
Iraqi Kurdistan. Many of the journalists spoken to saw their primary 
role as agents for change and campaigning.
    Both main Kurdish political parties sponsor a major satellite-
broadcasting channel, the PUK's KurdSat and the KDP's Kurdistan TV. 
These are large operations: KurdSat boasts easily the most modern 
equipment seen in Iraq on the mission. It has access to VOA TV and APTN 
news feeds. The majority output is in Kurdish, with some Arabic and 
English programming. Cultural programming and Kurdish folk music 
dominate, along with extended interviews and live discussions on 
political issues.
    There are also a total of 62 terrestrial TV and radio broadcasters 
registered with the two respective Ministries of Culture in Erbil and 
Suleimaniya, with 24 in Erbil and 38 in Suleimaniya. While some, making 
no claims of independence, overtly represent either political or 
religious parties or movements, the editors of others claim 
independence editorially, if not financially. These claims to 
independence were disputed by other media professionals and some 
officials in both cities.
    Output is mixed between some news and extended political debate, a 
Koranic section, cartoons and western films, all interspliced by live 
Kurdish folk music. Some stations visited produced their own news 
bulletins from correspondents within Iraqi Kurdistan. Others drew from 
news on the BBC, Al-Jazeera and the Internet. Others simply recorded 
and re-broadcast segments of Arabic news, mixed with news read by 
presenters in Kurdish. Many of the radio stations are based in the same 
premises as the TV broadcasters, and thus are similarly politically 
dominated. Most equipment observed was very basic. Programming was a 
combination of Kurdish and Arabic music usually played from cassettes, 
and studio interviews either with important political personalities or 
folk music singers.
    The entire Kurdish media scene is complicated by lack of clarity 
over the legal framework. Kurdish authorities in the autonomous region 
established separate legislation over the past decade, some of it 
covering the media. But it appears incomplete, with some legislation 
from the Ba'athist period still in place. Despite official commitment 
to freedom of speech, there is a sense that political and tribal habits 
against public criticism of leaders remain strong, and that, in any 
case involving the media, the judiciary are inclined to support the 
political parties. The relationship between Iraqi Kurdistan and any new 
legislation or regulatory system established by the coalition 
authorities from the centre in Baghdad is also unclear, and leave the 
entire Kurdish media scene in uncertainty.
    Meantime, with the fall of the Ba'athist regime, the political 
context in the Kurdish areas has shifted. Reacting to the new 
environment, the fierce competition between the two parties is 
formally, if slowly, being put aside, in favour of a more common 
position to represent Kurdish interests vis-a-vis Baghdad. This could 
reduce support for so many competing politically oriented media, 
although whether it opens the space for a gradual de-politicisation of 
Kurdish reporting remains to be seen.
                       7. journalism institutions
    University of Baghdad Faculty of Mass Communications. Journalism 
courses started at Baghdad University in 1964 and throughout have 
relied on regime-adjusted interpretations of Soviet ideas on the role 
of the media in society. Journalists say the department was heavily 
infiltrated by security services. After the war, the university's media 
department was completely stripped clean by looters and its remaining 
staff is not better equipped to tackle a modern journalism training 
programme. Courses restarted in May but it is not clear if anything can 
be salvaged from the existing university setup. The faculty includes 
courses in public relations and media studies as well as conventional 
``journalism'' but not use of print technology or the Internet. Recent 
changes within the department do not give confidence of an infusion of 
fresh thinking. Given that the de facto state broadcasters at the Iraqi 
Media Network will be required to set up or contract out for staff 
training and that international NGOs are already beginning training 
schemes for the rest of the media, some thought could be given to 
running parallel journalism and media production courses for university 
students as a separate module or a post-graduate course--but this would 
have to be under entirely independent management and tutorial 
jurisdiction from the university, until the university is completely 
reformed.
    Iraqi Journalists' Associations. With the collapse of Ba'athist 
dominated media clubs and journalist unions, a wholly new national 
journalists' association with a balanced management structure should be 
created. This new body will be better equipped to provide an open and 
effective forum for the defence of freedom of speech and freedom of 
information, to reach consensus on key issues of editorial independence 
and self-regulation of media, and to encourage debate about the ethics 
of journalism, public service values in broadcasting and political/
commercial influence over the media. In Iraq, where community divisions 
based on religious and ethnic differences threaten stability, its 
journalists should work together to agree the rules and standards for 
ethical conduct. As the International Federation of Journalists notes, 
``unless Iraqi colleagues are fully involved in setting the standards 
for journalism, a rush to regulate will hinder efforts to build a free 
and independent media community. The priority must be to place 
journalism firmly in the hands of media people themselves, not to 
impose rules that will undermine an emerging democratic process.'' 
Individual journalists should not be required to be accredited by 
either the authorities or a journalists' association in order to carry 
out their duties.
    Kurdistan Journalism Training. The Erbil Technical Institute offers 
a two-year journalism course, and will graduate its third class of 
students this year. Yet placement of students through a Central 
Admissions Department results in very mixed classes, and the focus 
appears to be on theory rather than practical training. The University 
of Suleimaniya offers a new four-year course through a journalism 
faculty, with a stronger emphasis on modern journalistic practices and 
practical training. Nevertheless, lack of funding has limited equipment 
and textbooks, and faculty themselves appear to have limited experience 
in the media. Neither faculty have sufficient funds to operate a 
student newspaper.
                          8. getting to grips
    Despite chaos on the airwaves and at the news sellers, and turmoil 
within the CPA's Iraqi Media Network, there were some positive signs. 
There appeared to be some recognition that expertise in media 
development and policy could usefully be drawn from professionals with 
experience in other conflict areas. Despite the overriding obstacles, 
efforts by the IMN crew were being made to improve and expand the 
output, and as with the newspapers, gradual improvements could be 
noted.
    While the explosion of Iraqi media showed no sign of slowing, the 
BBC World Service Trust developed plans for launching a new radio 
station in Basra, and donors began to express interest in supporting 
training and other development projects on the ground. Some of the 
organisations represented on this mission launched their own training 
efforts, and were developing other projects to support programming, 
policy debate and the establishment of independent Iraqi media 
institutions. These included plans for further assessment, especially 
into training needs, research into the developing market and monitoring 
of media content. Discussions have also continued towards a joint 
conference in Baghdad to help bridge the gap between the international 
debate over Iraqi media policy and Iraqi media professionals 
themselves. (For further information, contact the organisations 
involved in this assessment.)
    Meantime, the US non-profit agency Internews, with funding from the 
US Agency for International Development and the Greek government, has 
completed a detailed media policy and law project, and produced 
extended draft legislation and other proposals for the authorities.
    The document, produced by a small working group of international, 
Arab and exile Iraqi media experts, provides policy recommendations for 
legal and regulatory measures. These include an official revocation of 
all Ba'athist media laws and the adoption of an interim media law 
providing for a press and broadcast council, an interim media 
commission, an independent broadcast authority, a media appeals board, 
and freedom of information, and the adoption of a clear public service 
broadcast policy.
    Concluded at a conference in Athens, with a wide number of 
international, Arabic and Iraqi experts and media professionals, the 
recommendations, if adopted, would provide an important framework for 
forging democratic media in Iraq. But its compilation has so far 
suffered from a lack of information from inside Iraq on the current 
situation there; some of its proposals had already been superseded by 
events by the time they were published. The document has yet to be 
debated among the Iraqi population and media community, but its 
conclusions--a standard international framework with lessons drawn from 
other conflict areas--are available in Arabic. IMN director Reilly 
attended the conference and agreed to take it back to the IMN for 
consideration, but then departed the project.
    In the last days of May, CPA senior administrator L. Paul Bremer 
drafted and released strict new rules on the operation of the media. 
All Iraqi media must now be registered. Licences will be revoked and 
equipment confiscated from media sources that break the rules. 
Individual offenders ``may be detained, arrested, prosecuted and, if 
convicted, sentenced by relevant authorities to up to one year in 
prison and a $1,000 fine''. Appeal is to Bremer only, and his decision 
is final.
    His nine point list of ``prohibited activities'' include incitement 
to racial, ethnic or religious hatred, advocating support for the 
banned Ba'ath Party, and publishing material that ``is patently false 
and is calculated to provoke opposition to the CPA or undermine 
legitimate processes towards self-government''. Officials say the order 
is intended to stop ``hate speech''--the kind of language they say 
could trigger violence between Iraqis and westerners, or Sunni and 
Shi'a or Arab and Kurd. Appropriately used in fragile circumstances, 
such mechanisms could be a necessary tool of last resort. But ham-
fisted efforts to impose a pro-western view would only backfire. So 
major challenges remain, from within Washington as well as Iraq itself.

Baghdad, London, Copenhagen
May-June 2003

    The Chairman. Thank you very much, Mr. Borden, for that 
excellent statement.
    I would like to suggest, because we have a number of 
Senators present, that we start with a 7-minute limit and then 
we may have a second round if Senators are not able to satisfy 
their questions or get the answers they want on the first 
opportunity.
    Let me begin by picking up on a point that you made, Mr. 
Hamre, that the economy of the country--and you described 
this--is roughly a $25 billion to $30 billion economy pre-war. 
It really calls for a multi-year budget estimate, at least in 
my judgment. We heard from Mr. Bremer yesterday that he has 
fashioned a budget for the final months of 2003, which is a 
considerable advance, and has plugged in figures of oil 
revenue, revenue from miscellaneous sources of impounded funds, 
gifts, whatever activities that we are doing, and that other 
countries might do. This somehow looks like a budget that might 
fit for the remainder of 2003. But then comes January 2004.
    We have been told by other witnesses, and we ourselves have 
said, that other countries in the world there will be no 
payments or servicing of the debt that Iraq owes on the 
estimates of what it owes. What legitimate situation there is 
certainly in dispute, but one could estimate billions of 
dollars; some would say tens of billions, and some go into 
hundreds of billions.
    All that is like an 800-pound gorilla overhanging the 
situation. Let us say on the ground we begin to deal with 
figures like $10 billion, $20 billion, $30 billion for an 
annual budget. People in foreign countries or sovereign states 
are demanding to recognize someone in Iraq who has both 
sovereignty and the legitimacy. It is not yet well established 
as to who can assume the debt or who should pay it or who 
should forgive it. This is a very big problem. It has been 
there for a while, but it has not been addressed, and I think 
it needs to be both by our government and by other governments 
that we are able to pull together with us.
    Second, on the matter of the budget itself--I have been 
raising this issue, so it is not a new idea today, but I would 
like for someone to fill in the blanks for 2004 and 2005 just 
as starters. It could very well be that additional years are 
required for this exercise to estimate how much money comes in. 
Senator Biden has pointed out that Mr. Carroll said to us--and 
my recollection is about the same as his--that we could 
estimate $14 billion of oil revenue. Now, this is export oil 
revenue over and above oil that would be needed by the Iraqi 
people for their internal use. So there is $14 billion.
    When we pressed Mr. Bremer for what the other sources of 
revenue are, he kept saying, oil, oil, oil. There are not any 
until there is an economy that perhaps somebody might be able 
to tax or until some revenue comes from that, and in due course 
that will happen. So he would fill in, at least hypothetically, 
maybe 5 percent, maybe 10 percent from some other source on the 
ground from Iraqis themselves.
    Now, at that point, if we are dealing with the feeding of 
the people, the security of the people, the infrastructure 
repairs, leaving aside tough judgments, do you fix up the oil 
wells in a way that they could pump more oil? If that is a 
source of revenue, do you make an investment in the future of 
that kind? How much money on the revenue side is required? And 
what is going to be expended on the expenditure side?
    Now, thus far no one in the administration has wanted to 
deal with this issue. Each person would say you are dealing 
with hypotheticals. You are dealing with a world we do not know 
about. We are dealing with all sorts of things that we do not 
want to talk about.
    Yet you, Mr. Hamre, have mentioned this word 
``supplemental.'' The reason it is so important that the 
administration get into this is that it is obvious to me and I 
think to many of our members that substantial United States 
moneys are going to be required in one form or another, 
hopefully not always in the form of an emergency supplemental 
as a surprise, but rather in a straightforward way in which we 
understand that for the next few years our budget is going to 
have a component along with the budget of Iraq.
    Now, to the extent that we are successful with pledging 
conferences, with sharing the burden, with almost an 
international United Way like the first President George Bush 
brought about in of Desert Storm, then that figure, whatever it 
is on the revenue side, may be shared in various ways. Our 
burden may be substantially less, we hope. But it will be 
there. The thing that is important about your report is not 
just the next 3 to 6 months, which you say are critical, but 
rather the trust of the American people that we are leveling 
with now in what is a multi-year situation. Now, that is a 
tough thing for all of us to do, whether it is the 
administration or Congress.
    As I mentioned in my first statement, nation-building has 
had a pejorative connotation. People did not like that idea. 
They said that we are not in that business and that we must not 
slip into that situation. In fact, peace keeping is not very 
popular, and we do not want to get into that situation. 
Nonetheless, we are there and we are trying to keep peace and 
establish order and build a nation. In fact, the objectives of 
the war are often given. The success of the war will hinge on 
how good a nation state emerges from this. We have made that 
commitment.
    I would just like some more thoughts from you, Mr. Hamre. 
You have been a budgeteer for the Pentagon, so this is why it 
is a fair statement or line of questioning. Is it reasonable to 
try to fill in the blanks even hypothetically for the next 2 or 
3 years so that there is some idea of how much money is 
required, some idea of how much may be required from the 
American people so that there will not be one supplementary 
surprise after another? Because my fear is that during some 
hearing some day, perhaps during this Congress or the next one, 
many people are going to revolt and say we have been surprised 
enough. We simply do not trust your figures. It was apparent to 
all of you, as it is to everybody in this room today, that 
there were expenditures that were going to be required unless 
we decided to just bail out and say this was an unfortunate 
experiment. It did not work.
    You are saying that that would be unconscionable, and we 
do, too. That is not the objective of the hearing. We seek to 
build a sense of trust that somebody understands in a real 
world, including you as a budgeteer and a fine person who has 
brought together this report, as well as some of us who have 
responsibility to vote for these things on behalf of 
constituents who look to us to have some foresight and some 
honesty as to how we foresee it.
    Is the idea of a multi-year budget a good one? If so, who 
begins to fill it in? Where is the expertise somewhere in our 
government to fill in those figures?
    Dr. Hamre. Sir, I think you do have to take a multi-year 
perspective on the budget because there are multi-year 
investments that we are going to have to make, have to help the 
Iraqis make so that they can get a sustainable economy. The oil 
infrastructure needs serious renovation, serious renovation. It 
has been badly maintained and, frankly, plundered for the last 
8 years. The electric industry. There is probably only 60 to 70 
percent of the generating capacity that the country needs, and 
it is antiquated. So there is probably a $5 billion to $10 
billion investment in electricity generation and distribution 
that is required. These are all multi-year projects that need 
to be undertaken.
    I honestly think they really do have a good start on this. 
They have put together a process for aligning what are the 
obligations, when do we need to make them, how do we assign 
priorities between oil, gas, et cetera. So they have got the 
tools there, and I honestly think it has to be built up there 
and it has to be built up with as many Iraqis as possible 
because they need to feel we are not dictating their future, 
turning them into a plantation. We are simply helping them get 
started what they need to do.
    But as I look at the resources that Ambassador Bremer has, 
right now he has $6 billion of reliable money.
    The Chairman. And that is it.
    Dr. Hamre. That is it.
    The Chairman. He runs through it this year.
    Dr. Hamre. Well, sir, it actually has to carry for the next 
18 months. Now, at some point he is going to get oil revenue. 
It is coming more slowly than we had hoped. The original 
expectations for getting oil production were probably too 
optimistic, and we heard exactly the same thing that you did 
when you were there. We will hope to get $12 billion to $14 
billion a year for oil revenue over, say, the next 15 to 24 
months. As I said, this is a $25 billion to $30 billion 
economy. It was. It is not going to get there immediately, but 
that is roughly the level of expectation for living standards, 
et cetera.
    So somehow we are going to have to fill the bucket up. This 
needs to be done as much, I think, on an international basis. 
But when you get right down to it, I think we are going to need 
to acknowledge we will probably need supplemental funding, and 
I think it is a lot better to tackle that problem right now 
than it is to, all of a sudden, look at a supplemental next 
March and April. The politics are different next March and 
April. It would be a lot better to take on the issue of a 
supplemental now in my view.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. I would like to follow up on that a little 
bit. The thing that I found most striking about your report--
you know, we get a lot of reports filed, and half of the time 
you get a staff summary of and half the time you read that. I 
read your report. The central point you make and the absolutely 
essential point that we all focus on is that we have this 
window to convince the Iraqi people that it is a good idea for 
us to be there and to help them get the job done. The moment 
they change their mind about that en masse that is the moment 
that everything become exponentially harder no matter what it 
is we are going to do.
    But the point the chairman is making here, if you will 
forgive me for piling on, is that the American people are going 
to get to that point pretty soon. The American people. The idea 
that we are not factoring into our regular budget for next year 
a considerable number for Iraq is shameless. The failure to do 
that implies to the American people that we do not need to do 
that. We are not going to sit here and not factor in what the 
cost of our military is going to be overall. We are not going 
to say we are not going to guess about what the military budget 
should be, what Homeland Security should be, what other things 
should be. A supplemental implies we have enough now, if we 
need more, we will come back for it. We do not have enough now.
    And I am telling you--I am telling you. That is the wrong 
way to say this.
    I believe that if we do not start to level with the 
American people, we are going to lose them. My phrase. I am not 
disassociating myself from the chairman or he will not want to 
disassociate himself from me on this.
    When the President finally comes to his senses and realizes 
he has to go the American people and level with them, not what 
the exact amount is, but that this is going to cost us tens of 
billions of dollars in the near term and it is going to cost us 
tens of thousands of American troops in place in the near term. 
Until he says that to the American people, they wonder what we 
are doing. They wonder what we are talking about because they 
expected Johnny and Jane to come marching home.
    So I want to pursue in the probably 4 minutes I have left 
priorities here. The two gentlemen that the committee left 
behind took what they found in Iraq, as well as what we 
together found, and have drafted a report that is only in draft 
form, the chairman has not seen it yet, and I have just seen, 
and it is only a draft. But they lay out five or six things. 
They say that the priorities are security, which is different 
than law and order. Law and order is two. Reestablishing 
services, getting the message out, which is half of Mr. 
Borden's statement, generating employment, the part Dr. 
Mendelson-Forman is talking about, and internationalization of 
this effort.
    Now, my question is very, very basic. Notwithstanding the 
fact that we ought to be able to walk and chew gum at the same 
time, notwithstanding the fact, as Ms. Crocker said--we 
attended those town meetings too. They are remarkable. I do not 
know why they are not televised live on an Iraqi version of C-
SPAN with no commentary, just for all of Iraq to see it, just 
to see that. It is remarkable, truly remarkable what we are 
doing there.
    But in the meantime, we are finding that a lot of those 
folks are not prepared to participate in those councils because 
they are afraid they may get shot dead. They are afraid. Women 
are not willing to walk out of their homes. You passed schools 
like we did. There are all these automobiles outside of 
schools, and they sit there the whole day with a parent sitting 
in a car. I wondered what that was all about. Mothers or 
fathers will not let their daughters go into the school without 
staying on guard outside the school because their daughter will 
be abducted and/or raped.
    So what do we have to do in your view in terms of 
priorities? Should establishing order and infrastructure, 
getting up and running the lighting and the air conditioning, 
be the immediate priority, notwithstanding the fact we have got 
to go out in the countryside, notwithstanding the fact we have 
got to do a lot of other things? If you were able to wave a 
wand and solve one of the many immediate dilemmas facing us--
unfair question, but it will at least focus us--what would it 
be? What would the thing be that you think is the most urgent 
immediate need in the next 4 weeks?
    Dr. Hamre. Everybody at this table will say security. It 
has to be put in place because without it, you do not get 
reliable electricity. Without it, you do not get oil for long-
term health because you cannot pump oil without having----
    Senator Biden. Now, what was your sense--and I realize even 
being there a couple weeks like you were, you are not claiming 
to be omniscient, that you do not think you know it all. But 
what was your sense about our ability in the next 4 to 6 weeks 
to really get a handle on security?
    Dr. Hamre. Well, let me say a word first, and then my 
colleagues. I think our focus, understandably, has been on the 
Saddam loyalists, the spoilers that are out actively trying to 
undermine our forces and the security of the emerging 
government. That is not going to be adequate in the long run. 
We have to deal with the broad criminality on the streets, and 
we have to deal with the economic plundering. That has not been 
the primary focus of our military. I understand that. It is at 
the local level. They are trying to keep it safe at local 
communities. But the big gangs that are operating throughout 
the country and the basic security in the cities has got to be 
fixed because, as you said, people are not willing to work with 
us, and that means it is a broader security problem than just 
military.
    Senator Biden. Right.
    Dr. Hamre. The Iraqis have to be brought to the process of 
defending their own country.
    Senator Biden. Now, having said that, my time is about to 
be up. Let me tell you what we were told and you tell me if it 
is different than what you were told. We were told that in 
order to begin to stand up an Iraqi police force, just in 
Baghdad, let alone other places, that it was going to have to 
be from scratch because although there were 79,000 Iraqi 
policemen, none of them were cops as we know them. None of them 
were trained as cops as we know them.
    They gave an example. If there was a murder in an apartment 
building, everyone was expected in an apartment building to get 
in a car, bus, or walk to the police station and come in for an 
interview. Nobody went to the apartment building and 
interviewed the folks there because it was very simple. If you 
did not show up, you probably got shot or put in jail. It was a 
real simple proposition. In a democracy that does not work.
    So we are having to stand up a whole new police force. Even 
though 30,000 have come back and say they want to participate 
in a police force, some are not willing to go out to the police 
stations because they are afraid they are going to get shot on 
the way or shot when they are there, and even those we are 
standing up need basic training. So we were told that we need 
somewhere on the order, very quickly, of 5,000 trained police 
officers, European preferably.
    And this is my question. I have not gotten the impression 
we have been actively, above Bremer's pay grade, seeking with a 
sense of urgency contributions to such a force. What is your 
assessment of what you think we need and what you think we are 
doing? How high a priority is it at the moment with the CPA as 
well as within the administration?
    Dr. Mendelson-Forman. Let me just say one thing. I think 
there is a recruitment beginning on a civilian police.
    Senator Biden. There is.
    Dr. Mendelson-Forman. There is, and we were told that in 
our briefing prior to our departure when we were----
    Senator Biden. They told us that is going to take at least 
6 months to be able to stand up anything of any consequence.
    Dr. Mendelson-Forman. That may be the case, but let me talk 
about the creativity of our troops on the ground. They have 
started patrolling using these recycled policemen with U.S. 
MPs. Now, obviously, it is not going to solve the problem of an 
absence of a legal system, but you have got to create short-
term interim solutions that will give people confidence.
    Senator Biden. Most of those MPs are reservists and 
National Guard, and most of those MPs have no way of being 
extended, and they are going to come home or they are going to 
be there for extended periods of time which is going to cause 
another problem.
    Dr. Mendelson-Forman. But I would suggest that in the 
internationalization issue, which you raised, Senator, there is 
a critical need that could help draw the recruitment, and I 
suspect through the European community, through NATO, through 
other forces, we could get the number of people. It will not be 
the exact number that we need right now, but I think Dr. Hamre, 
in fact, had done a back-of-the-envelope calculation of how 
many we might possibly get even from our coalition in Spain 
where they are a member of the coalition, just to become 
members on the street. In fact, I got a call from somebody in 
Bridgetown from the CARACOM people saying, do you want us out 
in Iraq? So I think if there were an internationalization, if 
the U.N. were asked or other institutions were asked, people 
would send policemen forward.
    Dr. Hamre. Sir, may I just add to this that I think the 
case you described where someone is murdered in the home and 
you need to go investigate, those are fairly advanced police 
skills. Police forensics are more advanced skills. It does not 
take nearly so much effort to get a guy out there to stand in 
front of a building and check an ID. It does not take nearly as 
much to do that.
    Senator Biden. I agree with that.
    Dr. Hamre. So I think they are taking on the near-term 
security challenge, and frankly, you could do rent-a-cops for 
some facilities. We went to the tomb of the unknown soldier or 
whatever it was called, and you could put a couple of rent-a-
cops up there who would be Iraqi citizens. They do not have to 
be finely skilled police detectives who know good forensic 
skills.
    So I think if we parse out the problem, I think we can 
advance the domestic security agenda much more quickly.
    To your point, though, we clearly need more carbinieri type 
elements, and I think the Europeans have those. We should be 
asking them for them. I believe that the Italians are going to 
contribute them. I think the Spanish intend to contribute some 
or at least are prepared to be asked about it. We are going to 
need more than 5,000 in my view until we get our arms around 
the security environment, and we do not have them around it 
yet, but they are working on it.
    Senator Biden. Well, to paraphrase the chairman on another 
matter, I am anxious to see what the plan is. I would like to 
see the administration let us know what they are asking 
because, as Mr. Borden knows, in Bosnia we had a lot of 
experience in this and it took a long time and it took a lot of 
effort.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Dr. Hamre, thank you, your associates, all the 
organizations that are represented here at the table today. We 
know it is far and wide and it is very inclusive. So each of 
you who represent different organizations, in addition to CSIS, 
John, thank you very, very much.
    Your statement, Dr. Hamre, focused on seven points that you 
wanted to reinforce which summarized your study, and I wanted 
to go to the sixth which has been alluded to generally here in 
the opening statements of both the chairman and the ranking 
member, and that is the international coalition. If I could 
just read back to you a sentence or two, and then I have a 
question based on that.
    You mentioned the sixth priority. We have an international 
coalition that is helping us build a new Iraq, but we need to 
broaden that coalition even further. We need to find ways to 
invite other countries in to help with the rebuilding.
    How do we do that? Now, we have a donor conference, but 
John, get specific, and I would obviously welcome the comments 
of your associates. Let us start with the United Nations. What 
should we be doing? Are you recommending that we go to the 
United Nations with a resolution, go to NATO with a formal 
request, go to where and who and when? Take us down a little 
deeper into how we do that.
    Dr. Hamre. I really will turn to my colleagues first and 
then let me offer a comment at the very end. Rick and Johanna, 
do you want to speak to this?
    Mr. Barton. This is probably something that every one of us 
would be happy to speak to, but I think that we feel that 
probably another resolution would be helpful. Clearly, this is 
a domestic political problem for many of our allies. It is not 
at this moment a politically popular position to take within 
their own body politic to really get involved with Iraq. The 
U.N. would be helpful and we all believe that.
    I think secondarily we have clearly come to the aid of our 
allies as we did in Bosnia when the French and the British got 
stuck. I think this is one of those opportunities that is 
saying we would welcome your help rather than the more subtle, 
the more private communications. This has gotten to such a 
public stage that the word has to go out in a more public way.
    Senator Hagel. So a resolution would be one way that you 
all would recommend to broaden and deepen it.
    Mr. Barton. A resolution and the more direct communication 
that says we need your help. This is too big a task for any one 
of us to succeed, and it is vitally important that we all 
succeed. This is not the United States and Britain. This is a 
global effort and it requires a global commitment.
    Senator Hagel. In the interest of all nations.
    Dr. Mendelson-Forman, you had a--we will come to you here, 
Mr. Orr, in just a moment.
    Dr. Mendelson-Forman. Senator Hagel, I think your question 
and also the chairman's opening statement and Mr. Biden's 
statement point to internationalization specifically on the 
United Nations. Yesterday, the Special Representative, Sergio 
de Mello, gave his report. They gave very positive signs. I 
visited, once with Dr. Orr and once by myself, the U.N. 
headquarters. They are looking for a job. They want to help. 
And I think that is what we have to send a signal that is 
needed. Donors want to work with the U.N. There have been 
issues in the past, but the legitimacy of 191 member states is 
key at this moment, and if we are going to get the money that 
is described in the deficit, they certainly need the fiduciary 
agency of the U.N. to provide that in the absence of a 
government. An Iraqi Government will come, we are sure of that. 
But in the interim, even the donor regulations have the same 
bureaucratic problems as we do. They need to give state to 
state. There is no Iraqi state. There is an occupying power, 
and that is the first step that a resolution could address.
    Senator Hagel. Thank you.
    Mr. Borden.
    Mr. Borden. Yes. As the European resident at the table, I 
would think two things might be important to stress. One, 
Senator Biden referred to the problem of picking up the check 
without having had any say in the selection of the menu. I 
think that is a really strong, useful way of thinking and it 
represents much of what the Europeans are feeling right now.
    I think some very open speaking about the way we got into 
the conflict and where we are now would be useful. In the 
British presses, we know that American-allied Blair is getting 
hammered every day about the WMD issue. These matters need to 
be cleared up and moved on, and it may be worth addressing them 
quite openly first.
    Second, in the media field, just to give you an example, 
one of the things that we in the community of the media 
development groups are looking at are ways to create 
independent institutions from the CPA. We do this, because as 
journalists, we think media has to be independent of 
government. We also do this somewhat strategically because we 
think once we get these things carved out of the CPA, I can go 
to Brussels or I can go to Stockholm or I can go in Europe to 
raise matching money for this because they will be pleased to 
do so. It is not that they do not want to give money to 
America, but they want to give something to Iraqis. They want 
to give something independent, and they do, frankly, feel sore 
about the American dominance of the project. So find ways to 
loosen the strings a little bit, and I think you will find more 
contributions to the budget.
    Senator Hagel. Thank you.
    Dr. Orr
    Dr. Orr. Senator, you can tell what an issue you have hit 
on, that every one of us is leaning forward in our chair to try 
to get in on this one.
    There are a couple of key things that we can do in the 
immediate run. The Center for International Cooperation, the 
CIC, has been set up within the CPA. It is still somewhat 
marginal. It is kind of sticking out there. It is headed by a 
very able Polish gentleman, former Deputy Finance Minister. His 
deputy is an Australian. So far that body has been charged with 
going out and rounding up funds. They are very clear that they 
cannot round up funds unless they are brought into the 
decisionmaking process. Within the CPA, there needs to be 
progress toward getting the international voices in the 
councils making decisions on how the CPA will run.
    Second, the issue of recruiting civilians. We have been 
focused on foreign troops. We need to focus on foreign 
civilians too. They do not require the same logistical trains. 
One of the problems with going out and recruiting all the 
foreign troops is that we have to do a lot of the logistics for 
them. That is an incredible burden on us. Recruiting talented 
non-American civilians does not bring that same burden. If we 
use this decentralization model that I talked about, there 
would be plenty of great opportunities to plug in European, 
Asian, Middle Eastern civilians into that decentralized 
structure, and I guarantee you the donors' conference is going 
to go much better. When there are at least five or six 
nationals of a given country on the ground out there, they will 
be much more ready to pony up.
    Senator Hagel. Ms. Crocker, did you have a comment?
    Ms. Crocker. I do not have anything to add to that, no.
    Dr. Hamre. Could I just have 30 seconds, sir? The one 
thing, though, I would say I think it would be very useful, if 
we think about the United Nations, to try to put our efforts 
around getting greater international recognition to this 
governing council. Clearly we intend that to be the core of the 
new process under which a new government emerges, and I think 
that is probably a better basis for doing resolutions. My fear 
is that there is so much extra politics with going to the U.N. 
right now. It would be one thing if the Europeans were ready to 
say we will give you 100,000 troops tomorrow if you come back 
to the United Nations, but I have not found any commitments to 
100,000 troops anyplace in Europe. So there is not going to be 
a big, serious contribution coming from that process. So let us 
just do this the old-fashioned way. Let us try to buildup the 
part of the credibility around which the new government is 
going to emerge and make that our focus.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Sarbanes.
    Senator Sarbanes. Thank you, Mr. Chairman.
    In the New York Times a week ago, there was a story about 
the U.S. trying to get help with the Iraq costs, which of 
course you have touched on in your report, and I do want to 
express our appreciation to you for your report and the effort 
that obviously went into it. It is enormously helpful.
    At the conclusion of that story, though, it concludes as 
follows. ``Administration officials say there may be resistance 
if other countries want some say in how money is spent for 
Iraq. Many officials are adamant''--that is our officials--
``that it will be the Coalition Provisional Authority, or CPA, 
the current name for the American and British-led occupation, 
that decides. It still hasn't entirely sunk into the 
international community, but the CPA is the government of Iraq, 
said a senior administration official. There are already 
unfortunate misunderstandings on that, but I cannot underline 
that often enough. The CPA is the government of Iraq.''
    Now, how are we going to get others to give money if they 
are not included in the decision process with respect to the 
use of that money?
    Dr. Orr. I think that is exactly the right question. We can 
involve them on two levels, at the national level and at the 
local level. I have talked with a number of Europeans in 
particular that have reached out to us since this trip and 
said, is there a place for us to plug in? We have some people 
to send, everything from the carbinieri to other civilian 
administrators with experience in the Middle East with the 
language skills. Again, if we would just say yes, open that 
door and get some of them into the field, I think those 
governments will be much more willing to contribute.
    Dr. Hamre. Sir, I think that the CPA--because I spent a 
fair amount of time going through their budget and what they 
are looking to spend money on for Iraq for the next 18 months. 
It is pretty logical. I think it would stand the test of public 
discussion. And if you can say this is what our assessment is 
of what we think needs to happen, getting up electricity, 
repairing electric fields, paying, employing teachers, getting 
cops on the beat, it is a very sensible set of ideas that they 
have worked up. I think that if we get past this initial 
philosophic position, which I agree with--I mean, they are not 
going to want to give money in the abstract to us, but if we 
lay out what is the framework that we are trying to build for 
the new Iraq, invest this governing council so that they see 
this as a logical thing as well, become the basis for people 
that are making international contributions that fit a big 
plan. That I think is a good idea, and I think that it is not 
entirely clear to me that we cannot resolve this dispute if we 
can work on creating greater legitimacy around the governing 
council.
    Senator Sarbanes. Well, now, U.N. Secretary General Kofi 
Annan just this week in a report to the United Nations Security 
Council said--and I quote him--``It is important that Iraqis 
are able to see a clear time table leading to the full 
restoration of sovereignty. There is a pressing need to set out 
a clear and specific sequence of events leading to the end of 
military occupation.'' What is your view of that statement by 
the Secretary General?
    Dr. Mendelson-Forman. I think we are all in agreement, and 
I think Ambassador Bremer is as well, that the time table needs 
to be laid out. I think we go back to certain issues that we 
face. We have to get the security under control in order for 
the troops to leave, but I also think that empowering the 
Iraqis through this governing council would be----
    Senator Sarbanes. We were told here, as I understand it, 
before I got here, that I read in the statement that we should 
not put too much of a burden on the governing council because 
they cannot handle it. They are in an extremely delicate 
situation and therefore we cannot, in effect, hand off to them 
making any tough decisions.
    Dr. Mendelson-Forman. I do not think I was suggesting 
handing off, Senator, but I was suggesting that the first thing 
they are doing and they are actively working on is the creating 
of a committee that can create a constitutional basis. That is 
a job that they need to get Iraqi input into. They need to go 
out into the countryside. They need to go to these regional 
councils.
    Senator Sarbanes. Do you think the governing council now is 
perceived by the Iraqis as having legitimacy?
    Mr. Barton. I think it has a mixed perception right now.
    Senator Sarbanes. Unlike Karzai in Afghanistan when he was 
selected by the loya jirga. Would you say that was markedly 
different?
    Mr. Barton. I think we feel that the public participation 
was broader in the case of Afghanistan, but then again, we 
never dealt with the warlords there, so we have a complicating 
factor in that case.
    I think that the Kofi Annan statement we would agree with, 
and we should not only have the very clear sense of direction, 
but we should also explain what kinds of things could happen 
that might derail the process that is laid out, and that needs 
to happen. People are looking for that.
    Dr. Hamre. But, sir, I do not think that Ambassador Bremer 
is opposed to giving the council as much authority as it can 
manage. I think our concern is that we not push it to failure 
before it develops the internal competence to handle very 
complex issues because there are very complex issues.
    Second, I think a time table----
    Senator Sarbanes. So are you recommending that we sort of 
ride with the council over a period of time as opposed to 
trying to move to put in its place a governing mechanism that 
was at least more internally chosen and so perceived by the 
Iraqi people?
    Dr. Hamre. Sir, I think Ambassador Bremer's plan--I 
personally happen to agree with it--is to grow around this 
council a broader process that is seen as legitimate by the 
Iraqi people, and that is first getting competent services 
demonstrated in the country and gradually infusing it with the 
authority that it can run the country over time. But it still 
has to stand for election, and it will take a little while for 
us to be able to do that. I do not think that is a bad plan. I 
think it would be very hard right now to go out and just try to 
have 500 people showing up and writing a constitution in Iraq. 
I think that would be probably failure-prone. So this strikes 
me as a pretty good compromise. That is my personal view. I do 
not know if my colleagues agree or disagree.
    Mr. Borden. May I add just a comment? Two comments, please, 
Senator. The establishment of the government must be a process, 
not just an event. That is a bit of a cliche, but I think some 
of us remember in Bosnia where the rush to have elections and 
create a government there actually entrenched in many ways the 
forces that we, broadly speaking, were seeking to overturn, 
namely the warlords. My impression was that at least the Iraqis 
I spoke to were very happy that the council was created. They 
felt that this was not an open and democratic process, but it 
gave some voice and it was part of an ongoing process that 
would, in time, create a more legitimate government. I think it 
is understood that you will not have a realistically legitimate 
government until many other things are solved, such as outlined 
in the report and so on. You cannot have democracy without the 
society and even the economy functioning more broadly. First 
point.
    Second, I think, with respect, Mr. Biden was referring to 
setting priorities, and the Senator referred to information 
within that. I think he would understand and I would hope agree 
that information actually not in security terms perhaps seems 
to be the priority, No. 1. But in all of these issues, I think 
you will not succeed unless you have an information strategy as 
part of it. You cannot have the process of creating government 
unless you have honest information around it. If you set a time 
table, you are going to break that time table whatever you set. 
You need honest information around it so that people can 
understand that, and I think even in security terms, the 
analogy I would use would be being in New York City in a subway 
when it stops between stations. When you get that announcement 
that there is a delay and somebody is working on it, you relax 
a little bit, and when you do not get that announcement, you 
get nervous and you are frustrated and you feel very tense. You 
are left in the dark. I think that is where they are. So I 
think security is related also to information as well.
    Thank you.
    The Chairman. Thank you very much, Senator Sarbanes.
    Senator Sununu.
    Senator Sununu. Thank you, Mr. Chairman.
    Ms. Crocker, you talked about the value of funds flowing to 
the provinces or to the local level. Are there any funds 
flowing locally now even in limited amounts, and to the extent 
that they may be, what are they being used for and how can they 
be used more effectively?
    Ms. Crocker. At the moment there are not funds flowing, and 
so the answer is they are not really being used for anything. 
There are some funds flowing to our military commanders out in 
the field, and they have been able to use those funds for 
certain quick start projects that have been put in place such 
as rebuilding schools and sort of very small projects. That has 
actually been working quite well so far. But our suggestion is 
that we need to broaden that so that we also have some money 
flowing to these local councils.
    It also gets back to Senator Sarbanes' point before about 
sort of the legitimacy of the governing council itself because 
one of the ways that I think we would see that legitimacy 
increase is if we were able to link what is going on in the 
field to what is going on at the center. So we need to make 
sure that those local councils that may be more representative 
of their communities are linked into this national process.
    Senator Sununu. Where the quick start moneys have been 
used, have they been used autonomously by the military 
structure command locally, or have they been used 
collaboratively or cooperatively with the councils?
    Ms. Crocker. As far as we know, they have been used 
autonomously, although I think the answer is probably that it 
has been ad hoc because I think what has been going on in the 
field has been rather ad hoc and it just depends on which 
military commander is running the show in that particular town 
so that we might find that in some, there has been very close 
coordination with the local councils in terms of setting up 
priorities.
    But I did talk to a couple of people who said there was 
actually a great level of frustration on the part of Iraqis. 
For example, at one particular hospital, there had been three 
units of military guys who had come through as various ones had 
been rotating through, who had come to the hospital and said, 
tell us what you need, give us your list of priorities. And 
they said finally on the third such visit, they turned to the 
guy and said, I do not mean to be disrespectful, but we have 
actually given this list over three times. And they gave it 
again. But I think that just does point out that there is still 
a bit of a disconnect and it highlights the importance of doing 
that.
    Senator Sununu. Assuming there was a system set up that 
provided some level of funding to the local councils, do you 
see or are you concerned about any limitations in the council's 
ability to handle, use, distribute, invest money effectively?
    Ms. Crocker. I think we would be concerned about that just 
given the lack of experience probably with doing this sort of 
thing, but I think what will just be important in that regard 
is making sure that we have a process in place. I would assume 
and something that we point out in the report is that if we 
were to engage in this kind of revenue-sharing plan, that you 
might require a co-signature of the military commander or the 
civilian leadership there or that you might, at least, have 
some sort of an oversight process in place.
    Dr. Orr. Senator, I think this is an area where in military 
terms, we do not like to use the term ``dual key approach,'' 
but I think on this financial question, a dual key approach 
would be appropriate. The local councils make their decisions, 
but if you had civilian CPA officials in each of those areas, 
they could make sure that there is some oversight of those 
moneys.
    Senator Sununu. With regard to investments in 
infrastructure, there was some discussion in the 
recommendations about the value of investments in 
infrastructure. When we heard from Mr. Bremer, he noted that 
one of the most effective and efficient ways to make a 
difference economically and to deal with some of the security 
issues--and I think this was mentioned by the panel as well--is 
to invest in construction projects. It is a way to give someone 
a job, to get them to work, and obviously to make a difference 
on infrastructure.
    Does the panel have any specific recommendations for 
construction or infrastructure projects? Was there any sense of 
prioritization established in the recommendations?
    Mr. Barton. I think again we would go back to the iron 
triangle and we would say those would be the three major areas. 
All of us who visited were impressed by quite a lot of the 
infrastructure actually. The roads are superb. Much of the 
construction techniques looked excellent.
    We visited, outside of Basra, a large water plant which is 
essentially the water supply for the entire southern, very dry 
region. That is already on the list, and clearly the Army Corps 
of Engineers was coming in as well, but the USAID, Bechtel 
people were there visiting that site. That is going to be a 
public works project that will take years, would be our guess, 
to clean out the canal that has not really been maintained. We 
looked at the infrastructure inside of that plant. It was well 
worn down. So those kinds of opportunities really exist 
everywhere.
    And clearly the $5 billion plus figures that we have heard 
about getting the oil industry up to the point where it can 
produce 2 million barrels a day, or hopefully 3 million barrels 
a day, is really the starting point for that industry, but I 
think we would focus in that iron triangle which everything 
else depends upon.
    Senator Sununu. I do not want to put too fine of a point on 
it, but I see a distinction here between critical 
infrastructure projects or essential services whereby the most 
effective way to make a difference might be to contract to go 
get international contractors, foreign contractors who have an 
expertise in an area of technology maybe having to do with 
energy services, maybe having to do with water plant 
construction in order to get it done as quickly as possible and 
other areas where the more appropriate goal would be to provide 
funding perhaps locally, but to provide funding domestically to 
employ domestic workers in industry.
    Did you make a distinction between these two groups of 
projects or make any effort to try to distinguish between these 
two somewhat different sets of priorities?
    Mr. Barton. I do not think we differentiated, but I think 
we believe that you have got to have a bottom-up and a top-down 
approach. Because you have this imperative to really make 
tangible progress in these coming few months, you really have 
to do whatever you can to get that going.
    This is a management by chaos period, and if you think you 
are going to bring in lovely, well-coordinated teams of 
people--we saw some of those teams coming in. They are bringing 
in their own private security guards, retired British Special 
Forces agents that look as tough as anybody we saw in the 
country, and half of the money they were spending was on that 
element of their work. So this is the reality on the ground, 
and so you really have to come at it every which way you can.
    Dr. Hamre. But, Senator, while we were there, they released 
$100 million worth of construction contracts, and it was with 
local firms. Now, there is a good construction industry there 
and it is exactly for that purpose that Ambassador Bremer is 
trying to get that going. This is for things like repairing 
bridges and this sort of thing. That industry which was fairly 
competent has been a bit damaged by the looting. The one 
company in the country that makes these long concrete pillars 
that span bridges--whoever it is stole all the electric motors 
for their overhead cranes. So they have got problems like that. 
But I think Ambassador Bremer understands that is an option and 
he is pressing as fast as he can with real projects as fast as 
he can. It was right in the neighborhood of $100 million that 
he did right away.
    The long-term investment, for example, electricity which I 
would put as the highest priority, is going to take outsiders 
because there is no domestic production to produce new 
generation capacity.
    Senator Sununu. I have one more question. I see my time is 
up, but a final question for Dr. Orr. You talked about the 
civilians and getting more civilians in place for a number of 
reasons, which I very much agree with. Could you be a little 
more specific about the types of civilians you are talking 
about in terms of prioritization, what kind of backgrounds are 
most essential, what kind of role do you see them playing? In 
other words, is it just a leadership role or is it an on-the-
ground implementation role? And when you say civilian, are you 
talking perhaps about Federal employees here from the 
Department of Agriculture or Department of Justice that have 
expertise, or are you talking about private sector civilians 
that are identified and take advantage of an opportunity to 
make a difference in Iraq?
    Dr. Orr. In terms of the types of civilians, first I should 
address the volume question. In each province we asked: how 
many people do you need? We asked the military. We asked the 
civilians we did find there. On the international side, how 
many civilians would you need to make this province function, 
with respect to the kinds of issues that you raised with us, 
agriculture, infrastructure, security. The numbers that they 
came back with were fairly consistent at about 20 to 30. They 
differed by province as to what the functions would be, but 
agriculture showed up in some provinces, financial management 
and budget showed up everywhere.
    Senator Sununu. About 20 or 30 per province?
    Dr. Orr. Per province.
    Senator Sununu. And 18 provinces?
    Dr. Orr. Yes, 18 provinces. If you cost it out we came up 
with about $200 million a year. And that does not all have to 
be American.
    I think the key is that a coherent group of people come in 
as advisors. They could be seconded American Federal employees 
seconded. They could be private sector employees that we have 
specifically gone out and recruited. It could be done through 
contractors and it certainly could be internationals as well. 
So not all those costs would have to be borne by the United 
States.
    Senator Sununu. Thank you.
    Thank you, Mr. Chairman.
    Mr. Borden. May I please make one contribution? I know that 
light was red a second ago.
    Senator Sununu. That light is for me. It cuts me off. It 
does not necessarily cut you off.
    Mr. Borden. I am here slightly to bang one drum, but I will 
relate the information of the media issue to the budgeting 
question you were referring to. I happen to have a colleague 
with me from my organization who is intimately involved in 
public service broadcasting reform in Kosovo, and I think there 
is a relationship here.
    A key question is multi-year budgets. It sounds very 
technical and very dull, but especially if you want to bring in 
outside contractors, and I would say this particularly for the 
media field because that is the field I know, but I am just 
guessing that it relates to many of the other ones. If I am a 
manager asked to do something, you must give people the 
responsibility to do it and the tools with which to do it, and 
then step back, and they succeed or they fail. But many times--
and I am sure people who have been on assessment missions in 
the field have seen it many times before--the budget is 
confirmed, it is not confirmed, I am only here for 4 months, I 
do not now what is going to happen next, or the project, as 
soon as it is launched, it falls into a desperate fund-raising 
process itself. So it really is from the minute, and there is a 
great fear within in it because in many of these public service 
broadcasting reform projects, whether in Bosnia, Kosovo, 
Afghanistan to a degree, which we are also involved in, there 
is a political will for the moment. But the manager needs to 
take a 3- to 5-year view. The director general of this has to 
take a 3- to 5-year view. But he knows in 2 years the world is 
going to be looking elsewhere, and he is very terrified. It is 
very difficult to get the quality people you need and really 
make the investment in the start. So while it is management by 
chaos--and I picked up on that phrase--even within the chaos, 
if you are a good manager, you have to have a strategic plan 
and you cannot do that if the resources are not somehow more 
confidently behind you as you get started.
    Thank you.
    The Chairman. Thank you very much, Senator Sununu.
    Senator Corzine.
    Senator Corzine. Thank you, Mr. Chairman. Let me join and 
echo the gratitude we have, all of us, for the report and the 
insights.
    I will read the phrase that made the headlines, ``the 
potential for chaos is becoming more real every day,'' in that 
section of your report, you went on to talk about multiple 
internal and external players. Can you talk a little bit, give 
a little scope of understanding of how you see the external 
player piece to the security issue which appears to be priority 
No. 1 and give us some framework? Is this external players that 
have been, continue to be joining the chaos, the word of the 
moment?
    Dr. Hamre. Let me say a word and then I will turn to my 
colleagues. Sir, I think that clearly in the southern part of 
Iraq, we know that there were Iranians who moved in, more 
really to connect with Shia followers in the south. I do not 
think that there is a lot of evidence that they have been 
behind the physical violence directed toward our forces. I 
think they have been more toward organizing the Shia 
population, more on religious affiliation grounds.
    There certainly are rejectionist radical islamic elements 
that have operated in the area. Some reportedly are moving 
back, but they tend to be more minor in nature. It is certainly 
something to be concerned about.
    The bulk of security is frankly in two dimensions. It is 
the Saddam rejectionists who really are invested in the past, 
not the future, and see themselves threatened by the future.
    I think there is an international connection which is 
under-appreciated which are these smuggling gangs. There is a 
great deal of black market activity that is plundering the 
country. These are gangs that are taking things out of the 
country. In many ways they operate like where you see 
convergence between drug trafficking and terrorists in South 
America and around the world. This tends to happen in places 
where you impose long-term sanctions. Black markets emerge and 
they get deeply entrenched in these societies. And they operate 
transnationally in this region. They are taking things they 
steal from Iraq and they are taking them into neighboring 
countries. That is a very real problem. Now, they are not right 
now trying to attack our troops because they are trying to 
avoid our troops. They are trying to steal stuff. But it is 
definitely an international dimension of corruption and 
violence that we are going to have to come to grips with. And 
to the extent that that becomes a vehicle for politically 
motivated violence--I cannot say that we see that now, but it 
has happened in other places where we have seen this 
phenomenon, and that is a real source of worry over time.
    Senator Corzine. In that connection, is there any sense 
that there is trafficking in military equipment, munitions, any 
of the potential for the yet-undiscovered smoking gun falling 
into the hands of this crowd of folks that proliferate this in 
and outside of the borders?
    Dr. Hamre. They undoubtedly are trafficking in arms. These 
sorts of gangs do that as well. It is simply part of the 
commodity line, anything from melting down salvaged copper to 
turning it into ingots to taking munitions that are still in 
cases and selling them to the black market. So the answer is 
yes.
    Senator Corzine. More worrisome obviously, in the context 
of the overall framework in which we entered into this 
conflict, was weapons of mass destruction. Do you have any 
evidence that they have involved themselves in trafficking and 
things other than conventional weaponry?
    Dr. Hamre. Sir, I do not have any personal knowledge about 
that, so I cannot comment on that in any authoritative way. I 
think we would be concerned about it obviously, but I do not 
have any knowledge about it.
    Senator Corzine. Sort of a follow-on to Senator Sununu's 
questions. Rebuilding requires security. That is why I think 
all of you talked about security as project No. 1. How much of 
what is being rebuilt has become subject to the kind of--
whether it is loyalists and rejectionists or organized crime 
figures, is being limited in its ability to be effective 
because it gets destroyed before it gets put in place, and how 
big a problem is this?
    Dr. Mendelson-Forman. Maybe I can start, and I know my 
colleagues have other comments. But we were told, when we 
arrived in Baghdad, that 60 percent of the power generating 
capacity was actually destroyed during the looting. Now, that 
is not saying it had a great system to begin with, but if you 
cut out 60 percent, you have a tragedy.
    The other thing we were told in the----
    Senator Corzine. Have we stopped the bleeding, though, I 
guess?
    Dr. Mendelson-Forman. Well, hopefully we are beginning to 
stop that bleeding now, but you started really hobbled by a 
looting situation. Also, some of the looting that is going on 
where the copper in the wires and other pieces of just basic 
hardware are being taken out of the walls as soon as they are 
put in because there are no jobs. People sell these and they 
sell it to a black market which, as Dr. Hamre said, then 
exports these. So you have the need for static security. All of 
this is circular because you have to guard what you build in 
order to prevent things from happening overnight.
    But I will let others comment as well.
    Dr. Hamre. If you bring in a generator, you have got to 
protect it. If you are going to bring in a brand new generator 
to keep water pumps working, you have got to put a guard by it. 
Now, we hope to get Iraqi guards guarding it rather than 
American troops guarding it, but you have to do that right now 
because there is this industrial-strength plundering still 
going on in the country.
    Dr. Orr. Senator Corzine, I would add that one of the key 
elements of security that should not be overlooked is when 
communities are involved in the decision, they will protect 
what they just decided on, and that is why these local 
governance councils we have talked about are so important. If 
they enumerated their top three priorities and then we put 
money against it, the chances of that community organizing 
itself to keep those assets safe goes up exponentially.
    Senator Corzine. The civilians that you had suggested that 
are an important element of moving the country forward--what 
security arrangements do we think we would need to put in place 
to make sure that that happens? It sounds if we cannot keep 
copper wire in the wall or we have a death a day among military 
forces, civilians would be much more vulnerable I presume.
    Dr. Orr. You are absolutely right, but the key point here 
is that the security situation is very different in different 
parts of the country. While it is a little bit sketchy in most 
of the country, you could safely put civilians in over half the 
provinces without significant extra increments of security over 
what is already there. There are obviously parts of the country 
where you would have to implement the security package 
alongside the addition of civilians.
    Senator Corzine. I am presuming that that 30 folks that you 
talked about in the individual provinces did not include the 
security forces that would be necessary.
    Dr. Orr. No, that did not.
    Senator Corzine. Thank you.
    The Chairman. Thank you very much, Senator Corzine.
    I am going to ask unanimous consent, with Senator Corzine 
still here, with just myself asking myself.
    I request that an excellent review of U.S. decisionmaking 
with respect to Iraqi reconstruction that appeared in the July 
22, 2003 edition of USA Today be included in the hearing record 
at the conclusion. Hearing no objection, that article will be 
reproduced.
    The Chairman. I know that Senator Biden and Senator Hagel 
have questions, and they have temporarily absented themselves, 
but will be back. In fact, Senator Biden is back now. So I will 
recognize him at this point.
    Senator Biden. Thank you very much, Mr. Chairman. I will 
try not to trespass too much on your time.
    I would like to ask a couple very basic questions, if I 
can. Anyone, if there was a television and radio that was up 
and running that had the force of some legitimacy in the minds 
of the Iraqi people, that just chronicled, nothing else, what 
is going on right now, what would be the impact?
    What made me think of this was Ms. Crocker's point about 
some good things happening. What does your gut tell you would 
be the response of the Iraqi people if they knew, for example, 
they could actually see these town council meetings that we saw 
and sat through? We were there and they were talking about, if 
I am remembering correctly, well, why cannot the water main go 
an extra 250 meters or whatever to get to our side of the 
neighborhood. And then they would turn to the guy who had been 
the former director of education for that area of Baghdad. The 
neighborhoods represented roughly 14,000 people. And there were 
two neighborhoods that were part of this essentially town 
council. Being a former county councilman, it was an impressive 
display of participation that was genuine, real disagreement, 
dialog and consensus. And how impressive, as you said, doctor, 
those young lieutenants and the young majors and young colonels 
who were standing there. I mean, they are an impressive group 
of people.
    What is your sense about that window that we have if people 
in Iraq knew that we are actually setting those, whatever you 
want to call them, neighborhood councils up?
    Mr. Barton. Our sense is they would have a huge and 
beneficial impact. Right now seeing is believing is the only 
credible way that information is moving within the country. We 
talked to three young attorneys who were working inside of the 
palace. They would not tell anybody but their families that 
they worked inside the palace. So that gives you a sense of 
that.
    On the other hand, when we started talking about Saddam, 
they said, why do we not see the people that you have arrested 
in shackles? Why do we not have the confirmation that you 
mentioned earlier? We had also said it would not hurt to have 
crime watch shows. We are not going to be able to figure out 
what the high ratings are. We really just need to get every 
single form of communication that we can imagine into play 
because the appetite is absolutely unbound at this moment. The 
Iraqis need information. Furthermore, they have got an awful 
lot of time to digest and process information because there are 
not a lot of activities going on right now inside the country.
    So we believe it is essential. It needs to happen. There 
are a lot of ways of doing it, but we have to go way beyond 
sort of ``psyops'' and government public information. We are 
talking advertising. We are talking focus groups. We are 
talking every conceivable form, hiring thousands of young Iraqi 
students who do not have anything to do this summer to go out 
as promoters in the community so that we will also have a 
better sense of what is going on in the community. We cannot 
just count on young American soldiers who do not necessarily 
have the language skills to be our key intermediaries. We have 
got to expand is. So clearly do it on the media level, but this 
is much more of a campaign than kind of an ordered exercise.
    Senator Biden. Well, I am going to save you to the end, Mr. 
Borden, because I have three questions I want to ask you and 
you can then add anything you want to say.
    I want to go back to Dr. Orr and talk about civilians in 
the provinces. We have a fairly extensive track record in this 
country, initially the SEED legislation back in the 1980s. We 
had the Freedom Support Act that we worked in Eastern European 
countries, former Soviet states. We have some experience in 
dealing with getting civilians into Bosnia and Kosovo. 
Hopefully our learning curve on this has improved.
    Have you had an opportunity, any of you, since you have 
been back, to interface with our government people, our agency 
people about mechanically, A, how we recruit or what recruiting 
mechanism and how we would dispense? If not we, there are all 
kinds of NGOs out there who are chomping at the bit, but for 
the security concerns of getting out there. Is there anything 
in play since your report? And if you were sitting up in our 
job, who would you be calling before the committee from the 
administration to tell us about what, if any, plans they had 
about implementing a civilian corps, in effect, that is 
international. As you said, they do not have to be Americans. 
Can you talk to me about that a second?
    Dr. Orr. Absolutely. On Friday, Under Secretary Feith, in a 
briefing at the Pentagon that he invited us to join, said that 
they would be taking this recommendation of setting up a backup 
office for Ambassador Bremer in DOD, but that it would include 
people from all of the relevant agencies. Since that time, I 
have had at least two other agencies in town say, we are ready 
to put up our person for that office. So I think it is in play, 
but it would be important to get it up and running very 
quickly. Those people should not just be any old person from 
the agency. It should be the person who is the talent scout in 
that agency that normally does that, that knows how to look 
into the private sector, look into local government, look into 
Federal Government to find those people.
    Senator Biden. My time is about up. I want to end with you, 
Mr. Borden, if I may. I think your recommendations are, as some 
of my British friends might say, spot on. I think they are 
pretty darned good here. I think what you have in mind is the 
game plan; your three recommendations are the way to go, 
personally.
    My problem is immediately. Again, we are running up against 
this immediate crunch. What is left of this committee here and 
everybody there, I think we are all on the same page here on 
that score.
    Now, as long as this security vacuum exists, as we are 
trying to fill this vacuum, it is going to hopefully get filled 
gradually day by day. But as long as it exists, what can Jerry 
Bremer do now to better communicate with the Iraqi people? I 
realize we need a long term, and I am not trying in any way to 
diminish how consequential that is and we ought to be able to 
walk and chew gum at the same time. Plan for that and get that 
underway. But what does Ambassador Bremer do now--now, 
tomorrow--to say to the folks he has on the ground now, this is 
how we are going to better communicate beginning today? What 
kinds of things does he need to do?
    Mr. Borden. Thank you. With respect, I think if your own 
office and department had the information campaign and 
information strategy that he does, you would not be a Senator. 
You are a politician and you know about information. You know 
about communicating with the constituency. You know how 
important it is. It is part of the democratic process. And I 
believe this is beginning to be quite understood within 
Baghdad. They need a director of communications and a proper 
information operation, which is very robust, and begins 
immediately.
    What I would urge them to do is to separate the 
understanding of the information from the plumbing by which you 
communicate it. They are, as they said, the government. Bremer 
does not need a TV station. He just needs a microphone and a 
press conference and people will come. Focus on getting the 
message out, figuring out what the message is. And not to 
distinguish myself from my colleagues, but I am a journalist by 
background. I would focus on information and honest conveyance 
of, as you say, briefings and so on. Marketing and all the rest 
has its role, but I do think the Iraqis have a long history of, 
let us say, propaganda, and they want the truth, and when they 
have the truth, I think they will understand the difficulties 
and appreciate it and be generally on side.
    Senator Biden. One last point, Mr. Chairman. I have been, 
as we all have here, a strong supporter of our Board of 
International Broadcasting. Our Board of International 
Broadcasting not only has Voice of America, it also has those 
apparatus that have literally journalistic independence, the 
radios, the so-called Radio Free Europe, Radio Liberty, the 
remnants of those and new startups. I would like to ask you--
and you may not have an answer now, and you may. If you have 
it, please tell me--what you would think about a recommendation 
of getting Bremer and company or at least folks in the 
administration to call these folks in and have them come up 
with a proposal near term to immediately be able to deal with 
the dissemination of information.
    I realize it is different, but literally in a matter of 
several months, they put together this Radio Sawa that became 
the most listened-to radio station in that part of the Arab 
world, almost overnight, because we took, what you are 
suggesting, Dr. Orr, a very smart guy who made a billion bucks 
putting together radio stations in the United States of 
America. We went out. He volunteered his time. He sat on the 
Board. The Board turned to him and said, put together a radio 
station. How would you do it if you were going out there?
    We invented Madison Avenue, for Lord's sake. Our inability 
to be able to communicate is probably--if you were sitting on 
Mars for the last 6 years or 60 years and got brought back to 
Earth and said, well, what is the one shortcoming we would 
have, the last one you would come up with is thinking we would 
not be able to communicate our point of view.
    So I would like you to think about--and I have no ability, 
like the Secretary of Defense or anybody else, to task you in 
any way. But I would appreciate it, as one member of this 
committee, if you would, Dr. Hamre, think about whether or not 
existing governmental agencies are up to the task When we were 
riding back, the chairman and I with General Kerr, who was 
being, as all the military were, absolutely straightforward 
with us. The chairman was saying we have to learn to plan for 
this kind of stuff much better in the future in terms of nation 
building or whatever you want to call it, to have a much bigger 
civil affairs component of this operation. Kerr was not 
lamenting but pointing out that he is very shorthanded, that 
there is not as much of a workup on this side of the equation 
as necessary, and that he could use a whole lot more on the 
civil affairs side.
    So my question, not to be answered at this moment, for you 
to consider for the committee is within the present Federal 
Government structure that exists, what should we be doing? What 
other parts of the government should we be calling on to assist 
on this communications side, if that is the case? Mr. Borden, 
if you would think about it for me. If this were the President, 
the Secretary of State, and I am the commanding general and I 
am Bremer and we all come to you and say, hey, look, we want 
you to become the public information officer for Biden sitting 
over there trying to put this together, what would you be doing 
not next month? What would you be doing tomorrow and the next 
day and the next day?
    Dr. Hamre, this is not a criticism of Jerry Bremer, and it 
really is not. I mean it sincerely. But when I asked the 
Ambassador yesterday about this issue, he said, look, I am 
doing x number of press conferences a day. I am on Al Jazeera. 
I am making myself available. And he is and doing a good job 
when he does. But that is not a press plan. That is not a press 
plan or a communications plan.
    So anyway, I have trespassed on my time already. If you all 
would consider that, if you could either put it in writing, 
pick up the phone and call, seriously, and I look forward to 
meeting with you separately, Mr. Borden, if you would be 
willing to give me some time. I do not know how long you are in 
the States, but just to come in and sit down and educate me a 
little bit. OK?
    Mr. Borden. A pleasure.
    Senator Biden. Thank you very much.
    [The following response to Senator Biden's questions was 
subsequent received from Mr. Borden.]

           Institute for War & Peace Reporting,    
                                   Lancaster House,
                                  33 Islington High Street,
                                   London N1 9LH UK, July 31, 2003.

Senator Joseph Biden,
United States Senate,
201 Russell Senate Office Building,
Washington, DC.

    Dear Senator Biden:

Re: Iraqi Media and Information Strategies

    Thank you for your invitation last week during the hearing on Iraq 
to present further thoughts on information and media strategies.
    As I understood, your outstanding question was how to achieve 
immediate impact, in light of the poor information flow to the 
population and the short window of opportunity described by Dr. Hamre 
and colleagues.
    Your championing of this issue itself offers the kind of 
constructive pressure that can make a real difference in achieving 
early results.
    Practically speaking, I would strongly argue that the primary 
approach should be to press ahead hard with the strategies I outlined. 
Political pressure to ensure rapid and professional implementation, and 
appropriate allocation of resources, can achieve a great deal--and 
relatively quickly.
          (1) In a fast-moving environment, my understanding is that a 
        Director of Communications for the CPA has been identified. 
        That person needs to be in post, with clear authority and 
        adequate resources, and close scrutiny in the first instance to 
        ensure creative and energetic implementation. I hope for an 
        aggressive and progressive strategy for providing information, 
        especially to Iraqis through Iraqi media. In a politicized 
        environment, a message needs to be clarified and communicated, 
        but the emphasis should be on transparent and honest facts 
        rather than spin and marketing. Communications need to be 
        offered in Arabic and Kurdish, and mechanisms developed to 
        enable local media to make contact, which means getting outside 
        the cloistered palaces.
          (2) A head for a new independent Iraqi media commission has 
        also been identified. He also needs clear authority and remit. 
        As I indicated in my testimony, mid-level bureaucratic 
        resistance and delays in allocating resources present a serious 
        obstacle to success here. In particular, full independence 
        needs to be provided from the start, especially in terms of 
        staff hires. On the positive front, there are creative 
        strategies to exploit frequency regulation in the first 
        instance to gain rights for public service programming across 
        all existing local Iraqi media. So there can be ``early wins'', 
        as long as this process is allowed to move ahead with full 
        steam. Any let-up here would be a disaster.
          (3) I am pleased to note that the British development agency 
        DIFD has confirmed a grant to my organization, the Institute 
        for War & Peace Reporting, to launch a journalist training and 
        humanitarian reporting project with local journalists, and we 
        expect this to begin in a matter of weeks. Our understanding is 
        that this will be the first such field training and reporting 
        effort. The aim is to produce reliable reporting through local 
        voices on humanitarian developments and disseminate this work 
        through local print and radio outlets. Further resources 
        through organizations like IWPR and others with whom we 
        cooperate could extend such activities. In terms of other 
        immediate possibilities, fresh resources could also be utilized 
        to provide free Internet access for local journalists, which 
        could substantially improve their capacity to report. Such an 
        effort could serve as a first project of an independent Iraqi 
        Media Institute and could be implemented quickly. Public 
        private partnerships should also be encouraged to ensure the 
        establishment of sustainable Iraqi media with a focus on 
        promoting civil society and engendering broad debate and 
        political participation.
    In the Balkans and elsewhere, we have seen crisis response 
initiatives undermine long-term strategies, soak up substantial donor 
funds, and ultimately fail in their own terms as well. After the 
initial false start, the strategies outlined--establishing a CPA 
information strategy, creating an independent media commission, and 
supporting independent and Iraqi-led activities--are solidifying and on 
the verge of implementation.
    The challenge now is to see them through, and your championing of 
the issue would make a very important contribution to maintaining 
pressure and mobilizing support to ensure that that happens.
    It was a particular honor to testify before you and your colleagues 
on the Senate Foreign Relations Committee. I would be delighted to 
provide you with any further assistance you may require, and your staff 
have all my contact details. If we do not speak by telephone, I will be 
regularly in the States from September and could meet any time.
    With thanks for your interest and support on this issue, and best 
regards.
            Yours,
                           Tony Borden, Executive Director.

    The Chairman. Thank you, Senator Biden.
    Let me just indicate--I am going to call upon Senator Hagel 
now--that a rollcall vote has commenced on the floor and there 
will be another following that. So after this questioning, the 
hearing will be coming to a conclusion, and you will finally be 
released.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you, and I very much 
appreciate the chairman's giving me an opportunity to ask one 
final question and I will be very direct.
    It is your last point, Dr. Hamre, of your seven points you 
laid out in your statement. Dr. Orr you referred to it, I 
believe, referencing bureaucracy in Washington slowing 
Ambassador Bremer down. You talk about it, Dr. Hamre, here 
saying, ``finally, Administrator Bremer and his team need 
greater flexibility.'' You went a little further I think, Dr. 
Orr, in being a little more specific about bureaucracy hanging 
him up here in Washington. We heard some of this when we were 
in Iraq, by the way, and we heard it rather plainly and it was 
put indelicately by some, not in earshot of the authorities, 
but nonetheless I think we got the picture.
    Would you care to respond to the points you each made, in a 
brief amount of time here, because obviously I do not want to 
use all the time? The chairman has time here.
    Dr. Hamre. Sir, I understand that people here in Washington 
want to try to be helpful, but I think that they are really 
operating within the Washington frame of reference when that, 
frankly, is not helpful right now. We need to trust the people 
over there to be making the right decisions. Just like 
Ambassador Bremer trusts a local lieutenant colonel to spend 
money on a project on his word this is going to help, we need 
to really start investing that kind of trust in Ambassador 
Bremer and his whole team. It is taking too long to get money 
released. It is taking too much time to get contracts approved. 
We ought to have much more contracting capability there in 
theater. They need to be held accountable, but they feel they 
are accountable. So let us not tie them up with lots of second-
guessing and micro-management in Washington, and I think that 
would be our plea. I think it is in the area of funds release, 
funds control, accountability, personnel assignments, that sort 
of thing.
    Senator Hagel. Before I go to Dr. Orr for a very quick 
answer, let me just add, if you have not done this already and 
if it is not in your complete report, which I have just read 
the abbreviated version of, the executive summary of, it would 
be very helpful to get down into that because we heard specific 
agencies--in fact, OMB was mentioned, too much control at DOD. 
Everything was having to go back through DOD, then OMB, then 
back around. So anything specifically that you could touch on 
would be helpful. I would be very interested in getting any of 
that myself to see if I can help.
    Dr. Hamre. Most of those complaints I heard directed at me 
when I was comptroller. So I am very familiar with them, and I 
will be glad to report on it.
    Senator Hagel. Thank you.
    Dr. Orr.
    Dr. Orr. Just as Dr. Hamre describes himself as a money 
guy, I will describe myself as a people guy. I think on the 
personnel side the needs are just screaming, quite frankly, and 
I think Ambassador Bremer and all of his top people know what 
they need. They have put this to us many times, and we said, 
well, why do you not have it? They said, well, we have asked 
for it. I cannot tell you why exactly. It goes to Washington 
and we just do not get the people that we really need here on 
the ground. So I think we need to have someone take a look at 
the process of where the echo chamber is bouncing these names 
around, where it is bouncing the money around. Someone could 
cut through a lot of that business as usual. This is a 
situation where I think, as Dr. Hamre said, we cannot afford 
business as usual either on the money side or on the personnel 
side.
    Senator Hagel. Well, if you have not done it, I just say--
and I know you want to make a quick comment, Dr. Mendelson-
Forman--I think this is a critical part of this, especially in 
light of the larger dynamic of your recommendations, all of 
you. Time is not on our side here, and you all presented that 
pretty clearly today on the great challenges that we have here. 
We are going to stay the course and accomplish what we have to 
accomplish. But just as you point out, Bremer needs a straight 
line here and his people do or it is going to be much more 
difficult, and you know that.
    Dr. Mendelson-Forman.
    Dr. Mendelson-Forman. I just wanted to add to Dr. Orr's 
comment because this project started as a look at the gaps in 
U.S. capacity to deal with post-conflict reconstruction. We did 
write a paper about some of the funding obstacles, and we would 
be happy to share some of that information because it does not 
touch on Iraq because it happened before Iraq, but I think some 
of the obstacles and the needs for these quick infusions of 
cash are discussed and ways to deal with them. So we can send 
that to you.
    Senator Hagel. Thank you.
    Mr. Chairman, you were very generous with your time. Thank 
you.
    Senator Biden. Mr. Chairman, may I make very one brief 
point to reinforce the point you all made? Right after the 
Taliban was rooted out, I spent 5 days, 6 days, or whatever it 
was, in Kabul at Bagram Air Base. Our Ambassador had people 
coming to him, Ambassador Crocker, acting, to ask just to get a 
little bit of help. I think it was something like $360 to fix a 
boiler in a hospital that was a pediatric hospital where they 
had no heat and the average temperature there was 19 degrees. 
And DOD had no money. He had no money. I came back and found 
out that there is a fund at State where I called a guy--he was 
one of the best guys I ever dealt with at cutting through 
stuff. He is the No. 2 guy over there. And I called him up and 
I said, look, you have $20 million. Send it to them.
    What happened was immediately you had Rich Armitage send 
them $20 million over there to Crocker so he did not have to go 
through anybody. And he put a sewer in here. He put a well in 
there. And it was of significant immediate impact. That is the 
kind of stuff you are talking about right now. Is it not?
    Dr. Hamre. Absolutely.
    Senator Biden. And I wish you guys were able to talk to 
State a little bit too, but that is another question.
    Dr. Hamre. Well, we will.
    The Chairman. Let me just add one further thought on the 
communications thing, which I would have amplified if more time 
had been available to us. Yesterday Jerry Bremer told us a 
television station was stood up on the 13th of this month, and 
he estimated that through radio maybe 90 percent of the 
population of Baghdad is able to get messages. He did not make 
estimates for beyond Baghdad for the rest of the country.
    Each of you have been there even more recently than we. I 
am eager to get some analysis of how the word would get to 
people. How many people have TV sets or radio sets or what have 
you in Baghdad or elsewhere. Even as we think about the 
importance of the message, even after you have the vehicles, it 
was not clear to me at the time--we were there 4 weeks ago 
yesterday--how many people could hear anything, if you even had 
some content. I am just curious about the infrastructure of 
communications because this is obviously a very important 
matter, as are the budget, the personnel, and the other items 
we have tried to cover today.
    We thank you again for a remarkable report and for being so 
forthcoming in your testimony and your responses.
    Dr. Hamre. Thank you.
    Ms. Crocker. Thank you.
    Dr. Orr. Thank you.
    Dr. Mendelson-Forman. Thank you.
    Mr. Barton. Thank you.
    Mr. Borden. Thank you.
    Senator Biden. A good hearing, Mr. Chairman.
    The Chairman. The hearing is adjourned.
    [Whereupon, at 5:10 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


                 Additional Submissions for the Record


                    [From USA TODAY, July 22, 2003]

  How Peace in Iraq Became so Continued--Violence and Chaos not Only 
  Jeopardize Troops but Also the Future of U.S. Foreign Policy in the 
                              Middle East

                   (By Barbara Slavin and Dave Moniz)

    Washington--On March 16, three days before the first U.S. bombs 
fell on Iraq, Vice President Cheney signaled on NBC's Meet the Press 
what sort of war the Bush administration thought American troops were 
about to fight: ``Things have gotten so bad inside Iraq . . . we will, 
in fact, be greeted as liberators,'' Cheney said.
    Baghdad fell 21 days after the initial assaults, and military 
analysts describe the campaign as historic, even brilliant.
    But so far, the verdict on the aftermath of that campaign is much 
harsher. More than three months after Baghdad fell, American soldiers 
are not being treated like liberators. Instead, they face a guerrilla 
war, according to Gen. John Abizaid, the commander of U.S. forces in 
the region. Shadowy forces prey on U.S. troops, sabotage the nation's 
electric grid and other vital infrastructure, and spread fear among 
average Iraqis that Saddam Hussein is coming back.
    Administration officials say the violence will eventually subside. 
But as of mid-July, even the top U.S. official in Iraq was offering no 
clear forecast for when, ``We need to be patient,'' Paul Bremer, the 
U.S. administrator for Iraq, told Meet the Press on Sunday. Though 
expressing confidence that resistance could be overcome, he conceded 
that ``we are going to be there for a while. I don't know how many 
years.''
    Interviews with more than 30 current and former U.S. officials, 
analysts, Iraqi-Americans and others--including a cross-section of 
those involved in the planning process--identified a number of prewar 
decisions that they say helped create the current situation. Hasty 
planning, rosy assumptions about Iraqi attitudes and a failure to 
foresee and forestall the disastrous effects of looting and sabotage 
all contributed, they say.
    Most spoke on the record, but a few in sensitive positions 
requested anonymity.
    Whatever the reasons for the disarray, the stakes are enormous. A 
failure to create a successful, stable Iraq could have grave 
repercussions throughout the Middle East and beyond, jeopardizing U.S. 
efforts to deter support for terrorism, curb proliferation of dangerous 
weapons and encourage democratic reforms. The outcome could also affect 
voters' views of the war and President Bush's reelection prospects.
    Failure to secure the peace in Iraq ``has the potential to outweigh 
every accomplishment of American foreign policy,'' says Leslie Gelb, 
who recently stepped down as president of the Council on Foreign 
Relations, a prominent think tank.
    Should planners have foreseen the chaos and disorder that now stalk 
Iraq? And how did such a well-fought combat operation give way to such 
a messy and seemingly open-ended guerrilla conflict? Those interviewed 
disagree about precisely what went awry, but they identify at least six 
different reasons for the current difficulties:
                  deploying a limited number of troops
    When major cities were captured quickly by a comparatively small 
force of allied ground troops, military officers and analysts who had 
advocated a massive invasion force were silenced--for awhile. Now they 
say the postwar chaos shows they were right after all, that it was 
crucial to have a massive force on the ground, not just to win the war, 
but to establish a commanding presence the minute the war was over. 
Instead, once Saddam loyalists sensed how thin the U.S. forces were, 
they became emboldened to begin looting, conduct sabotage and, finally, 
wage guerrilla war.
    ``Once we got to Baghdad, we needed to establish an immediate 
presence to show the people we were in charge,'' says Ralph Peters, a 
retired Army officer and strategist. ``We did not present tangible 
strength on the ground.''
    Four years ago, those who devised an Iraq war game called ``Desert 
Crossing'' concluded that a large force would be needed to subdue the 
country. ``We were concerned about the ability to get in there right 
away, to flood the towns and villages,'' says retired Marine Gen. 
Anthony Zinni, who was commander of U.S. forces in Iraq and the 
surrounding region when he supervised ``Desert Crossing.'' ``We knew 
the initial problem would be security.''
    The 1999 exercise recommended a force of 400,000 troops to invade 
and stabilize Iraq. But at the insistence of Defense Secretary Donald 
Rumsfeld, ground forces in the March invasion were held to less than 
half that: about 130,000 U.S. combat troops and some 30,000 British 
troops.
    Top Pentagon officials fiercely defend their decision to hold troop 
numbers down. Douglas Feith, undersecretary of Defense for policy and 
an influential adviser to Rumsfeld, says the strategy prevented much 
worse problems that could have arisen if Saddam Hussein's regime had 
had more time to react.
    Taking time to deploy more troops, Feith said in an interview July 
8, would have given Saddam ``more chances to send a Scud missile into 
Kuwait or Israel, rig bridges to explode, or prepare to hide or use 
chemical weapons.''
    Feith said it's easy in hindsight to identify problems that should 
have been planners' primary focus. ``But if we didn't have a looting 
problem, but we had the oil fields blown, and refugees fleeing across 
the border, and mass starvation, and all other things we planned 
against . . . would everybody now say that was a brilliant job of 
planning because you put an extra 100,000 forces in and a building 
didn't get looted?''
    It's uncertain whether a force of 400,000 or more would have 
prevented looting and sabotage or headed off a guerrilla war. 
Peacekeeping missions vary from country to country, and what worked in 
one nation might not work in another. But participants in the war 
preparations offer insights into the information planners considered 
and what assumptions they made when they rejected the idea of a larger 
force.
    As late as February, barely a month before the war began, the 
question of how many troops to send to Iraq to stabilize the country 
after the war was unsettled, according to a high-ranking Defense 
Department official involved in the planning process.
    To help planners reach a decision, staff members on the White 
House's National Security Council (NSC) prepared a memo that looked at 
the numbers of troops used in recent peacekeeping operations and stated 
what numbers would be sent to Iraq if those models were followed, the 
official said. If the peacekeeping operations during the 1999 Kosovo 
crisis were used as a benchmark, the memo said, 500,000 troops would 
have been deployed to Iraq. A large number of peacekeepers was also 
sent to Bosnia, but relatively smaller forces were deployed in other 
crises in Haiti and Sierra Leone, where the outcome has been less 
successful than in the Balkans.
    The memo did not set an inflexible rule for force size, but instead 
laid out the apparent lessons of recent peacekeeping operations. 
National security adviser Condoleezza Rice saw the memo, but it is not 
clear whether President Bush did. Michael Anton, an NSC spokesman, 
refused to comment on the document, apart from denying that any 
specific recommendation had been made regarding how many troops should 
be deployed. ``The NSC staff does not make recommendations or provide 
estimates to the president on the number of troops needed for any 
mission,'' he said.
    Yet about the same time the document was drafted, Rumsfeld and his 
deputy, Paul Wolfowitz, harshly criticized then Army Chief of Staff 
Gen. Eric Shinseki for telling the Senate Armed Services Committee that 
it would take ``something on the order of several hundred thousand 
soldiers'' to stabilize Iraq in the months after the war.
    In the end, the conviction that U.S. forces would be warmly 
welcomed was at the heart of the decision-making, judging from the 
administration's public statements and inside accounts from those who 
took part in the debate.
    Thomas White, who served as secretary of the Army until Rumsfeld 
pushed him out after the war over differences about force size and 
other matters, traces the force-size decision to the belief by Cheney, 
Rumsfeld and others that U.S. troops would be hailed as liberators.
    The implication was that ``liberated people don't misbehave,'' 
White said in an interview. When Army generals suggested larger troop 
numbers, ``that was not music anyone down the hallway (in Rumsfeld's 
office) wanted to listen to,'' White said. ``Anybody who looked at the 
situation, that string of assumptions, it affected what kind of force 
we took in there and how we are conducting ourselves now. This is going 
to be a long, drawn out affair.''
    White's description of Rumsfeld's view was corroborated by three 
serving high-ranking Pentagon officials, as well as analysts at the 
Pentagon's own academic institution, the National Defense University.
    Former and current Pentagon officials also say Rumsfeld decided to 
limit ground forces in part because of his conviction that high-tech 
arms can transform military operations and reduce the need for boots on 
the ground.
    Feith confirmed that the decision to limit the number of troops 
sent in was ``strategic and goes far beyond Iraq. This is part of his 
(Rumsfeld's) thinking about defense transformation. It's an old way of 
thinking to say that the United States should not do anything without 
hundreds of thousands of troops. That makes our military less usable.''
                           starting too late
    While war planning started more than a year before the March 2003 
invasion, Pentagon planning for postwar Iraq did not get underway in 
earnest until shortly beforehand.
    The Pentagon's Office of Reconstruction and Humanitarian Assistance 
(ORHA), tasked with initial post-Saddam political and economic work, 
was not created until Jan. 20 and did not really start functioning 
until a few weeks before the war began. Wolfowitz told the Senate 
Foreign Relations Committee that ``to my knowledge this is the first 
time we have created an office for postwar administration before a 
conflict had even started.'' While that's technically true, U.S. 
planning for the occupation of Germany began three years before the end 
of World War II.
    Retired Army general Jay Garner, who headed initial post-Saddam 
planning and reconstruction efforts, says U.S. officials were inhibited 
partly by the need to show the world that they were giving diplomacy a 
chance. But he says he could have used more time. ``I didn't have all 
the people who had been appointed to work in the ministries,'' Garner 
says. Also ``10 of 13 major contracts (for reconstruction work) weren't 
signed until after the war started. Should we have done it earlier? 
Sure.''
   underestimating the impact of looting and the poor state of local 
                             infrastructure
    Only three brigades of about 6,000 soldiers were in Baghdad when 
the city fell on April 9, controlling just 15% of a city with a 
population of more than 5 million. Among them were only 140 MPs, says 
Maj. Gen. Buford Blount, commander of the Army's 3rd Infantry Division. 
As a result, U.S. forces were not in a position to stop the widespread 
looting that broke out after Saddam fell, even if they had been ordered 
to. And they were not given such orders because the pilferage was 
regarded by Rumsfeld and his top aides as a minor annoyance, a letting 
off of steam by newly liberated Iraqis.
    ``Looting wasn't taken into military consideration,'' Blount says. 
``It never came in the order process that it would be a major 
problem.''
    But the devastation seriously undermined the postwar mission. 
Iraqis stole, destroyed or scattered furniture, computers, electric 
lines, archaeological relics, crucial records, and vital equipment at 
power plants, oil installations and hospitals.
    ``It presented us with a hard problem,'' acknowledges Garner. ``Our 
plan was to immediately stand up 20 of 23 existing ministries,'' he 
says. ``But 17 of them had been vaporized.''
    U.S. officials also overestimated the condition of Iraqi 
infrastructure, discounting reports from the United Nations and others 
about the jury-rigged nature of Iraq's oil industry and electrical 
grid. As a result, they face a much bigger task trying to restore basic 
services than they anticipated. Two prior wars and a decade of U.N. 
economic sanctions ``killed this country,'' says a congressional aide 
who recently returned from Iraq. ``We had no idea how bad it would 
be.''
            making wrong assumptions from the last gulf war
    Pentagon and State Department experts, studying the lessons of the 
1991 Gulf War, expected ordinary Iraqi soldiers to surrender in large 
numbers instead of taking off their uniforms and melding back into the 
population. There was also an assumption, a senior State Department 
official involved in Iraq planning said, that U.S. forces could 
immediately use the rank-and-file Iraqi soldiers and police to 
stabilize the country once the top officers had been removed.
    ``The fact is that the so-called decapitation theory, the thought 
that somehow or other the United States would take out of commission 
police officers, army officers, people who were in the ministries, who 
were identified with Saddam Hussein and the regime, and the rest of the 
forces would continue on to do their duty, was totally inaccurate--a 
disastrous assumption,'' says Sen. Richard Lugar, R-Ind., chairman of 
the Foreign Relations Committee.
    ``The policemen seem to have been better trained to raid people's 
homes at night than to patrol the streets,'' Wolfowitz acknowledged 
before the Foreign Relations Committee in May.
                 planning for crises that didn't happen
    Much of the prewar planning focused on crises that did not 
materialize: oil field fires, large refugee flows and huge numbers of 
prisoners. In a clear strategic success, U.S. and British forces got to 
the oil fields before they could be sabotaged in a significant way. The 
initial combat ended so quickly that most Iraqis stayed in their homes.
    ``A lot of our current problems have to do with the fact that we 
planned for the wrong immediate aftermath,'' says Richard Haass, a 
former senior State Department official who now heads the Council on 
Foreign Relations.
    ``The administration planned quite a lot. But planning is only as 
good as the assumptions, and one of the assumptions built in was that a 
lot of the initial period was going to be dealing with the humanitarian 
crisis.''
    Haass, who occasionally clashed with Pentagon hardliners over U.S. 
policy toward nations such as Iraq, says the swiftness of Baghdad's 
fall, ironically, made the post-Saddam effort more difficult.
    ``The fact that the Iraqi people were so spared by the war, 
psychologically, there wasn't a sense of the defeated society,'' he 
says.
    ``So it's not nearly as pliable as Japan or Germany were after 
World War II.''
    Turkey's refusal to allow 60,000 U.S. troops to invade Iraq from 
the north meant that the so-called Sunni Muslim triangle north of 
Baghdad was largely untouched. That region has become a focal point for 
resistance.
    Feith conceded that he was surprised by the degree of opposition 
from remnants of Saddam's Baath party, which he said was ``more 
sustained and more intense than anticipated.''
                failing to resolve interagency conflict
    Chronic feuding between the State Department and the Pentagon's 
civilian leadership made the planning process even more difficult, 
those involved in the process say.
    The office of the secretary of Defense largely ignored position 
papers produced over the past year by the State Department's Future of 
Iraq program, which brought together about 200 Iraqi exiles to discuss 
reorganization after the fall of Saddam.
    Instead, the Pentagon early this year started a parallel operation 
with exiles vetted for support for Ahmad Chalabi, an exile leader close 
to Republican neo-conservatives and distrusted by the State Department.
    Pentagon civilians also vetted State Department volunteers for 
service in Iraq and tried to bar those considered hostile to Chalabi, 
State Department officials said.
    ``What went wrong was turf war in Washington,'' says Feisal 
Istrabadi, an Iraqi-American lawyer in Chicago who participated in the 
State Department effort to draft new laws for Iraq.
    ``The Pentagon won the (bureaucratic) war in January and shunted us 
off to one side on the theory that they could re-invent in two months 
what we had done in ten months.''
    Pentagon and State Department officials, as well as Middle East 
experts from all sides of the political spectrum, also fault the 
National Security Council, which is supposed to be the coordinating 
body for foreign policy.
    One Pentagon hardliner, who asked not to be named, said so-called 
``principals'' meetings' that brought together Rumsfeld, Secretary of 
State Colin Powell and Rice, often failed to reach decisions, leaving 
subordinates to improvise as they went along.
    ``We have to understand that it was the function of the NSC to 
insure that the interagency process worked,'' says Anthony Cordesman, a 
Middle East military expert at the Center for Strategic and 
International Studies (CSIS). ``Failure must be placed at the level of 
the NSC and the president.''
    As attacks on American and British forces intensify, concerns are 
growing about whether the U.S.-led coalition will be able to stabilize 
Iraq.
    ``The next three months are crucial to turning around the security 
situation,'' concluded a task force of foreign policy experts from CSIS 
and the Council on Foreign Relations who visited Iraq last week at 
Rumsfeld's request.
    ``The window for cooperation may close rapidly if they (Iraqis) do 
not see progress,'' the report said.

                                 ______
                                 

 Prepared Statement of American Association of Engineering Societies, 
                        Paul J. Kostek, Chairman

    The American Association of Engineering Societies (AAES), its 24 
member societies and the over one million U.S. engineers it represents, 
wish to thank Chairman Lugar and Ranking Member Biden for the 
opportunity to submit testimony for the record on the topic of 
Reconstruction in Iraq.
    The engineering community understands and believes the most 
pressing task in Iraq is to establish secure and stable conditions 
throughout the country, and we believe that the Coalition forces are 
well on their way to doing just that. Key to the establishment of 
secure and stable conditions is the reconstruction and building efforts 
to improve the country's infrastructure, which are currently underway. 
Since the President declared an end to major combat operations on May 
1, 2003, building and reconstruction efforts have focused on critical 
areas of infrastructure that will each contribute to substantial 
improvements in the lives of the Iraqi people. They are water, 
sanitation, health, education, electricity, ports, airports, and local 
governance.
    The US engineering community believes that one of the most 
important actions to occur during the building and reconstruction 
process must be the engagement of the Iraqi people in all aspects of 
the process, especially the Iraqi engineering community. It is an 
accepted fact that the Coalition forces will be a strong presence in 
Iraq for years to come, but at the same time it is also understood that 
the Iraqi people will be responsible for their own community once the 
Coalition forces have decreased and withdrawn.
    In conjunction with the World Federation of Engineering 
Organizations (WFEO), the US Army Corps of Engineers and others, the US 
engineering community has begun to work directly with the Iraqi 
engineering community during the building and reconstruction process. 
Through regular video conference calls, e-mail exchanges, meetings and 
the like, the US engineering community has come together to help its 
colleagues in Iraq. Some examples of that assistance include providing 
technical journals and literature in an effort to update existing 
engineering skills and technology; providing volunteer US engineers 
willing to travel to Iraq to help their colleagues; and providing 
contacts within the technical community for general assistance in all 
manner of issues. At this critical time, we appreciate the efforts made 
by the US Army Corps of Engineers and other federal agencies to help 
facilitate our outreach to the Iraqi engineering community.
    Our outreach to the Iraqi engineering community is an example of 
how the US engineering community is working to create a sustainable 
world that provides a safe, secure, healthy life for all peoples. The 
US engineering community is increasing its focus on sharing and 
disseminating information, knowledge and technology that provides 
access to minerals, materials, energy, water, food and public health 
while addressing basic human needs. Engineers must deliver solutions 
that are technically viable, commercially feasible, and environmentally 
and socially sustainable.
    The reconstruction of Iraq, and indeed the survival of our planet 
and its people requires the collaboration of all professions in both 
developed and developing countries to sustain future generations. The 
goal of improving the social and economic well being of all peoples in 
the developed and lesser-developed countries is a pre-requisite for 
creating a stable, sustainable world. Although achieving this goal will 
require a broad coalition of well-crafted policies, it will only be 
realized through the application of engineering principles and a 
commitment to public/private partnerships involving professionals from 
all fields including the social sciences, engineering and medicine. It 
will also require collaboration for development, acceptance and 
dissemination of innovative solutions and better use of existing 
technologies.
    Today's world is increasingly complex, and the need for US 
assistance in building and reconstruction more common. The US 
engineering community stands at the ready to provide any manner of 
assistance to help in the creation of a sustainable world.

                                   - 

</pre></body></html>
